                                                                                       Protect the Total Force
Office of the Inspector General
    Department of Defense


             VISION STATEMENT
One professional team strengthening the integrity, efficiency,
       and effectiveness of the Department of Defense.



           MISSION STATEMENT
Promote integrity, accountability, and improvement of Department
of Defense personnel, programs and operations to support the
       Department’s mission and serve the public interest                    Military	 	 	 	 Contractors	 	 	 	 Civilians
                     CORE VALUES
                                                                             Report: Fraud, Waste, and Abuse
       Accountability • Integrity • Efficiency
                                                                                         Department of Defense
                               Goal 1   Improve the economy, efficiency,
                                                                                        Inspector General Hotline
                                        and effectiveness of Department of
                                        Defense personnel, programs, and
                                        operations.
                                                                                                   1-877-363-3348
                              Goal 2    Eliminate fraud, waste, and abuse
                                        in the programs and operations of    DSN: 312-664-1151 	    Email: hotline@dodig.mil 	    www.dodig.mil/hotline
                                        the Department.
                                                                                                    Send written complaints to:
                                        Ensure the efficiency and
                                                                                                         Defense Hotline
                               Goal 3                                                                     The Pentagon
                                        effectiveness of DoD IG products,
                                        processes, and operations.                                  Washington, DC 20301-1900
                            Message from the Inspector General


We are pleased to present the Department of Defense Inspector General Semiannual Report to Congress for October 1, 2007
to March 31, 2008. Issued in accordance with the Inspector General Act of 1978, as amended, this report summarizes our
significant activities and recommendations.

                           The Secretary of Defense has established four focus areas for the Department: prevail in the Global
                           War on Terror; strengthen joint warfighting capabilities; focus on people; and transform enterprise
                           management. We fully support these areas through our oversight of Defense programs and
                           operations.

                           We in the oversight community are on the forefront of detecting and preventing waste, fraud, and
                           abuse. We serve two very important groups: warfighters and the American people. We have a
                           responsibility to ensure that the American taxpayer gets the most for their hard-earned dollars. We
                           have a responsibility to the DoD leadership that they are getting what they pay for so they can carry
                           out their mission of protecting this great Nation.

                           It is the independence of the IG that allows us to identify a problem or situation, analyze it, make
                           an actionable recommendation, and oversee the recommendation’s implementation.

We have identified priorities based on GWOT challenges faced by the Department and established the following goals:
increase the DoD IG presence in Southwest Asia to work on priority issues directly supporting Operation Enduring Freedom
and Operation Iraqi Freedom; expand coverage of DoD GWOT-related programs and operations by providing oversight in
fundamental areas, such as contract surveillance, financial management, accountability of resources, as well as training and
equipping of personnel; and increase efforts to prevent the illegal transfer of strategic technologies and U.S. Munitions List
items to prohibited nations, terrorist organizations, and other criminal enterprises.

The DoD IG has 49 audits, 121 investigations, 10 inspections and 4 intelligence reviews relating to the GWOT that were
either ongoing or completed during this reporting period. As part of our initiative to improve the strategic positioning of
forward deployed presence in the Southwest Asia region, the DoD IG has field offices in Iraq, Afghanistan, Qatar, and Kuwait.

This report also includes summaries of work being done by our counterpart Defense oversight organizations, including the
Defense Contract Audit Agency, the Army Audit Agency, the Naval Audit Service, the Air Force Audit Agency, the Army
Criminal Investigation Command, the Naval Criminal Investigative Service, and the Air Force Office of Special Investigations.
The DoD oversight community has a solemn duty to ensure that we do everything possible to provide our warfighters – our
sons and daughters – with the type of high quality, reliable equipment that will not only enable them to complete their
mission, but also survive in hostile environments around the world and return home.

The DoD IG remains focused on accomplishing its goals of improving the economy, efficiency, and effectiveness of
Department of Defense personnel, programs, and operations, as well as eliminating and preventing fraud, waste and abuse
in the programs and operations of the Department. We will maintain focus in the years ahead to ensure that those we send
forward in locations around the world are trained and have the support that they need to provide proper oversight and to
ensure good stewardship over all we have been entrusted, especially our troops and those that support them.
In closing, we are proud of the dedicated DoD IG auditors, investigators, inspectors, and support personnel who pursue our
mission with integrity and professionalism. We also wish to express our gratitude to and admiration for the people we serve,
the men and women in DoD, both in uniform and civilian. We will continue to provide independent, objective, timely
and relevant information to the Department and Congress. We look forward to working closely with the Department and
Congress to fulfill our shared responsibilities of making the Department as efficient as possible in protecting this Nation and
taking care of those fighting the Global War on Terror.




Submitted April 30, 2008.




                                                    Claude M. Kicklighter
                                                      Inspector General
FRONT COVER
                                                                                           Contents


                         DoD IG COVER          Global war on terror	                                        1
                                               	 GWOT Goals			                                              3
                    48 CONTRACT MANAGEMENT


                                               	 GWOT Highlights				                                        9		
FEATURED ARTICLES




                                                 DoD IG				                                                14
                                               	 Army					                                                 30		
                                                 Navy					                                                 37		
                                                 Air Force	                                                39
                                               		
                                               DoD IG Oversight							                                     45
                                               	   Audit			             				                               46
                                               	   Investigations						                                    60		
                                                   Policy and Oversight						                              70
                                               	
                                               Services Oversight						                                    71
                    57 DEFENSE HOTLINE




                                               	   U.S. Army		     				                                    72
                                               	   U.S. Navy						                                         76		
                                                   U.S. Air Force							                                   81

                                               DoD IG Outreach             				                            91
                                                   	Defense Hotline					                                   92		
                    62 TECHNOLOGY PROTECTION




                                                    DoD IG Website			                                      95
                                                    PCIE/ECIE Activities				                               98
                                               	    DCIE Activities				                                    99
                                               	    Speeches/Conferences                                   99
                                               	    Awards				                                            101

                                               DoD IG Components		                                        103
                                               	   Deputy Inspector General for Auditing			               104	
                                               	   Deputy Inspector General for Investigations			         106		
                                                   Deputy Inspector General for Policy and Oversight	     109
                                               	   Deputy Inspector General for Intelligence              113
                                               	   Office of Communications and Congressional Liaison 	   114

                                               lIST OF appendices                                         115
                         DoD IG Reporting Requirements


IG Act				                              Reporting Requirements			                                                   Page
References


Section 4 (a)(2)    ►“review existing and proposed legislation and regulations...make recommendations...”           N/A
Section 5 (a)(1)    ► “description of significant problems, abuses, and deficiencies...”                            45-70
Section 5 (a)(2)                                                                                                    45-70
                    ►“description of recommendations for corrective action...with respect to significant
                    problems, abuses, and deficiencies...”
Section 5 (a)(3)    ►“identification of each significant recommendation described in previous semiannual            104-
                    reports on which corrective action has not been completed...”                                   105
Section 5 (a)(4)    ►“a summary of matters referred to prosecutive authorities and the prosecution and              45-70
                    convictions which have resulted...”
Section 5 (a)(5)    ► “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...”        N/A
                    (instances where information requested was refused or not provided,)
Section 5 (a)(6)    ► “a listing, subdivided according to subject matter, of each audit report issued...” showing   116-
                    dollar value of questioned costs and recommendations that funds be put to better use.           125
Section 5 (a)(7)                                                                                                    45-70
                    ►“a summary of each particularly significant report...”
Section 5 (a)(8)                                                                                                    127
                    ►“statistical tables showing the total number of audit reports and the total dollar value of
                    questioned costs...”
Section 5 (a)(9)    ►“statistical tables showing the total number of audit reports and the dollar value of          127
                    recommendations that funds be put to better use by management...”
Section 5 (a)(10)   ►“a summary of each audit report issued before the commencement of the reporting period         127
                    for which no management decision has been made by the end of reporting period...”
Section 5 (a)(11)   ►“a description and explanation of the reasons for any significant revised management           N/A
                    decision...”
Section 5 (a)(12)   ► “information concerning any significant management decision with which the Inspector          N/A
                    General is in disagreement...”
Section 5 (a)(13)   ► “information described under Section 804 [sic] of the Federal Financial Management            N/A
                    Improvement Act of 1996...” (instances and reasons when an agency has not met target
                    dates established in a remediation plan)
Section 5 (b)(2)    ►“statistical tables showing the total number of audit reports and the dollar value of          128
                    disallowed costs...”
Section 5 (b)(3)    ►“statistical tables showing the total number of audit reports and the dollar value of          128
                    recommendations that funds be put to better use by management agreed to in a management
                    decision...”
Section 5 (b)(4)    ►“a statement with respect to audit reports on which management decisions have been             131-
                                                                                                                    173
                    made but final action has not been taken, other than audit reports on which a management
                    decision was made within the preceding year...”
Section 8 (f)(1)    ►“information concerning the number and types of contract audits...”                            129
Chapter 1:
Global War
on Terror
Department of Defense
  Inspector General
These are the people we work for....




    and they deserve the best!
Global War on
Terror Goals
      A look at the Global War on Terror goals of the
      Department of Defense Inspector General




The DoD IG is committed to supporting the GWOT and the needs of the men and women fighting this war. Overall,
the DoD IG is responsible for providing oversight to more than $655 billion in funds dedicated for the GWOT. The
responsibility of the DoD IG is to identify and help fix critical mission support problems that impact Operations
Enduring Freedom and Iraqi Freedom. The DoD IG has established the following GWOT-related goals:

Goal 1                                    Goal 2                                  Goal 3
________________________                  ________________________                ________________________
Increase the DoD IG presence in           Expand coverage of DoD GWOT-            Increase efforts to prevent the illegal
Southwest Asia to work on priority        related programs and operations by      transfer of strategic technologies
issues directly supporting efforts for    providing oversight in fundamental      and U.S. Munitions List items
Operation Enduring Freedom and            areas,    —contract     surveillance,   to prohibited nations, terrorist
Operation Iraqi Freedom.                  financial management, accountability    organizations, and other criminal
                                          of resources, as well as training       enterprises.
                                          and equipping of personnel and
                                          developing a logistics sustainment
                                          base.                                                                        
Department of Defense Inspector General
                               Goal 1: Increase DoD IG Presence

To accomplish its oversight mission, the DoD IG has adopted a strategy that is based on maintaining the ideal
presence in theater, but which also recognizes that much of our work can be done away from the war zones, ensuring
safety of personnel and saving the unnecessary monetary funds it would cost to send our people there. An important
part of our oversight effort is to improve inter-service and interagency coordination and collaboration to minimize
duplication of effort and ensure that we have only the staff needed in theater to accomplish the mission.

To provide a more effective and efficient oversight role, the DoD IG has established field offices in strategic Southwest
Asia locations and continues key placement of DoD IG personnel in Southwest Asia. This facilitates timely reviews and
reporting of results in theater and minimizes disruption to the warfighter. The DoD IG has adopted an expeditionary
workforce model to support efforts throughout all of Southwest Asia. The DoD IG has core staff forward deployed at all
times. The core contingent is composed of individuals serving between 6 and 12 month deployments. Expeditionary
team members deploy for as long as needed to complete the review. The actual number of auditors, investigators, and
inspectors in Southwest Asia fluctuates on a daily basis depending on the requirements.

Iraq Field Offices
....................................................................................................................................................................................

In coordination with the Commanding General, Multi-National Force-Iraq and the U.S. Central Command, the
DoD IG established field offices in Iraq at Camp Victory and the International Zone. The Iraq offices are staffed with
up to five auditors at a time. Auditors from the Iraq offices and supporting DoD IG staff who were temporarily in Iraq
performed Phase III of the Iraq Security Forces Fund audit and are currently supporting the assessment on munitions
accountability. Auditors are also performing a joint follow-up review with the MNF-I Inspector General’s Office on
the equipment status of forces in Iraq. In addition, the DoD IG has assigned auditors in Iraq to provide the Defense
Criminal Investigative Service support for ongoing criminal investigations pertaining to contract fraud. The auditors
in Iraq also provide support to DoD IG teams based in the continental United States performing oversight related to
Iraq such as the management of contractor issues within Southwest Asia and the Army Reset program.

DCIS has established a permanent presence in Iraq. Two special agents are currently assigned to Iraq. An additional
special agent has been temporarily deployed to support a special cell investigating issues relating to weapons
accountability. These in-theater agents are the forward deployed elements of the approximately 71 DCIS special agents
in CONUS and OCONUS participating in Southwest Asia investigations.

Afghanistan Field Office
....................................................................................................................................................................................

In coordination with the Commander, Combined Joint Task Force-82 and the U.S. Central Command, the DoD
IG established a field office in Afghanistan at Bagram Air Base. The DoD IG Afghanistan Field Office is staffed by
three full time auditors, who, along with a six-member expeditionary team are conducting several projects including
audits on “The Procurement and Use of Nontactical Vehicles at Bagram Air Field, Afghanistan” and “Contingency
Construction Contracting Procedures Implemented by the Joint Contracting Command-Iraq/Afghanistan.” In



                                                                                                                                          Semiannual Report to Congress
                                                              addition, the auditors in Afghanistan are providing support to DoD IG teams
                                                              based in the continental United States looking at contractor issues within
                                                              Southwest Asia.

                                                              Additionally, DCIS is in the process of establishing a full-time presence in
                                                              Afghanistan. Two special agents will be deployed to Afghanistan. These
                                                              agents will work alongside partner agencies, such as the U.S. Army Criminal
                                                              Investigation Command, to investigate fraud, waste, and abuse impacting
                                                              theater operations.

DoD IG personnel at the Afghanistan Field Office.


Qatar Field Office
....................................................................................................................................................................................

The DoD IG established a field office in Qatar collocated with U.S. Central Command Air Forces on Al Udeid
Air Base, Qatar. The Qatar office is staffed with up to five auditors at a time. The Qatar office conducts audits as
required in Iraq, Afghanistan, or throughout the U.S. Central Command area of responsibility. Auditors from the
Qatar field office have traveled to Iraq and Afghanistan to perform specific reviews, such as the audits of “Potable and
Non-Potable Water in Iraq” and “Contractor Support to the Joint Improvised Explosive Device Defeat Organization
in Afghanistan.” Additionally, the Qatar office staff facilitates and may augment other teams that require temporary
travel in theater to conduct specific reviews. Also, the auditors in Qatar are providing support to DoD IG teams based
in the continental United States looking at the management of contractor issues within Southwest Asia. The Qatar
office also provides administrative operations support to the DoD IG Southwest Asia field offices.

Kuwait Field Office
....................................................................................................................................................................................

The DoD IG field office in Kuwait is staffed by two DCIS special agents who are focused on contract fraud and other
potential criminal activities in Kuwait that impact Southwest Asia efforts.

          DoD IG auditors in Afghanistan discussing and reviewing expenditures of
          Afghanistan Security Forces Fund.




                                                                                                                                                                                  
Department of Defense Inspector General
                               Goal 2: Expand DoD IG Oversight

GWOT, especially operations in Southwest Asia, continues to be a top priority of the DoD IG and its four operational
components. Auditing, Investigations, Policy and Oversight, and Intelligence have 184 ongoing or completed projects;
49 in Auditing, 121 in Investigations, 10 in Policy and Oversight, and 4 in Intelligence.

Those184 projects provide oversight of various functions and activities such as contracts and contract fraud, readiness,
logistics, funds management, accountability, theft, corruption, and intelligence efforts. DoD IG has completed or is
conducting oversight efforts that cover approximately $129.6 billion related to DoD GWOT efforts.



             Audits                            Investigations                                   Evaluations                                Intel Reports
                    49                                          121                                           10                                            4

The DoD IG is developing a comprehensive plan for a series of audits of Department of Defense contracts, subcontracts,
and task and delivery orders for the logistical support of coalition forces in Iraq and Afghanistan in support of the
FY 2008 National Defense Authorization Act Section 842, “Investigation of Waste, Fraud, and Abuse in Wartime
Contracts and Contracting Processes in Iraq and Afghanistan,” January 28, 2008. The DoD IG anticipates starting
approximately 40 projects relating to this area within the next 6 months.


DoD IG Field Offices
...................................................................................................................................................................................





                                                                                                                                          Semiannual Report to Congress
              Goal 3: Increase Technology Protection
DCIS conducts investigations into the illegal diversion, theft, or movement of strategic technologies and U.S.
Munitions List items to proscribed nations, terrorist organizations and other criminal organizations that pose a threat
to national security. Technology protection-related investigations have grown to encompass approximately 12 percent
of DCIS’ active caseload. DCIS is currently recognized by the Department of Homeland Security, FBI and various
members of the Intelligence Community as the primary DoD criminal investigative element supporting the on-going
battle against counter-proliferation and illicit technology transfer. Examples of DCIS work in this area are highlighted
below.

Two subjects were each charged with three violations of the Arms Export Control Act for attempting to illegally
export F-14 and F-4 fighter components to foreign buyers without possessing a required license. They were indicted
on October 4, 2007. Currently, the only country that uses F-14 and the F-4 fighter aircraft is Iran. This investigation
began when both ICE and DCIS identified F-14 parts listed for sale on a web site maintained by one of the subjects.
ICE agents bought cable assemblies and other materials from the subject. The subject and his associates tried to
disguise and export the items they were selling, but the materials were intercepted by ICE agents before they left the
United States.

A joint DCIS and ICE investigation lead to a citizen of the Democratic Socialist Republic of Sri Lanka being convicted
of conspiracy to provide material support to a designated foreign terrorist organization and attempted exportation
of arms and munitions and sentenced to 57 months confinement, followed by three years supervised release and
deportation. The Sri Lankan citizen conspired to illegally export machine guns, ammunition, surface-to-air missiles,
night vision goggles, and other military equipment to the Liberation Tigers of Tamil Eelam (Tamil Tigers).

The same investigation resulted in the conviction of a citizen of the Republic of Indonesia who conspired to provide
material support to a foreign terrorist organization, laundered money, and attempted to export arms and munitions.
The Indonesian citizen sent an itemized list to an undercover business requesting 53 military weapons, including
sniper rifles, machine guns, and grenade launchers, with the intent of supplying the weapons to the Tamil Tigers.

A joint DCIS/ICE investigation identified World Electronics as the purchaser of a transformer seized by Israeli
officials. Further investigation identified over the course of several years, an individual affiliated with the company
made numerous shipments of U.S. Munitions List Items, such as F-14 aircraft parts, and Hawk missile systems, to
Germany and other countries without obtaining required licenses. On November 30, 2007, the individual and World
Electronics were sentenced for their involvement in a conspiracy to violate export laws. The individual was sentenced
to two-years probation, and ordered to pay a $20,000 fine. World Electronics was ordered to pay a $20,000 fine.

A DCIS/FBI investigation disclosed an individual was involved in the sale of stolen military property. The stolen
equipment included Vital 100 military laser aiming devices and night vision equipment. The individual subsequently
advertised the stolen items on an Internet auction site. The stolen property was seized as evidence and the individual
was subsequently arrested, convicted, and sentenced to 21 months confinement followed by three years of supervised
release for his involvement in the possession and sale of stolen U.S. military property.

The illegal trafficking of critical military technology presents a danger to the United States, its allies and threatens
America’s Warfighters deployed around the world. The illegal exportation of Department of Defense technology to
other countries has been and remains a high investigative priority for DCIS.
                                                                                                                      
Department of Defense Inspector General
Afghanistan Spotlight

                                                       In the spotlight: DoD IG audit teams interact with
                                                       Afghanistan Minister of Defense personnel. During this
                                                       reporting period, the DoD IG expeditionary team has
                                                       strengthened and broadened its relationship with Afghanistan
                                                       Minister of Defense personnel. This relationship has resulted
                                                       in greater support and is making a difference in Afghanistan.
                                                       Additional details are discussed in the spotlight below.

                                                       At the invitation of the Combined Security Transition
                                                       Command - Afghanistan, DoD IG personnel briefed a
                                                       Combined Security Transition Command - Afghanistan
                                                       sponsored auditing class for the Afghanistan Ministry of
                                                       Defense on the DoD OIG review of Afghanistan Security
                                                       Force Funds, including an overview of the life cycle from
                                                       appropriations to purchases to turn over of goods and services
                                                       to the Afghanistan Security Forces.

DoD IG auditor briefing an Afghanistan   The Afghan students and about 60 people, many of whom were Colonels,
Ministry of Defense auditing class.      expressed interest in the accountability of funds and the procurement
                                         practices in place for supporting the Afghanistan Security Forces.

Also, the DoD IG expeditionary work force met with senior personnel from the Afghanistan Ministry of Defense
Office of the Inspector General, to discuss auditing and accountability topics related to the Afghanistan Security
Forces Fund audits.

The staff of the Inspector General for the
Ministry of Defense requested a follow-up
meeting to discuss accountability issues.




                                                                                 DoD IG audit team members meet with the
                                                                                          first female General in the MoD.


                                                                                          Semiannual Report to Congress
GWOT
Highlights
         A look at Department of Defense Inspector General
         efforts in the Global War on Terror




The worldwide campaign against terrorism is the top priority of the DoD IG. Meeting the challenges of combating
terror and upholding our commitment to support the warfighter will continue to place stress on budgetary, manpower,
and materiel resources for both the IG and the Department.

This section focuses on the following efforts made by the DoD IG during this reporting period to support the
GWOT:
	

• Munitions Assessment
• Interagency Oversight
• Congressional Testimony
                                    Munitions Assessment




                                             The previous Semiannual Report to Congress discussed the inter-agency
                                             Assessment Team on Munitions Accountability that was sent to Iraq to
                                             review the accountability and control of U.S. munitions being supplied to
                                             the Iraq Security Forces. The team was composed of members from DoD
                                             IG, Department of State Office of Inspector General, U.S. Army Corps of
                                             Engineers, among others.

                                             The assessment team had two main objectives. The first objective was to
                                             determine whether DoD currently had adequate accountability and control
                                             over U.S.-purchased munitions before formal turnover to the ISF. Secondly,
                                             the team set out to determine whether the ISF currently had adequate
Assessment Team for Munitions               accountability and control over U.S.-purchased munitions once they were
Accountability in Southwest Asia.           in ISF possession.

In Iraq, the assessment team examined the current U.S. and ISF supply chain operations, following the munitions
through transportation, storage, and distribution.

While examining these operations in Iraq, the team conferred with U.S. Ambassador Ryan Crocker and staff, and the
respective Commanders and staff of the Multi-National Force-Iraq led by General David H. Petraeus.

The assessment team’s preliminary finding is that DoD and ISF have a system currently in place for controlling and
accounting for weapons and ammunition; however, there is work that still needs to be done. Many missing weapons
were lost early on due in large part to battle loss, police stations being overrun, desertion, disintegration of untrained
units, some police and military selling their weapons, poor record keeping, and some pilferage from storage facilities.

As the U.S. supply of munitions to Iraq shifts to Foreign Military Sales, the U.S. needs to put the FMS program on
a war-time footing, while also assisting the ISF in building their logistic sustainment base. Both these actions are
underway and will greatly enhance the control and accountability of munitions.

The assessment team returned to Iraq in April/May 2008 to review the status of actions taken on the report’s
recommendations and to assess the current status of munitions accountability and control, the FMS program, and the
development of the logistics sustainment base for the ISF. The DoD IG will also spend time working with the Iraq
Ministries of Defense and Interior Inspectors General.

10
                                                                                             Semiannual Report to Congress
                                                 Interagency Oversight

The DoD IG is the lead oversight agency for accountability in DoD, and as such, is committed to maintaining an
effective working relationship with other oversight organizations to minimize duplication of efforts and to provide
more comprehensive coverage. Effective interagency coordination, collaboration, and partnerships within the oversight
community are essential to providing comprehensive reviews of wartime expenditures to identify whether critical gaps
exist, and then to recommend actions to fix those gaps.



Southwest Asia Joint Planning Group
..........................................................................................................................................................

The DoD IG has jointly established and chairs an interagency Southwest Asia Joint Planning Group that meets
quarterly and provides oversight of fraud, waste, abuse, and criminal activities in the Southwest Asia region. The JPG
provides a chance for collaboration and teamwork with the organizations engaged in this effort, including the military
inspectors general and service auditors general, combatant commands inspectors general, the Defense Contract Audit
Agency, the Defense Finance and Accounting Service, the Defense Contract Management Agency, the Inspectors
General of State and the U.S. Agency for International Development, and the Special Inspector General for Iraq
Reconstruction. The mission of the JPG is to better coordinate and integrate oversight activities in the region. The
Southwest Asia JPG leads the coordination and oversight required to identify and recommend improved mission
support to military units conducting operations.

Afghanistan Working Group
....................................................................................................................................................................................

The DoD IG, along with the Government Accountability Office, the Department of State Inspector General, and
the U.S. Agency for International Development, established a working group on oversight activities in Afghanistan
to minimize the impact on forward command operations, eradicate overlapping and duplicate oversight requests,
and facilitate the exchange of oversight information. The DoD IG, as the Department of Defense representative of
the group, also incorporates the ongoing and planned Afghanistan-related oversight efforts of the Service Auditors
General into the working group. The Afghanistan Working Group has convened this reporting period to discuss
ongoing, planned, and completed projects that address issues related to Afghanistan operations. This group has
briefed congressional committees on Afghanistan oversight projects.

Iraq Inspectors General Council
....................................................................................................................................................................................

In conjunction with the Southwest Asia Joint Planning Group, the DoD IG also participates in the Iraq Inspectors
General Council chaired by the Special Inspector General for Iraq Reconstruction, to minimize the impact on forward
command operations, deconflict overlapping and duplicate oversight requests, and facilitate the exchange of oversight
information unique to Iraq.


                                                                                                                                                                                11
Department of Defense Inspector General
GWOT Cost of War Senior Steering Group
..........................................................................................................................................................

The DoD IG is an invited observer to the GWOT Cost of War Senior Steering Group that DoD established on
February 26, 2007, to improve and standardize cost of war reporting. Attending the meetings helps the DoD IG
remain apprised of DoD efforts for cost of war reporting and furthers its oversight regarding financial aspects of
GWOT to ensure timeliness and value to the DoD. DoD IG representatives attended the December 2007 and March
2008 meetings.

Panel on Contracting Integrity
..........................................................................................................................................................

The DoD IG participates in the Panel on Contracting Integrity. Established under Section 813 of the National
Defense Authorization Act for FY 2007, the Panel is chaired by the Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics to conduct reviews of DoD progress made in eliminating areas of vulnerability in the
Defense contracting system that allow fraud, waste, and abuse and affect Operations Iraqi and Enduring Freedom.
The DoD IG representative is a member of the overall Panel on Contracting Integrity, a member of the subcommittee
on Adequate Pricing, and is Chairperson of the Procurement Fraud Indicators subcommittee. The Procurement Fraud
Indicators subcommittee is identifying what these indicators are and how they should best be addressed and used for
the contracting/acquisition workforce.

Joint Investigative Partnerships
..........................................................................................................................................................

DCIS works jointly with other federal law enforcement agencies, participates in various working groups and has agents
assigned to FBI Joint Terrorism Task Forces throughout the nation. Examples of partnerships between DCIS and other
agencies include:

•    Joint cases with the Federal Bureau of Investigation; Immigrations and Customs Enforcement; United States Secret
     Service; United States Marshals Service; Alcohol Tobacco and Firearms; United States Postal Inspection Service;
     and various IGs including National Aeronautics and Space Administration; General Services Administration;
     Health and Human Services; Veterans Affairs; Department of Transportation; Department of State; Housing
     and Urban Development; and the Military Criminal Investigative Organizations including the United States
     Army Criminal Investigation Command; Naval Criminal Investigative Service; and Air Force Office of Special
     Investigations
•    Member of the National Procurement Fraud Task Force, created in October 2006 to promote the prevention, early
     detection and prosecution of procurement fraud
•    Member of the International Contract Corruption Task Force with full time agent assigned to the Joint Operations
     Center
•    Member of the Defense Enterprise Working Group
•    Excellent working relationships with agencies in the Southwest Asia theater of operations




12
                                                                                                                      Semiannual Report to Congress
                                 Congressional Testimony


                                              Section 4(a) of the Inspector General Act requires the Inspector General
                                              “to review existing and proposed legislation and regulations relating
                                              to the programs and operations of [the Department of Defense]” and
                                              to make recommendations “concerning the impact of such legislation
                                              or regulations on the economy and efficiency in the administration of
                                              programs and operations administered or financed by [the Department]
                                              or the prevention and detection of fraud and abuse in such programs
                                              and operations.” The DoD IG is given the opportunity to provide
                                              information to Congress by participating in congressional hearings and
                                              briefings. During this reporting period, the DoD IG has testified two
                                              times before Congress, specifically:

                                                    On March 11, 2008, the Honorable Claude M. Kicklighter,
                                                    Inspector General, Department of Defense, testified before the Senate
Inspector General Kicklighter Testifies Before Appropriations Committee regarding “The effectiveness of U.S. efforts to
the Senate Appropriations Committee.           combat corruption, waste, fraud, and abuse in Iraq.” The Inspector General
                                               told the committee that his agency has the primary responsibility within
the Department of Defense for providing oversight of the Defense programs and the funds appropriated to the
Department, at home and around the world, to include Southwest Asia.

To accomplish its oversight mission, the DoD IG has adopted a strategy that is based on maintaining the right size
presence in-theater but which also recognizes that much of its work can be done out of Iraq. Inspector General
Kicklighter explained the Inspector General’s expeditionary workforce model to support efforts throughout all of
Southwest Asia. As an example of our implementation of the expeditionary model, Inspector General Kicklighter
described DoD IG efforts regarding munitions accountability.

The DoD IG has an ongoing investigation into pilferage of
storage facilities. The Inspector General also summarized
the ongoing and planned efforts of the agency’s audit
and investigative staff and highlighted some significant
accomplishments regarding the GWOT.

On January 29, 2008, Inspector General Kicklighter,
testified at a closed hearing before the House
Appropriations Committee, Subcommittee on Defense
regarding “Defense Department Outsourcing.” During
the hearing Inspector General Kicklighter discussed the
Inspector General’s role in oversight of DoD contracting,
specifically in support of operations in Southwest Asia.
                                                                                             Inspector General Kicklighter and
                                                                                                        Senator Patrick Leahy.


                                                                                                                           13
Department of Defense Inspector General
                                           Inspector General

During this reporting period, the DoD IG increased its coverage of DoD GWOT-
related efforts. The DoD IG and its four components (Audit, Investigations,
Policy and Oversight, and Intelligence) have 184 ongoing and completed GWOT
projects. Those 184 projects provide oversight and probe various functions and
activities such as readiness, principled governance, capacity building, contracts,
contract fraud logistics, funds management, corruption, theft, and intelligence
efforts.

To maintain a forward presence, the deployment and redeployment of our
personnel will continue to be a critical issue warranting additional management
attention and efforts. We will adjust the number of deployed personnel according
to the warfighter’s ability to sustain the size of our presence; priority of work being
performed; and actual workload demands.


                                                     Audit

                                                The DoD IG completed 13 GWOT-related projects since October 1,
                                                2007, and has 36 ongoing GWOT-related projects as of March 31,
                                                2008. The projects address issues related to acquisition and contracting,
                                                funds management, readiness, logistics, equipping the warfighter, and
                                                management of contractor common access cards. The magnitude of
                                                DoD IG ongoing projects is about $129.7 billion related to DoD GWOT
                                                efforts. As of March 31, 2008, the DoD IG had 15 auditors assigned
                                                to the Qatar, Iraq, and Afghanistan field offices. The DoD IG had
                                                approximately 240 audit personnel supporting ongoing GWOT projecs
                                                in areas such as contracting, funds management, and accountability of
                                                resources.
DoD IG audit team looking at Air Force
                                      In November 2007, we realigned internal core mission assets to support
real property in Darulaman, Afghanistan.
                                      Southwest Asia audit field operations by establishing an expeditionary audit
division comprised of about 30 people. This expeditionary group is complemented by other U.S. based audit teams.
During the reporting period, we have 240 personnel conducting audits related to GWOT. In April 2008, we plan on
having 25 people deployed in support of OIF/OEF with an additional 30 “expeditionary team members” who will
deploy for 120 days to work on specific audit projects.

                                           Completed GWOT Audits

The 13 completed GWOT-related projects have resulted in findings involving critical issues in readiness, logistics,
contract surveillance, and funds management. A brief overview of each audit follows:

14
                                                                                             Semiannual Report to Congress
Procurement, Distribution, and Use of Body Armor in DoD: The Army and Marine Corps issued contracts and
Federal Supply Schedule orders valued at more than $5.2 billion for body armor components. The Federal Acquisition
Regulation requires contracting organizations to maintain adequate contract documentation to provide a complete
acquisition history. Specific information concerning testing and approval of first articles was not included in 13 of 28
Army contracts and orders reviewed, and contracting files were not maintained in 11 of 28 Army contracts to show
why procurement decisions were made. As a result, DoD has no assurance based on documentation maintained
that first articles produced under 13 of the 28 contracts and orders reviewed met the required standards, or that 11
of the 28 contracts were awarded based on informed procurement decisions. In response to the report, the Program
Executive Office Soldier stated that that although not in the scope of our audit, the Army also conducts lot acceptance
testing and post issue surveillance testing and that Army has no evidence of deaths that can be attributed to defective
body armor. The DoD IG plans to start an audit in late FY 08/early FY 09 to evaluate the durability and sustainability
of body armor.

Defense Hotline Allegations Concerning the Biometric Identification System for Access Omnibus Contract:
The DoD IG did not substantiate allegations regarding the award of the Biometric Identification System for Access
omnibus contract under the Army Strategic Services Sourcing contract vehicle. The purpose of the Biometric
Identification System for Access is to provide biometric base access control that can operate in a hostile environment.
The allegations included contractor insider relations with program management, developing requirements, having
access to information not available to all vendors; the contractor that was awarded the project had a price larger than
Army’s cost estimate; and the contracting officer failed to comply with FAR requirements. DoD IG determined that
all bidding contractors were given a fair opportunity to compete, the cost estimate posted on the Army Command’s
Web site was not to be used as a basis for anything, the contractor did not have access to acquisition sensitive data,
and the Army Command’s legal department determined that Federal Acquisition Regulation does not prohibit a
contractor from bidding on a subsequent effort for technology they have designed or developed.

Potable and Nonpotable Water Treatment in Iraq: The DoD IG identified deficiencies in water operations at three
contractor-operated facilities and two military-operated facilities, and in the oversight of those operations. Contractors
provided bottled drinking water and bulk water to U.S. forces. Military water purification units provided bulk water
only. From March 2004 through February 2006, the quality of water provided by contractors, through treatment or
distribution at three of the sites DoD IG auditors visited, was not maintained in accordance with field water sanitary
standards as specified in the Department of Army guidance. Although required, KBR did not maintain the quality
of the water it distributed to point-of-use storage containers at Camp Ar Ramadi, Camp Q-West, and Camp Victory.
Additionally, at Camp Q-West, KBR improperly provided chlorinated wastewater from its Reverse Osmosis Water
Purification Unit to personal hygiene facilities. During the time that auditors reviewed water operations, from January
2004 through December 2006, the military processes for providing potable and nonpotable water did not always meet
field water sanitary control and surveillance requirements as required by Army guidance. Specifically, operators of the
military water production sites we visited were not performing all required quality control tests nor did they maintain
appropriate production, storage, and distribution records. Because of corrective actions taken, contractor processes for
providing potable and nonpotable water were adequate as of November 2006 when internal quality control procedures
and DoD oversight were in place to provide quality assurances for the processes of water production, production
site storage, distribution, and storage at point-of-use facilities. However, military water purification units at LSA
Anaconda and Camp Ali did not perform required quality control tests and did not maintain appropriate records of
water produced, stored, and issued during the period reviewed. Therefore, water suppliers exposed U.S. forces to
unmonitored and potentially unsafe water. Although there was no way to determine whether water provided by the
contractors and military water purification units caused disease, contractors and military units responsible for water

                                                                                                                       15
Department of Defense Inspector General
operations must always ensure that water provided to the forces meets all established standards and is safe to use.
Supplemental Funds Used for Medical Support for GWOT: The Military Department Surgeons General did not
consistently report obligations of GWOT supplemental funds by mission as required by the TRICARE Management
Activity. The missions are Military Health System categories used by the TRICARE Management Agency to request,
justify, and execute GWOT supplemental funds. Without accurate and consistent reporting of GWOT supplemental
fund obligations, DoD has no assurance that the Military Health System used funds for the missions for which they
were requested. Additionally, DoD cannot ensure that the amounts reported in the FY 2006 Defense Health Program
Cost of War report are accurate and complete. The auditors identified a material internal control weakness in the
recording and reporting of GWOT supplemental fund obligations for the Military Health System.

Contractor Support to the Joint Improvised Explosive Device Defeat Organization in Afghanistan: (Classified
Report)

DoD Support to the NATO International Security Assistance Force: (FOUO Report)

The Army’s Procurement and Conditional Acceptance of Medium Tactical Vehicles: The Army was appropriately
using supplemental funds that Congress provided to the Family of Medium Tactical Vehicles program office in
support of the GWOT. However, the FMTV program office was not adequately protecting the Government’s interest
because it conditionally accepted FMTVs. Further, the FMTV contractor, Stewart and Stevenson Tactical Vehicle
Systems, Limited Partnership, was not meeting contract requirements for acceptance of vehicles at first Government
inspection. As was the case more than 11 years ago, the procuring contracting officer for the FMTV, after consulting
with the Project Manager Tactical Vehicles, authorized the administrative contracting officer to conditionally accept
incomplete vehicles and paid the contractor up to 100 percent of the contract price for some of the vehicles. The
conditional acceptance of vehicles resulted in the Army prematurely paying the FMTV contractor more than $3.8
million for vehicles. The conditional acceptance of vehicles also unnecessarily increased the Army cost risk. (This is
a repeat finding that was discussed in DoD Inspector General Report No. 96-005, “Quick-Reaction Audit Report on
Conditional Acceptance of Medium Tactical Vehicles,” October 12, 1995.) The FMTV contractor submitted vehicles
for Government acceptance that did not meet first inspection acceptance requirements in the contract. Specifically,
Government acceptance of FMTV lots at first inspection decreased from 86 percent in January 2004 to 21 percent
in January 2007. As a result, the Defense Contract Management Agency incurred additional reinspection costs to
verify that vehicles resubmitted for inspection met contract specifications. The DoD IG identified material control
weaknesses in the process used by the procuring contracting officer to conditionally accept incomplete vehicles and
pay the contractor up to 100 percent of the contract price for some of the vehicles.

Training for U.S. Ground Forces at Army Maneuver Combat Training Centers: The Army’s Maneuver Combat
Training Centers are providing military positions as part of an overall restructuring process and to meet the training
requirements of a more modular force. However, training for ground forces could be negatively impacted by this
restructuring if observer/controller positions are not staffed near full-strength in FY 2009. Specifically, the full benefit
of combat training may be degraded and the amount of critical feedback provided by the Observer/Controllers during
training may be reduced.

Request for and Use of Emergency Supplemental Funds for the Rapid Fielding Initiative: The Program Executive
Office Soldier requested and used emergency supplemental operation and maintenance funds in FY 2006 and similarly
requested and planned to use supplemental funds in FY 2007. As a result, the Program Executive Office Soldier used
about $221 million in emergency supplemental funds during FY 2006 to provide Rapid Fielding Initiative items to

16
                                                                                               Semiannual Report to Congress
about 125,000 soldiers who had not deployed and were not scheduled to deploy in support of contingency operations.
Additionally, the Program Executive Office Soldier records as of October 2006 showed that it planned during the first
part of 2007 to provide Rapid Fielding Initiative items to about 100,000 soldiers who were not scheduled to deploy at
a cost of about $177 million. The cost of Rapid Fielding Initiative items for FY 2006 and for FY 2007 was about $398
million in emergency supplemental funds that could have been put to better use. The managers’ internal controls that
the DoD IG reviewed were not effective in that we identified a material weakness in the Army’s process for requesting
and using emergency supplemental funds.

Air Force Use of Global War on Terror Supplemental Funding Provided for Procurement and Research,
Development, Test, and Evaluation: As a result of our review, we concluded that the Air Force needs to improve its
management and financial controls over the use of GWOT supplemental and bridge funding provided for procurement
and research, development, test, and evaluation. Specifically, because the Air Force comptrollers and budget officers did
not always include an emergency operations code for supplemental and bridge funds in their accounting classifications,
the Air Force financial community did not have the means to ensure that funds placed on contracts were used for
the efforts stipulated by Congress. As a result, the Air Force did not have accounting controls to accurately report to
Congress its progress in obligating those funds. Based on the DoD IG audit, the Assistant Secretary of the Air Force
(Financial Management and Comptroller) issued a memorandum, “GWOT Cost of War Reporting,” April 3, 2007.
The memorandum requires each major command that receives supplemental funding to report monthly on GWOT
obligations and expenditures at the line-item level of detail. The memorandum also reiterates the requirement for Air
Force comptrollers and budget officers to properly code GWOT funding documentation with emergency operations
codes in accounting classifications. The auditors identified a material internal control weakness regarding inconsistent
emergency operations coding of GWOT supplemental and bridge funds. Specifically, this report addresses a systemic
financial internal control weakness with regard to the Air Force’s process for tracking, controlling, and reporting on
the use of supplemental funds provided for GWOT.

Management of the Iraq Security Forces Fund in Southwest Asia—Phase III: The Multi-National Security
Transition Command-Iraq was not able to demonstrate proper accountability for and management of the Iraq Security
Forces Fund and could not always demonstrate that the delivery of services, equipment, and construction was properly
made to the Iraq Security Forces. As a result, the Multi- National Security Transition Command-Iraq was unable to
provide reasonable assurance that Iraq Security Forces Fund achieved the intended results, that resources were used
in a manner consistent with the mission, and that the resources were protected from waste and mismanagement. In
addition, several transactions resulted in $1.8 million of funds that could be put to better use. Those transactions were
not identified for de-obligation by the required Multi-National Security Transition Command-Iraq tri-annual reviews.
As a result of our audit, command identified over $800 million in funds to be deobligated.

The Inspection Process of the Army Reset Program for Equipment for Units Returning from Operation Iraqi
Freedom: The Army’s technical inspection process for the reset of unit equipment returning from Operation
Iraqi Freedom was generally effective. However, inconsistencies occurred among redeploying units in the conduct
of technical inspections, the granting of exemptions from automatic reset induction, and the reporting of reset
equipment. This happened because guidance was contradictory on when and where units should perform technical
inspections, nonexistent on exempting equipment from automatic reset induction, and insufficient on uniform
reporting requirements for equipment undergoing the reset process. As a result, approximately 35 units returning
from Operation Iraqi Freedom in the coming years will not use a standard method for initiating repair or replacement.
Items needing reset may be delayed in entering the national-level reset pool. Exempting equipment reduces availability
and creates difficulties in the redistribution of equipment to higher priority units. Additionally, reset status reporting
may not provide decision makers with complete and consistent information.
                                                                                                                       17
Department of Defense Inspector General
Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces
Fund – Phase I: Congress appropriated $4.7 billion for ASFF in the three Public Laws (109-13, 109-234, 109-289).
In this first phase of our audit, we examined how the Office of Management and Budget, the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, and the Office of the Assistant Secretary of the Army for
Financial Management and Comptroller distributed $4.7 billion of budget authority for ASFF.

                                              Ongoing Audits

DoD IG audit oversight is focused in several fundamental areas—accountability, financial management, contract sur-
veillance, and training and equipment of personnel. The 36 ongoing GWOT-related projects address critical readiness
issues that directly impact the warfighter, such as munitions accountability, the procurement of mine resistant ambush
protected vehicles, combat search and rescue helicopters, management of recovery and reset programs, and issuance
and administration of contractor common access cards. The DoD IG is also focused on the oversight of funds and
evaluation of internal controls relating to cash disbursement for the Army, Navy, and Air Force general funds, as well
as the execution of supplemental funds to equip and train the Iraq and Afghanistan security forces.

The ongoing projects include audits initiated at the request of Congress or management, such as concerns with hiring
practices of the Coalition Provisional Authority in Iraq and the Marine Corps implementation of the urgent universal
need statement process for the Mine Resistant Ambush Protected vehicles. In addition, the DoD IG works with the
Military Service audit agencies to leverage audit efforts and to ensure that projects are coordinated to avoid duplication
and minimize impact to command operations. A brief overview of each audit is listed as follows:


 Audit Title                     Audit Description
 Marine Corps Implementa-        The audit was requested by the Assistant Commandant of the Marine Corps in
 tion of the Urgent Universal    response to allegations of mismanagement regarding the identification and fulfillment
 Need Statement Process for      of a requirement for Mine Resistant Ambush Protected vehicles. The DoD IG is
 Mine Resistant Ambush           reviewing whether the Marine Corps decision making process responded appropriately
 Protected Vehicles              and timely to Urgent Universal Need Statements submitted by field commanders for
                                 Mine Resistant Ambush Protected vehicles.
 War Reserve Materiel Con-       The DoD IG is reviewing whether Air Force contracting officials managed and
 tract                           administered the DynCorp International War Reserve Materiel contract in accordance
                                 with federal and DoD contracting policies.
 Internal Controls Over           The DoD IG is reviewing whether internal controls for Army, General Fund, Cash
 Army, General Fund, Cash        and Other Monetary Assets held in Southwest Asia are effectively designed and
 and Other Monetary Assets,      operating to adequately safeguard, account, document, and report cash and other
 Held in Southwest Asia          monetary assets.
 Price Reasonableness for        The objective is to determine whether pricing of contracts at the U.S. Special
 Contracts at U.S. Special       Operations Command complied with Federal Acquisition Regulation requirements
 Operations Command              for determining price reasonableness.




18
                                                                                             Semiannual Report to Congress
 Audit Title                      Audit Description
 Air Force Combat Search     The DoD IG is determining whether changes to Combat Search and Rescue Helicopter
 and Rescue Helicopter       Key Performance Parameters were made in accordance with applicable DoD and Air
                             Force acquisition guidelines. Specifically, the DoD IG will determine whether key
                             performance parameter changes were properly designated and appropriately vetted
                             through the Joint Requirements Oversight Council. In addition, we will determine
                             whether key performance parameter changes will affect Air Force special operations
                             capabilities in the GWOT.
 Controls Over the           The overall objective is to determine whether controls over Common Access Cards
 Contractor Common           provided to contractors are in place and work as intended. Specifically, the DoD IG
 Access Card Life Cycle in   will determine whether DoD officials: verify the continued need for contractors to
 Southwest Asia              possess Common Access Cards; revoke or recover them from contractors in accordance
                             with DoD policies and procedures; and, ensure their proper use by contractors.
 Follow-Up Review on         The overall objective of this joint follow-up review is to determine whether forces
 Equipment Status of Forces deployed to Iraq, in support of Operation Iraqi Freedom, have the necessary equipment
 Deployed in Support of      to accomplish their missions, in accordance with mission requirements. The review
 Operation Iraqi Freedom     primarily focuses on both ground and air combat units, but will include the adequacy
                             of pre-position equipment and the sustainability of combat support units. This review
                             is being conducted jointly with the Multi-National Force – Iraq Inspector General’s
                             Office and possible representatives from the Multi-National Corps - Iraq or Division
                             Inspector General Offices.
 Controls Over the Reporting The objective is to evaluate the effectiveness of controls over the reporting of
 of Transportation Costs in  transportation costs related to GWOT.
 Support of the GWOT
 Defense Emergency           The DoD IG is reviewing whether the Defense Emergency Response Fund is used as
 Response Fund for the       intended, and whether the use of the funds complies with the Office of Management
 GWOT                        and Budget guidance. The DoD IG will also determine whether DoD has the ability
                             to track the use of the Defense Emergency Response Fund.
 Distribution of Funds and   In the first two phases of a three-phase review of the nearly $4.7 billion appropriated to
 the Validity of Obligations the Afghanistan Security Forces Fund in Public Laws 109-13, 109-234, and 109-289,
 for the Management of the the DoD IG is reviewing the distribution of funds from the Office of Management
 Afghanistan Security Forces and Budget through the Under Secretary of Defense (Comptroller)/Chief Financial
 Fund – Phase I and II       Officer and the Assistant Secretary of the Army (Financial Management and
                             Comptroller) to the Defense Security Cooperation Agency. In Phase II, the DoD IG
                             is evaluating whether obligations recorded for the Afghanistan Security Forces Fund
                             were made in accordance with legislative intent and applicable appropriations law.
                             The report on the Phase I was issued November 5, 2008.

                                                                                        DoD IG and MNF-I IG personnel on
                                                                                                    joint follow-up project.




                                                                                                                         19
Department of Defense Inspector General
Audit Title                   Audit Description
Distribution of Funds and     The DoD IG is conducting the third phase of a multiphase audit in response to
the Validity of Obligations   Public Law 109-234, which directed the Inspector General to provide oversight
for the Management of the     of the Afghanistan Security Forces Fund. The objective is to determine whether
Afghanistan Security Forces   organizations in Southwest Asia that the U.S. Central Command assigned with the
Fund - Phase III              responsibility for managing the Afghanistan Security Forces Fund properly accounted
                              for the goods and services purchased for the Afghanistan Security Forces using the
                              Afghanistan Security Forces Fund and whether the goods and services were properly
                              delivered to the Afghanistan Security Forces.
Medical Equipment Used        The overall objective is to evaluate the internal controls over medical equipment used
to Support Operations in      to support operations in Southwest Asia. Specifically, the DoD IG will determine
Southwest Asia                whether controls are in place for acquiring mission-essential medical equipment
                              and whether the recording and reporting of medical equipment are accurate and
                              complete.
Expeditionary Fire Support    The objective is to determine whether contract competition and program administration
System and Internally         for the United States Marine Corps Expeditionary Fire Support System and Internally
Transportable Vehicle         Transportable Vehicle are in accordance with the Federal Acquisition Regulation and
Programs                      supporting DoD guidance.
Procurement and Use           The overall objective is to determine the effectiveness of the process for procuring
of Nontactical Vehicles       and leasing nontactical vehicles at Bagram Air Field, Afghanistan. The DoD IG will
at Bagram Air Field,          also review the cost of operating and maintaining nontactical vehicles and determine
Afghanistan                   whether the amount of use complies with DoD guidance. The audit supports
                              Operation Enduring Freedom and will be limited to nontactical vehicles procured
                              and leased by the Defense Contract Management Agency through the Logistics Civil
                              Augmentation Program III contract and the Joint Contracting Command-Iraq/
                              Afghanistan.
Security Over Radio           The overall objective is to determine whether DoD implemented security controls
Frequency Identification      to protect radio frequency identification information. Specifically, the DoD IG
                              will assess the implementation and effectiveness of those security controls over the
                              information.
Small Arms Ammunition         The overall objective is to determine whether the Military Departments properly
Fund Management in            managed small arms ammunition funds in support of the GWOT. Specifically, we
Support of the GWOT           will determine whether financial management officials fully supported and properly
                              incurred obligations and expenditures. The DoD IG will also determine whether
                              funds for small arms ammunition were accurately recorded in financial systems for
                              reporting to the Office of the Secretary of Defense.
Contracts for Supplies        The overall objective is to determine whether DoD Components are complying with
Requiring Use of Radio        policies on radio frequency identification. Specifically, we will determine whether
Frequency Identification      DoD Components have prepared and implemented plans to use radio frequency
                              identification. Additionally, we will assess whether DoD contracts issued since
                              January 1, 2005, include requirements for using passive and active radio frequency
                              identification tags and whether contractors are complying with those requirements.




20
                                                                                         Semiannual Report to Congress
 Audit Title                      Audit Description
 Payments for Transportation The objective is to determine whether DoD established adequate control procedures
 Using PowerTrack®             over transportation payments made using PowerTrack® and payments made to U.S.
                               Bank for PowerTrack® services.
 Internal Controls and Data The DoD IG is reviewing whether controls over transactions processed through
 Reliability of the Deployable the Deployable Disbursing System are adequate to ensure the reliability of the
 Disbursing System             data processed, to include financial information processed by disbursing stations
                               supporting GWOT.
 Contingency Construction The DoD IG is reviewing the efficiency of contingency construction contracting
 Contracting Procedures        procedures implemented in the Afghanistan area of operations. Specifically, the DoD
 Implemented by the Joint      IG will review the effectiveness of practices related to contract solicitation, award,
 Contracting Command-          quality assurance, oversight, and final acceptance of construction projects.
 Iraq/Afghanistan
 Summary of Issues             The DoD IG is summarizing contract, funds management, and other accountability
 Impacting Operations Iraqi issues identified in audit reports and testimony that discuss mission-critical support
 Freedom and Enduring          to Operation Iraqi Freedom and Operation Enduring Freedom.
 Freedom Reported by Major
 Oversight Organizations
 Beginning FY 2003 Through
 FY 2007
 Defense Hotline Allegations The DoD IG initiated the audit in response to Defense Hotline allegations concerning
 Concerning Contracts Issued contracts issued by U.S. Army TACOM Life Cycle Management Command to BAE
 by U.S. Army TACOM            Systems Land and Armaments, Ground Systems Division. The DoD IG will evaluate
 Life Cycle Management         whether contract award and administrative procedures complied with federal and
 Command to BAE Systems DoD policy.
 Land and Armaments,
 Ground Systems Division
 Controls Over the             The DoD IG is reviewing whether controls over Common Access Cards provided
 Contractor Common Access to contractors are in place and work as intended. Specifically, the DoD IG will
 Card Life Cycle               evaluate whether DoD officials issue Common Access Cards to contractors, verify
                               the continued need for contractors to possess Common Access Cards, and revoke or
                               recover Common Access Cards from contractors in accordance with DoD policies
                               and procedures.
 End-Use Monitoring of         The DoD IG is reviewing the Golden Sentry Program, which monitors how foreign
 Defense Articles and Services governments use U.S. Defense articles and services, to evaluate whether the program
 Transferred to Foreign        records and controls transfers of sensitive arms effectively.
 Customers




                                                                                                                   21
Department of Defense Inspector General
Audit Title                    Audit Description
Procurement and Delivery     The DoD IG is reviewing whether the Mine Resistant Ambush Protected vehicle
of Joint Service Armor       program office is effectively procuring armored vehicles in accordance with the
Protected Vehicles           Federal Acquisition Regulation and DoD requirements. Specifically, the DoD IG
                             is reviewing Mine Resistant Ambush Protected program administration to evaluate
                             whether the program office is taking appropriate actions to accelerate vehicle delivery
                             to users. In addition, the DoD IG is evaluating the Services’ requirements for Mine
                             Resistant Ambush Protected and High Mobility Multipurpose Wheeled Vehicles.
Operations and               The DoD IG is reviewing whether DoD Components followed requirements for using
Maintenance Funds Used       Operation and Maintenance funds for GWOT military construction. Specifically, the
for GWOT Military            DoD IG is evaluating whether DoD followed proper procedures for administering,
Construction Contracts       executing, and reporting the use of Operation and Maintenance funds on GWOT
                             military construction contracts.
Funds Appropriated for       The DoD IG is evaluating whether funds appropriated for the security, reconstruction,
Afghanistan and Iraq         and assistance of Afghanistan and Iraq and processed through the Foreign Military
Processed Through the        Sales Trust Fund are properly managed. Specifically, the DoD IG is reviewing whether
Foreign Military Sales Trust the transfer of appropriated funds from the Army’s accounts into the Foreign Military
Fund                         Sales Trust Fund was properly authorized, accounted for, and used for the intended
                             purpose. The DoD IG is also reviewing whether Foreign Military Financing funds
                             granted to Afghanistan and Iraq are properly accounted for and used for their intended
                             purpose. In addition, the DoD IG is verifying whether the appropriated funds are
                             properly reported in DoD financial reports.
Marine Corps’ Management The DoD IG is evaluating the effectiveness of the Marine Corps’ Recovery and Reset
of the Recovery and Reset    Programs for selected equipment. Specifically, the DoD IG is reviewing how the
Programs                     Marine Corps met its equipment requirements through the Reset and Recovery
                             Programs, whether it effectively repaired or replaced selected equipment, and whether
                             the Marine Corps used funds for their intended purpose.
Internal Controls Over Air The DoD IG is evaluating whether internal controls for Air Force General Funds,
Force General Funds, Cash Cash, and Other Monetary Assets are effectively designed and operating to adequately
and Other Monetary Assets safeguard, account for, and report Cash and Other Monetary Assets.
Internal Controls Over Navy The DoD IG is evaluating whether internal controls for Navy General Fund, Cash,
General Funds, Cash and      and Other Monetary Assets held outside of the continental United States are effectively
Other Monetary Assets Held designed and operating to adequately safeguard, record, account, and report Cash
Outside the Continental      and Other Monetary Assets.
United States
Export Controls Over Excess The objective is to assess the adequacy of controls over the transfer of excess Defense
Defense Articles             articles to foreign persons. Specifically, we will determine whether transferred property
                             was adequately demilitarized and controlled in accordance with the requirements of
                             the Foreign Assistance Act of 1961 (Public Law 87-195), as amended, and the Arms
                             Export Control Act of 1976 (Public Law 90-269), as amended.




22
                                                                                          Semiannual Report to Congress
 Audit Title                      Audit Description
 DoD Training for U.S.       The overall objective is to determine whether U.S. ground forces supporting Operation
 Ground Forces Supporting    Iraqi Freedom are receiving training necessary to meet operational requirements.
 Operation Iraqi Freedom     Specifically, we will determine whether requirements reflect the training necessary in
                             the area of operation and verify whether the ground forces are receiving the required
                             training. In addition, we are evaluating whether the training is meeting the needs
                             of ground forces supporting Operation Iraqi Freedom. The DoD IG plans to issue
                             three reports concerning these topics. The first of these reports which addresses the
                             Observer/Controller positions at Army’s Maneuver Combat Training Centers has
                             already been issued.
 Hiring Practices of the     The DoD IG is conducting the audit in response to a congressional request. The
 Coalition Provisional       DoD IG is evaluating the hiring practices that DoD used to staff personnel to the
 Authority in Iraq           provisional authorities supporting the Iraqi government from April 2003 to June 2004.
                             Specifically, the DoD IG is reviewing the process DoD used to assign personnel to the
                             Office of Reconstruction and Humanitarian Assistance and the Coalition Provisional
                             Authority in Iraq.
 DoD Use of GWOT             The DoD IG is evaluating the adequacy of DoD financial controls over use of GWOT
 Supplemental Funding        supplemental funding provided for procurement and research, development, test,
 Provided for Procurement    and evaluation. The DoD IG is also evaluating whether congressionally approved
 and Research, Development, funds were placed on contracts and used for purposes stipulated in the GWOT
 Test, and Evaluation        supplemental funding. The DoD IG issued the report “Air Force Use of GWOT
                             Supplemental Funding Provided for Procurement and Research, Development, Test,
                             and Evaluation.” The DoD IG will issue additional reports addressing DoD Cost of
                             War reporting and a consolidated report addressing the Army, Navy, Marine Corps
                             and Defense agencies financial controls over GWOT procurement and research,
                             development, test, and evaluation supplemental funding.
 Conditional Acceptance      The DoD IG is evaluating whether the Army is adequately protecting the Government’s
 and Production of Army      interest when it includes conditional acceptance provisions in production contracts for
 Medium Tactical Vehicles in the Family of Medium Tactical Vehicle Program. The DoD IG issued the report, “The
 Support of the GWOT         Army’s Procurement and Conditional Acceptance of Medium Tactical Vehicles.
 Internal Controls Over Out- The DoD IG is evaluating whether internal controls over out-of-country payments
 Of-Country Payments         supporting GWOT provide reasonable assurance that payments are properly
                             supported and recorded.


                                                  DoD IG auditor next to an
                                                   Apache helicopter in SWA.




                                                                                                                  23
Department of Defense Inspector General
                                                                Investigations

                                                                                             DCIS, the criminal investigative arm of the DoD IG,
                                                                                             has been investigating waste, fraud, abuse and corruption
                                                                                             pertaining to Iraq and Afghanistan since the start of the
                                                                                             war. DCIS has four special agents in theater – two special
                                                                                             agents are currently assigned to Iraq and two special
                                                                                             agents are assigned to Kuwait. An additional special
                                                                                             agent has been temporarily deployed to Iraq to support
                                                                                             a special cell investigating issues relating to weapons
                                                                                             accountability. Two additional special agents will soon
                                                                                             be deployed to Afghanistan.
DCIS special agents at the Mid-Atlantic Field Office.


International Contract Corruption Task Force and the Joint
Operations Center
....................................................................................................................................................................................

Pursuant to the Inspector General Act of 1978, DCIS has broad criminal investigative jurisdiction regarding DoD
programs and operations; however, effectively countering fraud in Iraq requires the cooperative efforts of other DoD
investigative agencies and federal law enforcement partners. DCIS plays a significant and pivotal role in both the
National Procurement Fraud Task Force and the International Contract Corruption Task Force. The ICCTF, an
offshoot of the NPFTF, was formed to specifically target fraud and corruption involving Southwest Asia. The primary
goal of the ICCTF is to combine the resources of multiple investigative agencies and to partner with the Department
of Justice to effectively and efficiently investigate and prosecute cases of contract fraud and public corruption related
to U.S. Government spending in Iraq, Kuwait, and Afghanistan.

The participating agencies in the ICCTF are the DCIS; the U.S. Army Criminal Investigation Command’s Major
Procurement Fraud Unit; the Inspector General, U.S. Department of State; the Inspector General, U.S. Agency
for International Development; the Federal Bureau of Investigation; and the Special Inspector General for Iraq
Reconstruction. The ICCTF created a Joint Operations Center in furtherance of achieving maximum interagency
cooperation. The JOC, located in Washington, D.C., serves as the nerve center for the collection and sharing of
intelligence regarding corruption and fraud relating to funding for the GWOT. The JOC coordinates intelligence-
gathering, deconflicts case work and deployments, disseminates intelligence, and provides analytic and logistical
support for the ICCTF agencies to enhance criminal prosecutions and crime prevention. Case information and
criminal intelligence are shared without reservation, and accomplishments are reported jointly. The agency heads meet
regularly to collectively provide policy, direction, and oversight.

Protecting America’s Warfighters
....................................................................................................................................................................................

DCIS protects America’s warfighters by vigorously investigating alleged procurement fraud, corruption, and other
breaches of public trust that impact critical DoD programs. Our investigations focus on matters such as bribery,
theft, procurement fraud, illegal receipt of gratuities, bid-rigging, defective and substituted products, and conflicts of

24
                                                                                                                                          Semiannual Report to Congress
interest. DCIS’ presence in the region has identified corrupt business practices, loss of U.S. funds through contract
fraud, and theft of critical military equipment destined for Iraqi security forces.

Investigations conducted in Southwest Asia are cooperative efforts. As of the end of this reporting period, a total of
71 DCIS special agents (CONUS and OCONUS) are conducting 109 investigations involving U.S. Government
spending in Iraq, Kuwait, and Afghanistan. A majority of these investigations are being investigated in conjunction
with other law enforcement partner agencies. DCIS’ primary partner in countering DoD-related fraud in Southwest
Asia is the Major Procurement Fraud Unit, Army CID. Of these 109 investigations, 93 investigations are being
conducted by special agents in Germany and the United States. Sixteen investigations are currently being conducted
by agents deployed throughout Southwest Asia. DCIS attempts to transfer investigations developed in Southwest Asia
to an appropriate CONUS venue as soon as practical to ensure we maximize the use of our in-theater investigative
resources and to facilitate prosecution efforts. Since March 2007, DCIS has transferred 11 investigations from SWA
to CONUS.

Two of these transferred cases that received assistance from the JOC involve a government contractor hired to translate
Arabic and English languages in Iraq. The contractor and his spouse were indicted for the theft of $595,000 from
the U.S. Army. The contractor gained information and access to a U.S. Army contractor’s business email account
and used the information to submit a phony invoice to the U.S. Army. A second investigation that received JOC
support involved a U.S. Army captain, who served as a field ordering officer and a contracting officer in Baghdad,
Iraq. The captain was arrested for accepting a $50,000 bribe to steer military contracts in Iraq. The captain oversaw
the administration of service and supply contracts awarded by the U.S. Army.

As of the end of this reporting period, closed and ongoing investigations in Southwest Asia have resulted in 18 federal
criminal indictments and 26 federal criminal investigations. Three hearings have been conducted under Article 32 of
the Uniform Code of Military Justice. In total, 25 persons have been convicted of felony crimes, resulting in a total
of approximately 34 years of confinement and 35 years of probation; 9 individuals and 3 companies were debarred
from contracting with the U.S. Government; 12 companies and 13 persons were suspended from contracting; and 2
contractors signed settlement agreements with the U.S. Government. A total of $11.1 million was paid to the U.S. in
restitution; $365,725 was levied in fines and penalties; $1.76 million was forfeited; and $2.2 million was seized.

DFAS-Rome, NY Project
....................................................................................................................................................................................

In addition to investigating allegations of fraud, waste, and abuse, DCIS launched a proactive project that will analyze
over $10 billion in payment vouchers related to U.S. Army purchases in Iraq. The vouchers are currently stored at the
Defense Finance and Accounting Service, Rome, NY. The project is being coordinated with DFS, the DoD IG’s Audit
component, the Defense Contract Audit Agency, the U.S. Army Audit Agency, and the FBI. The project will attempt
to identify fraudulent activity related to the war effort in Iraq and Afghanistan through utilization of data mining
techniques. While the initiative is in its infancy, several questionable transactions have been identified and referred
for further investigation. In addition to these analytical efforts to develop cases, the investigative team assigned to the
project is also supporting ongoing investigations involving fraud and corruption in Iraq.




                                                                                                                                                                                25
Department of Defense Inspector General
Joint Terrorism Task Forces
....................................................................................................................................................................................
DCIS continues to actively support Joint Terrorism Task Forces throughout the country. DCIS currently provides staff
to support approximately 42 JTTFs on a full-time or part-time basis. A full-time DCIS representative is also assigned
to the National Joint Terrorism Task Force located at the National Counterterrorism Center. Creation of JTTFs was
based upon the premise that success against terrorism is best achieved through a collaborative effort amongst federal,
state and local agencies. In order to more effectively combat terrorism, cooperation must extend beyond the mere
exchange of information. JTTFs were formed to maximize interagency cooperation and coordination by creating
cohesive units capable of addressing both international and domestic terrorism.

DCIS agents participated in an investigation that resulted in the arrests and convictions of the “Fort Dix Six” for
plotting to attack For Dix, New Jersey and other Department of Defense installations.

DCIS agents assigned to JTTFs also participated in an investigation that resulted in the arrest of two men who were
part of a domestic terrorist cell. The individuals pled guilty to federal terrorism charges, admitting that they conspired
to attack United States military operations, “infidels,” and Israeli and Jewish facilities in the Los Angeles area. The two
men formed the terror group while in a California state prison, and recruited others into the plot.

Creation of JTTFs involves a costly investment of personnel and equipment; however, this initiative realizes qualitative
benefits in the form of improvements to interagency coordination and cooperation, sharing of intelligence and in
obtaining arrests and convictions in counterterrorism investigations. DCIS will continue to support JTTFs in an
effort to reduce the threat of terrorist acts against Department of Defense interests.

Hoax Pipe Bomb Investigation

DCIS, the FBI, and other law enforcement agencies, are currently seeking information regarding the placement of
four hoax pipe bomb devices at United States Military Recruiting Centers in Oregon. On March 24, 2007, a hoax
bomb device was discovered at a United States Marine Corps Recruiting Center in Salem, Oregon. On May 10, 2007,
a hoax bomb device was located at an Armed Forces Recruiting Center in Portland, Oregon. On August 11, 2007, a
hoax bomb device was found at an Armed Forces Recruiting Center in Astoria, Oregon. On November 18, 2007, a
hoax bomb device was located at a United States Army Recruiting Center in Salem, Oregon.

Most of the devices had the phrase “Die Weisse Rose” printed on them, which is German for “The White Rose.”
Historically, “Die Weisse Rose” was the name of a small group of anti-Hitler activists who protested against hate during
World War II. DCIS is committed to working with its law enforcement partners to bring individuals responsible for
activities which threaten DoD resources to justice.

Material Support of Terrorism Investigation

Hassan Abu-Jihaad, a former signalman with the U.S. Navy, was indicted in the District of Connecticut on two counts
of providing material support of terrorism and disclosing previously classified information relating to the national
defense. In March, 2008, Abu-Jihaad was found guilty of transmitting classified information to suspected terrorists.
The classified information detailed the dates during which the battle group to which the USS Benfold was assigned
would pass through the Straits of Hormuz, and the battle group’s vulnerabilities.



26
                                                                                                                                          Semiannual Report to Congress
                                    Policy and Oversight
The DoD IG’s Office of Policy and Oversight has supported efforts to develop and promote the establishment of
effective oversight and security organizations in Afghanistan and Iraq. Some of those projects have been conducted
jointly with the Department of State and the Department of Justice and have provided critical assessments and detailed
recommendations aimed at helping the fledgling democracies in those countries to counter crime, corruption, human
rights abuses, and other threats to include terrorism. A brief overview of each project follows:

Reach Back Support to Inspectors General of the Iraqi Security Forces: With the re-deployment of the two full-
time DoD IG advisors to the Multi-National Security Transition Command-Iraq Transition Teams in Baghdad, the
Inspections and Evaluations Directorate maintained a reach back cell to support the ISF Inspectors General. A
second project will examine options that can be used to develop a viable, sustainable, effective IG system in emerging
nations. Moreover, the report will recommend concepts, strategies, options, and practical applications that can be
used in other “Stability, Security, Transition, and Reconstruction” operations where establishing a federal IG system
may be appropriate in nation building missions. The reach back cell is completing a report, “Assessment of the DoD
Support to the Iraqi Security Forces IG System” (Project Number D2006-DIPOE3-0038.001), which will chronicle
the progress in developing the inspectors general functions for the Ministries of Defense and Interior and the Iraqi
Joint Headquarters and will recommend process improvements.

Interagency DoD/DOS Assessment of Section 1206 of the National Defense Authorization Act, “Global Train
and Equip Program”: The Departments of Defense and State IGs announced this interagency “Section 1206”
project on March 14, 2008. The Director of the Joint Staff and the Principal Deputy Under Secretary of Defense
for Policy requested this assessment to review program management and to identify opportunities for program and
process improvements. Section 1206 of the National Defense Authorization Act for FY 2006 authorizes funds to
provide training, equipment, and supplies to foreign militaries to bolster their capacity to combat terrorism or to
participate with the U.S. military in joint operations. Congress has authorized additional funding for FYs 2007
and 2008. Section 1206 supports the National Security Presidential Directive 44, “Management of Interagency
Efforts Concerning Reconstruction and Stabilization,” and DoD Directive 3000.05, “Support for Stability, Security,
Transition and Reconstruction Operations,” November 28, 2005. So far, the U.S. Government has partnered with
44 Section 1206 nations.

DoD/VA Interagency Evaluation of the Care Transition Process: The Under Secretary of Defense for Personnel and
Readiness requested the evaluation. The purpose of the evaluation is to review laws, policies, processes, and procedures
used to provide access to health care and other benefits to severely ill and injured military personnel returning from
Operations Enduring Freedom and Iraqi Freedom. The team is coordinating with the DoD/VA “Wounded, Ill, and
Injured Senior Oversight Committee Overarching Integrated Product Team,” to compare, cross-map, and deconflict
their recommendations against those prepared by other “Wounded Warrior” studies and review groups.

Review of the Investigative Documentation Associated with the Death of Army Corporal Stephen W. Castner
in Iraq: On January 4, 2008, the DoD IG completed this review. The U.S. Representative of Wisconsin F. James
Sensenbrenner brought this issue to the DoD IG on behalf of the parents of Corporal Castner. The review examined
concerns over the accuracy of the original investigation report. Corporal Castner died when the vehicle in which he
was riding as a gunner was hit by a “hand-wired” improvised explosive device during a convoy operation near Tallil,
Iraq. Based on the review of the Army Regulation 15-6 investigation report and related documents and the results
of DoD Investigators’ interviews, the DoD IG concluded that the report was sufficient and factually described the
incident. Therefore, the DoD IG recommended that the case remain closed.
                                                                                                                     27
Department of Defense Inspector General
                                                                   Intelligence
The DoD IG’s Office of the Deputy Inspector General for Intelligence has ongoing and planned reports of high-profile
issues related to the GWOT. A brief overview of each report follows:

Ongoing Reports
....................................................................................................................................................................................

U.S. Government’s Relationship with the Iraqi National Congress: The objective is to respond to direction from
the House Appropriations Committee through the Office of the National Counterintelligence Executive to review
the U.S. Government’s relationship with the Iraqi National Congress. On June 12, 2006, the DoD IG published a
report on Phase One of the project. The report on Phase Two is expected to be published during the 3rd Quarter of
FY 2008.

Review of Intelligence Resources at the Joint Intelligence Task Force Combating Terrorism and Special
Operations Command: The objective is to examine intelligence missions and corresponding resources at both the
Joint Intelligence Task Force Combating Terrorism and Special Operations Command to determine the sufficiency of
those resources to accomplish their intelligence missions.

Evaluation of Department of Defense Intelligence, Surveillance, and Reconnaissance Activities in Support of
U.S. Pacific Command for the Conduct of Operation Enduring Freedom – Philippines: The objective is to evaluate
the process and procedures for the requirement, synchronization, and allocation of ISR resources to U.S. PACOM-
Philippines under the command and control of the DoD and national systems requested through the DoD collection
management and global force management process.

Audit of the Management of Signals Intelligence Counterterrorism Analysts: The objective is to evaluate the
management of signals intelligence counterterrorism analysts. Specifically, the audit will review the hiring/recruitment
process, training programs, and work assignments of counterterrorism analysts. The review will include an assessment
of the impact additional resources have had on the effectiveness of the National Security Agency counterterrorism
mission since September 2001.

Planned Reports
....................................................................................................................................................................................

Evaluation of Department of Defense Overt Human Intelligence Training in Support of Operation Enduring
Freedom: The objective is to evaluate the effectiveness of overt Human Intelligence training, with specific emphasis
on operations supporting OEF. The evaluation will validate the training processes, instructor qualifications, costs and
benefits and the quality of training. We will also compare and contrast DoD contractor-provided instruction versus
DoD Government-provided instruction.

Evaluation of Department of Defense Outsourcing of Intelligence Support to Operation Enduring Freedom and
Operation Iraqi Freedom: The overall objective of this evaluation is to determine the effectiveness and efficiency of
contractor support to military intelligence. Furthermore, the report will assess the suitability of outsourcing inherently
government intelligence functions.

28
                                                                                                                                          Semiannual Report to Congress
Services
Oversight
 A look at the Services audit and investigative efforts in
 the Global War on Terror




                                                 	
                                                 U.S. Army
                                                 Army Audit Agency
                                                 Army Criminal Investigation Command

                                                 U.S. Navy and Marine Corps
                                                 Naval Audit Service
                                                 Naval Criminal Investigative Service

                                                 U.S. Air Force
                                                 Air Force Audit Agency
                                                 Air Force Office of Special Investigations
                                                                                 Army


                                                             Army Audit Agency


                                                                              The Army Audit Agency maintains a significant presence in
                                                                              the Central Command area of responsibility assisting Army
                                                                              commanders.

                                                                              AAA has had 10 to 30 auditors deployed in Iraq, Kuwait and
                                                                              Afghanistan since May 2005.

                                                                               Overall, AAA has deployed more than 100 auditors since 2002.
                                                                              In addition, many of AAA’s stateside reports are directly focused
                                                                              on GWOT issues.
The Principal Deputy Auditor General with AAA
auditors in Kuwait.

 AAA audits in theater have focused primarily on logistics and contracting issues. AAA has issued 28 reports addressing
various services provided under the $22 billion LOGCAP contract. AAA has also issued 40 other reports that have
addressed other logistics issues, military pay, and fund management. Currently, AAA is doing audits in theater of
contracting operations at the contracting offices in Kuwait, Iraq and Afghanistan, retrograde operations, container
management and accountability of contractors on the battlefield. AAA’s audit work in theater stems from requests
from the Secretary of the Army, the Commander, Multi-National Force—Iraq, the U.S. Army Criminal Investigation
Command, Commanding General, Third U.S. Army and U.S. Army Forces Central Command and the Commander,
Joint Contracting Command—Iraq/Afghanistan.

Completed Audits
....................................................................................................................................................................................

Army Operational Plans for Contractor Support on the Battlefield: This AAA audit was the first in a series
of audits concerning contractors on the battlefield issues and focused on systems support contracts. AAA found
that the Army was beginning to address contractor planning and contractor integration issues in the guidance and
planning documents for using contractors on the battlefield. However, further improvement was needed to ensure
that contractor integration issues and the known contractor staffing requirements were adequately incorporated into
planning documents to ensure contract support was fully integrated into the Army force structure. Additionally, only
36 percent of the contracts reviewed incorporated the DFARS clause 252.225-7040 (Contractor Personnel Authorized
to Accompany U.S. Armed Forces Deployed Outside the United States). The lack of adequate planning increases the
Army’s risk of discontinuation of essential services during mission operations as well as uncertainty over Government
versus contractor roles and responsibilities.


30
                                                                                                                                          Semiannual Report to Congress
Support Contract for Operation Enduring Freedom-
Philippines: AAA, at the request of the U.S. Army Pacific
Commander, evaluated how effectively the logistics needs of the
Joint Special Operations Task Force-Philippines were being met
by the logistics contract. The AAA concluded that the services
acquired under the contract weren’t reasonable or cost-effective
solutions for satisfying mission requirements. The costs were
inflated by contract layering, unsupported costs and charges, and
inefficient methods of furnishing required property. AAA estimated
that the Army could reduce contract costs by between $28-59
million—depending on which actions it takes—over the next 5
years and should be able to recoup about $1.1 million in contract
overcharges. In addition, the management structure for overseeing
                                                                                  The Army Auditor General and the Deputy
the contractor operations and administering the contract wasn’t adequate.         Auditor General for Acquisition and Logistics
The absence of an adequate management structure resulted in ineffective           visit deployed AAA auditors in Kuwait.
administration and higher costs.

Army’s Operational Needs Statement Process: AAA evaluated how effectively the Army’s ONS process approved
urgent warfighter needs and allowed for rapid allocation of resources and fielding of solutions. The Operational
Needs Statement process became an important asset in the Army’s efforts to support the warfighter as operational
commanders’ use of the Operational Needs Statement process increased significantly since GWOT began. The audit
found that the Army was effectively using the Operational Needs Statement process to support the urgent operational
needs of the warfighter. However, the volume of requests and the speed of change strained the ONS process, and the
audit identified areas to improve process effectiveness. The Army lacked adequate guidance prescribing the policies
and procedures governing the Operational Needs Statement process. Also, the process used to manage Operational
Needs Statement requests was inconsistent between different Requirements Staff Officers. The Army developed the
Equipment Common Operating Picture to streamline the Operational Needs Statement process; however, the database
needed various improvements to make the process more efficient.

Logistics Civil Augmentation Program Operations in Support of Operation Iraqi Freedom: AAA completed
several audits addressing a number of services performed under this contract.

•   Class III (Bulk and Retail) Fuel Operations in the Iraq Area of Operations: This audit of Class III (Bulk
    and Retail) fuel operations in the Iraq area of operations concentrated specifically on the management of fuel
    operations. We found 3rd Corps Support Command provided sufficient fuel support to units to execute mission
    requirements. However, the methodology for determining fuel stock levels was inefficient and often led to excess
    fuel inventory. The audit also identified fuel accountability issues at all the fuel sites due to poor inventory
    practices.

•   Supply Activities (H-Sites): This audit of the supply activities at the H-Sites concentrated specifically on the
    development of contractor support requirements and the staffing and equipping of supply activities. AAA found
    that the military units requiring contractor support didn’t provide adequate input to the Contracting Office to allow
    it to negotiate reasonable contractor workforces. AAA also found contractor-operated equipment wasn’t effectively
    managed. AAA made seven recommendations that should lead to improvements in identifying contractor support
    requirements and better use of underused Material Handling Equipment.


                                                                                                                             31
Department of Defense Inspector General
•    Contract Administration and Internal Controls Over Contracted Dining Facility Operations: This audit of
     contract administration and internal controls over contracted dining facility operations in the Iraq area of operations
     concentrated on whether the administration and other controls over contracted dining facility operations were in
     place and operating as intended. AAA found soldiers were routinely provided nutritious, high-quality food and
     service comparable to commercial restaurants in the United States; however, the process for administering dining
     facility operations needed improvement. Contract administration by administrative contracting officers assigned
     to the Defense Contract Management Agency was inhibited due to a lack of training and continuity of personnel.
     Additionally, the contractor didn’t implement Standing Operating Procedures, perform proper headcounts; follow
     scheduled meal plans, and practice appropriate controls over warehouse operations. These weaknesses could result
     in excessive waste and cost.

•    Contractor Acquired Property: This audit of contractor-acquired property in the Iraq and Kuwait areas of
     operations concentrated specifically on the contractor’s management of rough terrain container handlers. AAA
     found that LOGCAP officials and Multi-National Force-Iraq had made improvements related to overseeing the
     theater property book, reducing LOGCAP procurement costs, and distributing excess property from closing sites.
     However, improvements were still needed for the review of performance metrics and reporting requirements.

Asset Visibility in Support of Operation Iraqi Freedom and Operations Enduring Freedom–Summary Report:
This audit of property accountability was to determine whether Active Component and Army Reserve units were
inputting source data into Property Book and Unit Supply Enhanced. AAA found property records showed
discrepancies existed in Property Book and Unit Supply Enhanced primarily because responsible personnel didn’t
follow established procedures and best practices to process certain equipment transactions. Personnel lacked sufficient
training and experience to properly process needed equipment. Since property records weren’t accurately established,
Army decision-makers didn’t have complete and actionable asset visibility information to make equipment distribution
decisions. This report contained no recommendations. The recommendations were made in our site reports.

Follow-Up Audit of Internal Controls Over Cargo Container Payments: This audit of the effectiveness of
management of shipping containers in Southwest Asia, followed-up on three recommendations in Audit Report A-
2005-0177-ALS, “Internal Controls Over Cargo Container Payments, Military Surface Deployment and Distribution
Command,” May 12, 2005. The AAA’s initial report addressed continuity of operations and needed improvements
to internal controls over the review and verification of detention fee claims and invoices for cargo containers. AAA
recommended to the Commander, Military Surface Deployment and Distribution Command to: strengthen standing
operating procedures by including integrated processes, procedures and detailed instructions to handle large volume
container invoicing during future contingency operations; establish procedures for independently verifying discharge
and container pickup dates shown on detention bills; and as personnel requirements for contingency operations. The
follow-up audit showed that the Surface Deployment and Distribution Command made a variety of improvements to
strengthen controls over the review and verification of detention bills. However, Surface Deployment and Distribution
Command were still in the process of implementing the initial recommendations. As a result, we requested revised
target dates for implementing recommendations.

Management of Shipping Containers in Southwest Asia –Iraq: This audit addresses whether the visibility and
accountability over shipping containers was maintained to, within, and from Iraq. The audit found that from December
2006 to April 2007 the Army reduced Iraq’s monthly detention costs by about $243,000. However, the Army lost
visibility of 23,437 containers valued at approximately $61.8 million. These discrepancies occurred because: container
management training specific to a contingency environment wasn’t developed into doctrine and planning, command


32
                                                                                               Semiannual Report to Congress
did not sufficiently disseminate and emphasize local guidance, and the Container Control Authority did not establish
processes and responsibilities between the centralized receiving and shipping points, movement control activities
and the installation Mayor Cell for the movement of containers in, out and through installations. Containers are
critical assets and if they aren’t managed properly the result could be increased detention fees, slower deployments and
decreased unit readiness.

Ongoing Audits
....................................................................................................................................................................................

U.S. Army Audit Agency has several on-going GWOT audits in support of Operations Iraqi and Enduring Freedom.
These requested audits pertain to Logistic Operations, Logistics Civil Augmentation Program, and Contracting
Services.

Management of Shipping Containers in Southwest Asia: This multi-location, multi-phase audit reviewed container
management operations at the macro and micro levels. Audits were performed to determine whether Surface
Deployment and Distribution Command and U.S. Central Command implemented previous Army Audit Agency
recommendations to improve container management, and whether the Army had sufficient visibility over shipping
containers in CONUS and Southwest Asia. The audit found the Surface Deployment and Distribution Command
and CENTCOM continued to make improvements in oversight over the payment of detention fees and container
management overall, but the Surface Deployment and Distribution Command needed to publish standing operation
procedures. In addition, CENTCOM needed to take further actions to: identify and program its storage and other
related facilities requirements, align theater container management responsibilities to a position of authority throughout
CENTCOM, appoint a theater container manager, and evaluate the potential risks of plans to reduce container
management staff. The audit also disclosed visibility over the shipping containers that were impaired due to shortfalls
in training, command emphasis and the sheer volume of containers needed to satisfy storage, office space and other
requirements. These weaknesses could impair the Army’s ability to transport critical goods and materiel in support of
Operations Iraqi and Enduring Freedom.

Retrograde Operations in Southwest Asia: This is a multi-phased, multi-site audit at the request of the Deputy
Chief of Staff, G-4. The objectives of the audit were to determine whether the Army effectively and efficiently
managed retrograde and redistribution operations in Iraq, Kuwait and Sierra Army Depot, and whether the Army
had adequate accountability and visibility over the retrograded and redistributed assets. The audit found that the
Army had processes in place to retrograde equipment and materiel from the battle space. However, inefficiencies
(such as weak government oversight, inadequately trained and managed personnel, and the lack of command supply
discipline) hindered operations and led to the unintentional build up of excess supplies, unaccounted for newly fielded
                                                equipment, and delays in the return of critical assets in support of reset
                                                and redistribution. As a result of the auditors’ efforts, the Inspector
                                                General and Criminal Investigation Command initiated four separate
                                                investigations into incidents of potential fraud, waste and misuse.
                                                Overall, AAA recommended that the Office of the Deputy Chief of Staff,
                                                G-4, institutionalize retrograde operations for future contingencies.
                                                Additionally, the auditors made numerous recommendations to theater
                                                commanders that will improve retrograde and redistribution operations
                                                in Southwest Asia. AAA plans to continue on with our retrograde
                                                audits looking at Class V ammunition and the Army’s exit strategy for
                                                high volume equipment and supply retrograde operations are adequately
                                              planned and executable.
                                                                                                                                                                                33
Department of Defense Inspector General
Management and Use of Contractor Acquired Property Under the Logistics Civil Augmentation Program
Contract – Power Generators: This audit of contractor-acquired property in the Iraq area of operations concentrated
specifically on the contractor’s management and use of power generators. AAA found the contractor didn’t adequately
determine requirements for the generators and didn’t keep proper documentation on the maintenance of the equipment.
Additionally, contract management needs better oversight. These weaknesses could impact the contractors’ ability to
adequately support the Army’s mission in the battle space and properly control costs.

Army Contracting Command, Southwest Asia–Kuwait: This multi-phased audit, which was requested by the U.S.
Army Criminal Investigation Command and the Commanding General, Third U.S. Army and U.S. Army Forces
Central Command, is to determine whether the Army Contracting Agency’s contracting office in Kuwait is operating
effectively and in accordance with established laws and regulations and the requirements determination process was
adequate and deliverables were received and used as intended, for selected contracts. AAA reviewed two contracts
for services valued at over $2 billion and is continuing work on the Defense Base Act Insurance requirements. The
auditors’ review found that the contracting office wasn’t operating effectively and in accordance with established
laws and regulations. Adequate internal controls weren’t in place to make sure contract requirements were properly
planned and awarded, and that awarded contracts were properly administered or in compliance with the Defense
                                           Base Act insurance requirements. In addition, oversight of the contracting
                                              operations was hampered because automated records used to monitor and
                                              manage contracting operations weren’t fully complete and accurate. These
                                              internal control weaknesses created an environment where contracting
                                              actions were highly susceptible to fraud, waste, and abuse and increased
                                              costs to the Army.

                                              Contracting Operations at the Joint Contracting Command – Iraq/
                                              Afghanistan – Regional Readiness Commands – Baghdad, Victory,
                                              and Balad: This multi-phased, multi-site audit is based, in part, on the
                                              results a U.S. Army Criminal Investigative Command request of contract
                                              operations at Army Contracting Command-Southwest Asia-Kuwait,
                                              Camp Arifjan, Kuwait. AAA reviewed JCC-I/A Regional Readiness
AAA auditors receive an award from the    Command located in the International Zone (Baghdad) and Camp Victory,
Commander of the 408th Contracting        and recently began work at Balad, Iraq. The focus of the audit was to determine
Support Bridgade.                         whether goods and services acquired under the contracts awarded out of the
                                          Regional Readiness Command Baghdad, Victory and Balad were properly
justified, awarded and administered in accordance with established laws and regulations. The audit results, thus
far, have found a lack of guidance and controls over requirement determination, missing contract files, inadequate
contract documentation and contract errors. The auditor’s have also found inappropriate funding, weak contract
award processes and insufficient contract surveillance. AAA believes these
discrepancies occurred because regulatory guidance wasn’t adhered to on
determination of requirements and on the proper funding and methods
of procuring commercial information and technology items; and JCC
I/A didn’t ensure Regional Readiness Commands maintained sufficient
experienced and qualified contract officers to align with the workload.
As a result, the Government didn’t receive services in accordance to
contract specifications and didn’t obtain the best prices on the large


                                                                                     AAA auditor meets with General Petraeus.
34
                                                                                             Semiannual Report to Congress
consolidated information and technology purchases. Furthermore, due to missing and incomplete contract files the
Army is hindered in its ability to defend against reviews, investigations, and litigation and/or congressional inquiries.
These weaknesses, if uncorrected, may lead to fraud, waste, and misuse.

Property Management-Area Support Group-Kuwait: This audit involves work in Kuwait. The objective of the
audit is to determine whether assets, both those provided by the Government and those acquired by the contractor,
were adequately managed and accounted for under the Combat Support Services Contract-Kuwait (base operations)
contract.

U.S. Army Corps of Engineers Gulf Region Contracting Functions: This audit involves work in Iraq. The objectives
are to determine whether contract requirements were correctly identified and resulted in acquisitions that met the
needs of the Army; deliverables were monitored to ensure products and services were provided in accordance with
terms of the contracts; contract closeouts practices for terminated contracts were adequate and in the best interest of
the Army; and contract award fees practices were adequate.


                                                                                     DoD IG and AAA auditors
                                                                                              in Afghanistan.




                U.S. Army Criminal Investigation Command

The U.S. Army Criminal Investigation Command provides continuous worldwide criminal investigative support to
all U.S. Army elements, conducts protective services operations for senior members of the Department of Defense
and Department of the Army, provides forensic laboratory support to all DoD, maintains Army criminal records and
conducts logistic security operations in support of Army Operations and the GWOT.

USACIDC continues to serve as the executive agency for the Criminal
Investigative Task Force, a joint mission with the Air Force Office
of Special Investigations and Naval Criminal Investigative Service.
CITF special agents investigate non-U.S. citizen detainees held
at Guantanamo Bay, Cuba, who are suspected of illegal activities.
CITF supports the Central Criminal Court in Iraq through their
investigations and prosecutions.

USACIDC currently has more than 140 soldier and civilian
special agents in Iraq, Afghanistan and Kuwait investigating felony
crime, protecting high risk personnel, as well as providing criminal
intelligence and forensic support to the Joint Improvised Explosive               USACIDC special agent in overwatch position.
Device Detection Task Force.
                                                                                                                           35
Department of Defense Inspector General
In response to the Combatant Commander’s need for a timely, accurate, and reliable battlefield forensic capability that
will ensure threat analysis and identification linkage, USACIDC is preparing to deploy a Forensic Exploitation Battalion
to Iraq. The CID Battalion will consist of 53 personnel, who will be responsible for conducting criminal intelligence
/police intelligence fusion operations, command and control of theater forensic capabilities, and management of the
Law Enforcement Program in support of the Commander, Multi-National Corps – Iraq targeting efforts. The GWOT
has produced both legal and operational needs for forensic support across the spectrum of combatant operations, and
validated the importance of forensics in military decision-making and operations at all levels of warfare; from near-
real time actionable intelligence for tactical commanders to products relevant to combatant commanders, Services,
DoD and national level intelligence activities. The CID Battalion will process battlefield forensics in support of
the rapid exploitation of sites, items, and information to significantly aid U.S. and Coalition Forces’ intelligence
operations, resulting in the identification and elimination of enemy threats through disruption, targeting or detention,
                                                            and subsequent prosecution. The employment of forensics
                                                            will deter and defeat both conventional and asymmetric
                                                            forces from gaining battlefield advantages and provide proof
                                                            of specific adversary operations that can withstand legal
                                                            scrutiny.

                                                          The U.S. Army Criminal Investigation Laboratory was a major
                                                          contributor to the development of the Defense Forensics
                                                          Enterprise System. The DFES comprises and synchronizes
                                                          all of DoD’s forensic capabilities across all levels of war and
                                                          in all operational environments. It links these capabilities to
                                                          stateside forensic, biometric, law enforcement, medical, and
                                                          intelligence systems and databases within and in support of
                                                          the Army, U.S. Governmental agencies, coalition forces, allies
                                                          and host-nations in order to attain maximum efficiency and
                                                         effectiveness. In particular, USACIL played a significant role
 USACIDC special agent in Tarmiyah, Iraq.          in developing rapidly deployable forensic capabilities anywhere
                                                   in the world to collect, process, and forensically analyze evidence
                                                   collected on the battlefield to aid in the identification of enemy
combatants, terrorists and criminal elements, and their capabilities and operations in order to enable decisive action.
Warfighters have learned forensics can be an invaluable force multiplier on the battlefield in support of intelligence
operations and future criminal proceedings of war crimes.

Special agents also continue to combat fraud and corruption related to GWOT funding as a founding member of
the International Contract Corruption Task Force, working in conjunction with member agencies including DCIS,
Department of State, FBI, Special Inspector General for Iraqi Reconstruction, and the U.S. Agency for International
Development, under the Department of Justice International Contract Corruption Initiative. Forward investigative
offices in Afghanistan, Kuwait and Iraq are manned on a rotational basis by civilian Major Procurement Fraud Unit
USACIDC special agents and support personnel. Investigative activities are primarily focused on contingency fund
contractual fraud involving GWOT and in support to the various military operations under Operation Enduring
Freedom and Operation Iraqi Freedom. Since October 1, 2007, the MPFU has initiated thirty-five Reports of
Investigation with $492,820 in total recoveries and an additional $1,951,518 identified as cost avoidance.




36
                                                                                            Semiannual Report to Congress
In October 2007, USACIDC and Army Internal Review established a joint task force after it was discovered large
numbers of U.S. Army Reserve soldiers activated in support of GWOT operations worldwide were fraudulently
receiving entitlements while in a temporary change of station or temporary duty status. USACIDC special agents work
alongside Army auditors investigating over 2,500 potential subjects. To date, 63 investigations have been initiated,
resulting in the identification of 68 subjects and an estimated cumulative loss to the U.S. Government of more than
$4,600,000. Thus far, $1,199,000 in fines and recoveries have been documented. The potential loss to the U.S.
Government is over $16,600,000. USACIDC and Army Internal Review are working with the Office of the Assistant
Secretary of the Army for Financial Management and Comptroller to effect major financial management changes in
the activation of reserve soldiers in support of contingency operations.


                           U.S. Navy and Marine Corps


                                      Naval Audit Service

NAVAUDSVC supports the Department of the Navy GWOT goals by auditing selected policies, procedures, and
activities to assure they achieve the stated objectives and maximize efficiencies. The Naval Inspector General publishes
a DON Risk Assessment annually. NAVAUDSVC includes in its audit plan topics based on the risks and areas of
vulnerability identified in the risk assessment with respect to GWOT. NAVAUDSVC has audited Intelligence-Related
Contracting and Classified Financial reporting. NAVAUDSVC is continuing a series of audits on anti-terrorism and
force protection. NAVAUDSVC is auditing Classified Contracts, Communications Security Equipment and Program
Management.

Navy Individual Augmentee Physical Requirements for GWOT: NAVAUDSVC’s analysis of Office of the Chief of
Naval Operations Instruction 6110.1H, “Navy Physical Readiness Program,” showed that the Navy’s Physical Readiness
Program instruction is fully compliant with the military service responsibilities, physical fitness procedures, and body
fat procedures described in DoD Instruction 1308.3, “DoD Physical Fitness and Body Fat Programs Procedures.”

However, NAVAUDSVC found that the Navy can do more to
ensure that its individual augmentee sailors are as physically
prepared as possible for the nontraditional demands of the
GWOT mission.

Specifically, the Navy does not provide physical fitness training
specifically tailored to prospective individual augmentee
assignments; and the Navy was sending individual augmentee
sailors to serve in nontraditional capacities on the ground in
the Central Command area of responsibility without evaluating
them to ensure they were physically prepared for the rigors of
the GWOT mission.

                                                                            Navy sailors exercising to meet physical requirements.

                                                                                                                               37
Department of Defense Inspector General
                    Naval Criminal Investigative Service

The Naval Criminal Investigative Service, primarily through its Combating Terrorism Directorate, supported efforts
aimed at detecting, deterring and disrupting terrorism against Department of Defense and Department of the Navy
personnel and assets worldwide. The CbT Directorate brings to bear a wide array of offensive and defensive capabilities
to the mission of combating terrorism. Offensively (counterterrorism), NCIS
conducts investigations and operations aimed at interdicting terrorist activities.
Defensively (antiterrorism), NCIS supports key DON leaders with protective
services and performs vulnerability assessments of military installations and related
facilities to include ports, airfields and exercise areas to which naval expeditionary
forces deploy. NCIS special agents, analysts and support personnel, including
those assigned to the NCIS Contingency Response Field Office, deployed around
the globe to support counterterrorism efforts. The following highlights NCIS
deployments and related activities in support of GWOT.

Special agents and an analyst deployed to support the Multi-National Forces Strategic
Counterintelligence Directorate – Iraq and MNF Strategic Counterintelligence
Directorate – Afghanistan to fulfill operational and strategic counterintelligence
requirements and provide counterintelligence support to the unified and special
commands. Included among those deployed were counterintelligence trained
special agents, a polygraph examiner and cyber forensics experts. During this
reporting period, NCIS special agents filled the billet of SCID-I Director and
                                                                                                NCIS special agent in SWA.
Deputy Director and the SCID-A Operations Chief.

                                                        Deployed NCIS agents were extremely active providing criminal
                                                        investigative and counterintelligence support to deployed forces
                                                        in both Iraq and Afghanistan. Special agents deployed to the
                                                        NCIS Resident Agency, Iraq provided criminal investigative
                                                        support to the Marine Expeditionary Forces – Iraq. Special
                                                        agents and analysts also deployed in support of the United
                                                        States Marine Corps Joint Prosecution and Exploitation
                                                        Center – Iraq, to conduct criminal investigations and analysis
                                                        of evidence on foreign suspects for prosecution by the Central
                                                        Criminal Court of Iraq. Special counterintelligence officers
                                                        served on the Marine Expeditionary Forces staff and as the Chief
                                                        of Interrogation Operations on the Multi-National Forces staff
                                                        – Iraq. Additional special agents provided counterintelligence
                                                        to the Naval Expeditionary Combatant Command Riverine
NCIS special agents in Iraq. Squadrons, Counterinsurgency Operations with the Theater Internment Facility, Camp
                             Bucca and Task Force 134, Balad Air Base, Iraq. Polygraph examiners deployed to Iraq and
Afghanistan in support of Special Operation Forces and the Operation Iraqi vetting team in Baghdad.

NCIS also deployed special agents in support of military operations in the Horn of Africa, Guantanamo Bay, Cuba
and aboard Naval vessels all over the world. Special agents served as personal Security Advisors to the Commander,

38
                                                                                            Semiannual Report to Congress
Joint Task Force, Horn of Africa and supervised security teams that ensured the safety of the Commander while
traveling throughout the Horn of Africa. An additional cadre of special agents deployed to Djibouti providing
force protection to the Commander JTF-HOA as well as force protection and criminal investigative support for
the commanding officer of Camp Lemonier. Special agents deployed to Guantanamo Bay conducted interviews
of detainees and prepared investigative reports for trial concerning their involvement in war crimes within the U.S.
Central Command area of responsibility. Special agents deployed afloat on the USS Enterprise, USS Harry S. Truman,
USS Nassau, USS Kearsarge, USS Tarawa, USS Kitty Hawk, USS Blue Ridge, USS Chester Nimitz, USS Abraham
Lincoln and USS Peleliu where they provided both criminal investigative
and counterintelligence support.

NCIS conducted numerous protective service operations for high
ranking dignitaries traveling in high threat areas. The NCIS Directorate
of Intelligence provided 212 threat assessments directly to U.S. Navy and
USMC forces deployed assets to assist in force protection planning. The
Cyber Division had initiated proactive operations in Iraq and Afghanistan
to recover and review media including the extraction of data from captured
cell phones to provide timely and actionable intelligence. The Forensic
Consultant Unit provided forensic expertise in death investigations related
to deployed Navy and Marine Commands in Iraq, Afghanistan and the
Horn of Africa. They had supported prosecutions in five seats of government homicide NCIS special agent in SWA.
trials with reconstructions from Operation Iraqi Freedom. Additionally, they provided
forensic support and reconstructed crime scenes in three custodial deaths at Guantanamo Bay.


                                                                  U.S. Air Force

                                                   Air Force Audit Agency

During the 6-month period ending March 31, 2008, the Air Force Audit Agency completed four audits directly
related to GWOT. AFAA also has four ongoing and planned GWOT-related audits conducted in the United States
Central Command Air Forces overseas area of responsibility and an additional nine ongoing and planned GWOT-
related audits, not conducted in the area of responsibility.

Rotation Status: The AFAA utilizes about 10 percent of available auditors per year on GWOT-related audits in the
United States Central Command Air Forces overseas area of responsibility. The audit work is accomplished in the
AOR using 24 person temporary teams to perform mobile 7-8 week audits (twice a year).

Completed GWOT Audits in the AOR
....................................................................................................................................................................................

Central Command Air Forces Deployed Locations Cryptographic and Secured Communication Equipment:
As of December 2006, United States Central Command Air Forces COMSEC equipment accounts included
more than 4,100 cryptographic and secure communication equipment items valued at $18.8 million. The review


                                                                                                                                                                                39
Department of Defense Inspector General
showed AFCENT AOR personnel properly controlled but did not accurately account for cryptographic and secure
communication equipment in the AFCENT AOR. Except for Al Udeid Air Base and Kandahar Air Field, AOR
personnel properly stored and secured COMSEC equipment. Further, personnel at all six locations reviewed properly
restricted access to COMSEC equipment to authorized personnel and used the equipment within authorized facilities.
However, unit commanders did not always appoint Secure Voice Responsible Officers to manage COMSEC training,
and these officers did not always train users on proper COMSEC equipment storage. The weaknesses identified were
not systemic across the six locations reviewed. Additionally, the review of 3,455 equipment items revealed equipment
custodians either did not include on accountability records or could not locate 892 (26 percent) items valued at over
$4.7 million. Effective accountability allows COMSEC equipment managers to readily assess whether all required
assets are on hand to accomplish the mission. In contrast, because AOR COMSEC personnel did not have effective
accountability, AOR units maintained 120 excess COMSEC assets at Al Udeid and Manas Air Bases totaling almost
$559,000.

Pre-Positioned Mobility Bags: Based on the Air Force vision to improve agile combat support, AFCENT, with
Deputy Chief of Staff for Logistics, Installations and Mission Support approval, pre-positioned mobility bags and
chemical warfare defense equipment at expeditionary theater distribution centers during Fiscal Years 2005 and
2006. The distribution centers store approximately 40,000 mobility bags valued at $40 million. AFCENT Logistics
Directorate officials estimated the Air Force would save approximately $51 million annually in transportation costs
by eliminating mobility bags from personal equipment deployed with Airmen. AFAA determined that although pre-
positioning mobility bags in the AFCENT AOR provided transportation cost avoidance, logistics personnel could
achieve over $44 million in additional benefits by reducing the number of home station mobility bags. Additionally,
AFCENT personnel maintained excesses and shortages or could not locate 67 percent of built-up mobility bags
reviewed. Further, AFCENT personnel did not effectively maintain shelf-life data for 105 of 200 mobility bags and
issued over 1,400 mobility bags with expired shelf-life items to deployed personnel. Finally, Air Force personnel did
not accurately account for 29 percent of the mobility bags transferred to the AFCENT distribution centers. Accurate
mobility bag inventory data and effective inventory management provides Air Staff personnel required visibility and
accountability over assets needed to properly equip deploying personnel.

Patient Movement Items: Since the beginning of Operations Enduring and Iraqi Freedom, the Air Force has
aeromedically evacuated over 39,000 patients. Contributing to the Air Force Aeromedical Evacuation mission is the
Patient Movement Item system. Aeromedical Evacuation personnel primarily use this system to support in-transit
                                                                   patients. Although the PMI system is used by
                                                                   all the Services, the Air Force is responsible for
                                                                   program management, including accounting
                                                                   and tracking of PMI equipment. The Air
                                                                   Force Surgeon General delegated program
                                                                   responsibility to the Air Mobility Command
                                                                   Surgeon General. In Fiscal Year 2007, the Air
                                                                   Mobility Command Surgeon General managed
                                                                   over 15,000 patient equipment assets and
                                                                   expended approximately $3.7 million for PMI
                                                                   equipment purchases. AFAA determined that
                                                                   medical officials did not properly maintain
                                                                   required amounts and authorized types of PMI
Airmen medically evacuate a patient.
                                                                  equipment at the locations reviewed. In total,


40
                                                                                         Semiannual Report to Congress
medical officials maintained PMI excesses and shortages at 18 locations visited and used 17 unauthorized items at 5
locations visited. With a shortage of 879 equipment items, medical officials were not meeting potential contingency
needs. Additionally, unauthorized equipment may not function as intended or could create hazards due to aircraft
incompatibility, adding unnecessary risk to patients, aircrew, and the mission. Further, while medical personnel
adequately accounted for PMI equipment in Defense Medical Logistics Standard Support, medical personnel did
not accurately track the locations of 354 items and maintenance personnel did not properly track maintenance
recertification dates for another 494 items. Inaccurate PMI tracking data could impede management’s visibility over
equipment availability and maintenance requirements, ultimately degrading evacuation capabilities.

Predator Engine Requirements: The Predator is a medium-altitude, long-endurance unmanned aerial vehicle with
the capability to directly attack critical, perishable targets. The Air Force uses the Predator, powered by a turbo-charged
Rotax 914 engine, for reconnaissance and target acquisition in support of the Joint Forces Commander. As of 27
August 2007, the Air Force inventory contained 108 installed and 44 uninstalled Rotax 914 engines valued at nearly
$10 million. The audit disclosed Air Force personnel did not properly manage Predator spare engine requirements.
Although logistics personnel properly planned and accurately computed Predator spare engine requirements in the
early years of the program, they did not reduce spare engine requirements as the engine matured and reliability
improved. As a result, the Air Force maintained 12 excess Predator spare engines valued at nearly $800,000.

Ongoing and Planned GWOT Audits in the AOR
....................................................................................................................................................................................

Central Command Air Forces Deployed Locations Aerial Port Operation: This ongoing audit, requested by United
States Central Command Air Forces officials, will determine whether Air Force personnel efficiently and effectively
manage aerial ports. Specifically, AFAA will determine whether Air Force personnel efficiently utilize aircraft, effectively
manage cargo processes and passenger movement, and effectively manage cargo and passenger travel reimbursements.

Central Command Air Force Deployed Locations Munitions Management: This ongoing audit will determine
whether United States Central Command Air Forces personnel accurately account for and properly handle, store,
and control munitions; effectively manage shelf-life components for munitions; and accurately determine munitions
requirements.

Central Command Air Forces Deployed Locations War Reserve Materiel Management: This ongoing audit was
requested by the United States Central Command Air Forces Commander. AFAA will determine whether personnel
effectively account for, control, and service war readiness materiel, and accurately compute war readiness materiel
requirements.

Post-Deployment Health Reassessments: This planned audit was requested by Air Force Inspection Agency
to determine whether officials complete required mental and physical health screenings for all returning Airmen.
Specifically, AFAA will assess if medical personnel complete all post-deployment health assessments and identify Air
Force members at risk.




                                                                                                                                                                                41
Department of Defense Inspector General
Ongoing and Planned GWOT Audits Outside the AOR
....................................................................................................................................................................................

Protective Mask Program: This ongoing audit was requested by the Air Force Civil Engineer Support Agency
Commander. AFAA will determine whether the Air Force effectively managed the protective gas mask program.
Specifically, AFAA will determine whether Air Force personnel had appropriate quantities of gas masks, and effectively
maintained and properly accounted for Mask Canister Unit-Personnel Type Gas Masks.

Air Force Drinking Water Program: This ongoing audit will determine whether the Air Force properly managed the
drinking water program. AFAA will determine whether installations effectively and efficiently managed water system
infrastructure projects and resources, adequately protected drinking water, properly verified purchased water costs, and
accurately calculated water reimbursements.

Air National Guard Emergency Response: This ongoing audit will assess whether Air National Guard officials
properly managed selected aspects of emergency medical response programs. Specifically, AFAA will determine whether
Air National Guard officials effectively prepared teams to transport medical emergency equipment, supplies, and
personnel to disaster sites; sufficiently trained personnel to perform emergency medical duties; adequately developed
and implemented patient tracking systems; and effectively maintained medical equipment and supplies.

Weapons of Mass Destruction Emergency Response Program: AFAA will determine the effectiveness of management
actions in response to AFAA Report of Audit F2004-0008-FD3000, Weapons of Mass Destruction Emergency
Response Equipment, September 7, 2004. AFAA will determine whether the Air Force effectively implemented
a weapons of mass destruction emergency response program. Specifically, AFAA will evaluate whether Air Force
officials established requirements for weapons of mass destruction response assets, equipped emergency responders
with necessary assets for personnel protections and mission accomplishment, accounted for emergency response assets,
and trained installation emergency responders to effectively respond to a weapons of mass destruction incident.

Continuity of Operations: AFAA will evaluate whether Air Force officials developed an effective Continuity of
Operations program. Specifically, AFAA will determine whether officials established continuity of operations plans,
identified mission- essential functions, addressed necessary planning elements to ensure continuity of operations, and
exercised continuity of operations plans.

Vulnerability Assessment: AFAA will evaluate the effectiveness of the Air Force vulnerability assessment program.
Specifically, AFAA will assess whether vulnerability assessments were properly performed, reliable information was
identified and tracked, funding requirements were identified properly, and vulnerabilities were mitigated.

Medical War Reserve Materiel Asset Management: This audit, in the research phase, was requested by the Air
Force Surgeon General to determine whether Air Force officials effectively manage medical war reserve materiel.
Specifically, AFAA will evaluate whether officials accurately establish requirements, properly maintain war reserve
material equipment and supplies, and correctly report war reserve materiel status.

Selected Aspects of Deployment Management: This planned audit was requested by the Director of Logistics
Readiness. During the audit planning phase, AFAA will determine whether the subject is appropriate for audit in the
near future and, if so, to formulate audit objectives. AFAA will discuss and examine deployment processing policy,
guidance, and standardization for both military and civilian deployments; and Installation Deployment Officer roles,
responsibilities, training, and tools.
42
                                                                                                                                          Semiannual Report to Congress
                       Air Force Office of Special Investigations

                                                        AFOSI is a combat-ready military organization that provides
                                                        the Air Force a wartime capability to conduct, in hostile and
                                                        uncertain environments, counter-threat operations to find,
                                                        fix, track, and neutralize enemy threats. It is the Air Force’s
                                                        focal point for working with the U.S. and foreign nation law
                                                        enforcement and security services to provide timely and accurate
                                                        threat information in all environments. AFOSI conducts
                                                        Outside the Wire/Counterintelligence Force Protection Source
                                                        Operations and provides real time actionable information in
                                                        the form of target packages to Direct Action Units. Its GWOT
                                                        mission includes tactical collections, analysis, production and
                                                        dissemination of actionable threat information affecting USAF
                                                        airfields, personnel, and resources. AFOSI is the USAF’s eyes
                                                        and ears providing intelligence to DoD and Coalition Forces.
AFOSI special agent in Southwest Asia.
                                                  AFOSI conducted military source operations to cultivate local
sources that provided information that mitigated threats from enemy forces. Below are the results of those efforts.

Threats Identified - Total: 1,904 (Individuals linked to insurgent groups, terrorist groups, or intelligence services, who
represent a threat to USAF installations/resources)

Target Packages – Total: 88 (Targeting information provided to Direct Action authorities (Army, SOF, Coalition
forces, Host Nation Police/Army/SOF, etc) for exploitation.

Captured/Neutralized – Total: 289 (Individuals identified in Target Packages who were captured/neutralized by Direct
Action units)

Weapons Caches – Approximately eight tons of weapons and explosives to include rifles, improvised explosive device
components, anti-aircraft guns, rocket propelled grenades, rockets, mortars, and man portable air defense systems have
been recovered.

Other Threats (Threats detected but not linked to a specific Military Source Operation)
Threats Identified - Total: 235
Captured/Neutralized – Total: 13

 AFOSI operations in Iraq and Afghanistan utilized source information by working with coalition forces and Direct
Action Units to affect the capture/killing of 26 Al Qaeda and 159 Taliban personnel. Additionally, developed source
information was used in capturing/killing approximately 104 other insurgents and fighters of various other affiliations.
The backgrounds of personnel captured or killed included job titles such as, death squad leaders, kidnappers, snipers,
IED makers/emplacers/suppliers and financiers, indirect-fire shooters and/or spotters, and assassination cell leaders.
Of the above 289 captured/killed, 67 were identified as leadership personnel and of those, 19 were officially classified
as High Value Individuals.


                                                                                                                       43
Department of Defense Inspector General
AFOSI agents, leveraging a well-placed AFOSI human source,
uncovered a plot to attack a U.S. Army Commander while out on
patrol in a HMMWV convoy. Agents recovered incontrovertible
evidence of the planned attack, to include a voice recording of
the planning itself. Agents acted quickly to prevent the convoy
movement and crafted a target package which resulted in the
capture of the insurgent leader behind the planned attack.

In a multifaceted counter-threat operation, agents developed a
human source network targeted at locating an insurgent who
had built and emplaced an IED which killed a USAF Explosive
Ordinance Disposal member. In an exhaustive effort, agents
tracked down the insurgent and working with a direct action
unit, the insurgent was captured.                                                                AFOSI special agent in Iraq.

Agents from Kandahar Airfield, Afghanistan, collected intelligence and in collaboration with the Cryptological Support
Team identified 5 former linguists planning to conduct a Vehicle-Borne Improvised Explosive Device attack and a
suicide bomb attack on two coalition force bases. Agents working with coalition partners arranged for, and affected
the capture of all 5 insurgents precluding the attacks and gathered crucial evidence key to their detainment.

Capitalizing on a robust human source network, agents levied sources for information on a suspected movement
of Taliban forces. Agents quickly identified the location and intended target of a group of approximately 150-200
Taliban forces. Next, they coordinated this vital and time sensitive information with Coalition Forces air and ground
assets enabling engagement of the enemy before the Taliban could form an attack on their intended target. This
engagement resulted in 65 Taliban KIA and disbursement of the remaining Taliban forces.

In a counter threat operation, AFOSI agents exploited source information to identify the storage location of 10 pre-
positioned rockets and neutralized an attack on a U.S. Forces installation during the visit of a high-level Distinguished
Visitor. The agents worked with a maneuver element and Explosive Ordinance Disposal personnel to seize the rockets
and capture the cell members planning the attack.

In another instance with agents blending their criminal and counterintelligence skill sets, an AFOSI unit developed
source information that uncovered the location of a large cache of weapons and explosives. While accompanying a
maneuver element and performing site exploitation on the weapons cache, agents recovered a fingerprint from an IED.
They then entered that information into a Coalition Forces biometric database and obtained additional identification
data. Months later, while executing a target package, two individuals were detained and one was positively identified
as the bomb maker of the earlier found IED. His fingerprint match as well as explosives recovered provided the
probable cause for the bomb maker’s detention and subsequent prosecution.

At the direction of the Deputy Secretary of Defense , DC3 developed and is executing the Defense Industrial Base
Collaborative Information Sharing Environment which began pilot operations at DC3 on February 1. The mission
of DCISE is to be a focal point and clearinghouse for referrals of intrusion events on DIB unclassified corporate
networks. The Concept of Operations describes a collaborative operational information sharing environment among
multiple partners to produce threat information products for industry partners with reciprocal responsibilities to
provide notice of anomalies and sharing of relevant media.

44
                                                                                            Semiannual Report to Congress
Chapter 2:
DoD IG
Oversight
 Audit Oversight
        A look at the audits conducted by the
        Department of Defense Inspector General


                               Audit significant activites are listed under the following categories:

                               •   Acquisition Process and Contract Management
The Office of the Deputy Inspector     GeneralManagement
                               • Financial      for Auditing
conducts audits on all facets• of Health
                                   DoD Operations.
                                           Care           The
work results in recommendations            reducing
                               • Information             costs,and Privacy
                                                   Security
eliminating fraud, waste, and abuse  of
                               • Other  authority, improving
performance, strengthening internal controls, and achieving
compliance with laws, regulations, and policies. Audit
topics are determined by law, requests from the Secretary
of Defense and other DoD leadership, Hotline allegations,
congressional requests, and internal analyses of risk in DoD
programs.

For the first six months of FY 2008, ODIG-AUD issued
73 reports addressing the Department’s operations and
efforts associated with GWOT, acquisition and contracting
for goods and services, financial management, health care,
information security and privacy, and logistics. These reports
included 301 recommendations of which management
accepted or proposed acceptable alternatives to 278 (92
percent). The ODIG-AUD also identified $697 million of
funds that could be put to better use.




46
                                                                                     Semiannual Report to Congress
AUDITING




DoD IG significant accomplishments in Audit are listed under the following categories:

•   Acquisition Processes and Contract Management
•   Financial Management
•   Health Care
•   Information Security and Privacy
•   Logistics



                                                                                         47
Department of Defense Inspector General
                                                                                                     that study depicts the DoD acquisi-
                                                                                                     tion workforce and budget trends
                                                                                                     from 1990 through 2004.
FEATURED ARTICLE




                                                                                                     Other organizations such as the De-
                                                                                                     fense Contract Management Agency
                                                                                                     which is responsible for much of the
                                                                                                     administration and surveillance of
                                                                                                     DoD contracts also experienced staff
                                                                                                     reductions. The trend for DCMA
                                                                                                     personnel is shown to the right in
                                                                                                     Chart 2.

                                                                                                     As a result of DoD acquisition short-
                                                                                                     falls in staffing, significant amounts
                                                                                                     of contracting were performed
                                                                                                     through other agencies. ODIG-
                                                                                                     AUD’s work continues to find prob-
                                                                                                     lems when DoD personnel use other
                                                                                                     agencies. For example, in our audits

                   Acquisition Processes and                                                         of FY 2006 purchases made through
                                                                                                     the National Institutes of Health, the

                   Contract Management                                                               U.S. Department of Veterans Affairs,
                                                                                                     the Department of Treasury and the
                   The DoD acquisition and contract-        veillance and management by the ac-      Department of Interior, DoD and
                   ing community continues to face the      quisition workforce.                     these other agencies did not comply
                   stress of managing the increasing De-                                             with the Federal Acquisition Regula-
                   fense budget with a smaller and less     A recent study commissioned to eval-     tion and the Defense Federal Acqui-
                   capable workforce. The increased         uate Army expeditionary contracting      sition Regulation Supplement. Spe-
                   need for contracting in an expedi-       in light of several high profile fraud   cifically, for direct acquisitions, DoD
                   tionary environment with an empha-       cases found similar results. The re-     contracting officials did not provide
                   sis on urgency only adds to the stress   port of the “Commission on Army          fair opportunity to be considered to
                   and strain on the workforce. Spend-      Acquisition and Program Manage-          all eligible contractors, in many cases,
                   ing for goods and services in Fiscal     ment in Expeditionary Operations,”       and also did not document the basis
                   Year 2007 exceeded $315 billion.         October 31, 2007, found that urgent      of the award. As a result, competition
                   This level of spending is more than      reform was needed. The study con-        was limited and DoD did not have
                   double the level of spending from FY     cluded that “after the great struggle    assurance it received the best value.
                   2001. The difference in the DoD          with the Soviet Union” it was assumed    Additionally, on orders that were as-
                   budget from FY 2001 and FY 2008          that DoD budgets would decrease,         sisted acquisitions, agency contract-
                   is just as dramatic. The DoD budget      urgency would decrease and hence         ing officials did not prepare required
                   for FY 2008 including supplemental       a drawdown in the acquisition com-       contract documentation for most of
                   and bridge funding is almost $700        munity could be made. The Army           the orders.
                   billion. The budget for FY 2001          took significant acquisition cuts and
                   was only $335 billion (an increase of    deliberately did not fill other short-
                   more than 108 percent). In addition,     falls. However, as the spending trend
                   spending for services of $160 billion    reversed, staffing levels did not keep
                   in FY 2007 required additional sur-      pace. Chart 1 on the next page from


                   48
                                                                                                               Semiannual Report to Congress
                          Chart 1: DoD Procurement Budget and
                           Acquistion Organization Workforce




                             Chart 2: Trend for Defense Contract
                               Management Agency Personnel




             “Commission on Army Acquisition and Program Management in Expeditionary Operations”, October 31, 2007



                                                                                                                     49
Department of Defense Inspector General
Changes to the acquisition process    Force decided to renegotiate prices           or inexperienced or overworked ac-
as a result of the Federal Acquisitionon an $860 million strategic sourcing         quisition staff unable to handle the
Streamlining Act and the Clinger-     commercial contract for noncom-               increasingly more complex procure-
Cohen Act also continued to inhibit   petitive spare parts used on Defense          ments. Several themes of problems
contracting officers’ abilities to useweapons systems. The Air Force ne-            can be seen in our audit coverage
truth in negotiation protections espe-gotiating team had relied primarily on        during this period. These problems
cially in regard to items considered to
                                      price analysis of previous DoD prices         include limitations on competition or
be commercial acquisitions. Chang-    to determine price reasonableness. In         lack of fair opportunity to be consid-
es in the Clinger-Cohen Act allowed   October 2007 using cost analysis and          ered for award, lack of controls over
items to be classified as commercial  support from DCMA and DCAA,                   programs and funding, unjustified
if they were “of a type” were merely  the Air Force was able to renegoti-           sole source awards, inadequate price
offered to the public, or would be    ate prices for the first batch of 27          reasonableness determinations and
available to meet Government needs    high-risk items from $20.8 million            inadequate contract surveillance. In
in the future. The Act eliminated the to $10.8 million or a savings of 51.9         fact, six different audit reports identi-
need to establish that a commercial   percent. Then, in February 2008,              fied problems with contract surveil-
market actually existed. One of the   the Air Force renegotiated prices for         lance or quality assurance.
primary benefits of buying commer-    an additional 86 parts at a savings of
cial items is having prices established
                                      31.5 percent or just over $4 million.         Four audits identified problems with
by market interactions.               DoD IG auditors calculate that these          unjustified sole source or limited
                                      renegotiation efforts by the Air Force        competition awards. On the audit
While this area continues to be a negotiating team will save DoD more               of Task Orders on the Air Force Net-
challenge, DoD IG had one notewor- than $20 million over the next six               work-Centric Solutions Contract,
thy success in pricing of commercial years.                                         auditors reviewed task orders on the
spare parts. Over the past 10 years                                                 multiple-award, indefinite-delivery,
the DoD IG has worked closely with The shaft assembly for the F-16 air-             indefinite contracts for products, ser-
the Defense Logistics Agency and craft shown below is one example                   vices and total solutions. The con-
other DoD Components to achieve of the items renegotiated by the Air                tracts had a $9 billion ceiling value
fair pricing of noncompetitive com- Force.                                          with a base contract period of 3 years
mercial spare parts. In September                                                   and two 1-year options. The audit
2006, we reported that guidance on DoD IG audit work in the past 6                  determined that the Network-Cen-
commercial item determinations and months has identified problems                   tric Solutions Program Management
commercial item exceptions to cost or that are caused by staffing shortfalls        Office did not have adequate con-
pricing data in the United States                                                     trols over the decentralized ordering
Code, Federal Acquisition Regula-                                                     process. As a result, the DoD IG
tion, and other DoD guidance had                                                      projected that 34 percent of orders
become muddled and disordered.                                                        did not give all contractors a chance
In response to the report the Di-                                                     to be considered for award and 57
rector, Defense Procurement and                                                       percent of orders were not prop-
Acquisition Policy issued guidance                                                    erly competed. The DoD IG also
to improve the application of cost                                                    projected that 84 percent of orders
and pricing techniques, especially                                                    were not adequately monitored and
on sole-source commercial items.                                                      that DoD wasted approximately
Also in response to our September                                                     $607,000 on fees to the General
2006 report that included subse-                                                      Services Administration instead of
quent follow-up efforts, the Air The shaft assembly for the F-16 aircraft is          using DoD contracting offices.
                                     one example of the items renegotiated by the
                                     Air Force.
50
                                                                                               Semiannual Report to Congress
Lack of adequate controls over acqui-      initiatives have been postponed due ditional Acceptance of Medium Tac-
sition programs and compliance with        to resource constraints.            tical Vehicles. The picture to the left
the DoD 5000 series of guidance                                                shows a cargo variant version of the
continues to challenge                                                                medium tactical vehicle.
the Department as many
programs exceed cost                                                                    In this case, we identified a re-
and schedule estimates.                                                                 peat finding wherein the same
For example, on the ac-                                                                 problem was found 11 years
quisition of the Surface-                                                               ago and is still occurring today.
Launched Advanced Me-                                                                   The procuring contracting of-
dium Range Air-to-Air                                                                   ficer authorized the condition-
Missile, our audit identi-                                                              al acceptance of incomplete
fied that the Army could                                                                vehicles and yet still paid the
have more cost effectively                                                              contractor up to 100 percent
prepared the program for                                                                of the contract price. The con-
the low-rate initial pro-                                                               ditional acceptance resulted in
duction decision. Techni-                                                               the premature payments to the
cal difficulties and funding shortfalls           A medium tactical vehicle.      contractor of more than $3.8 million.
caused contract costs to increase. Ca-                                            In addition, the contractor submit-
pability requirements for the program      As mentioned previously, shortages ted vehicles that did not meet first
were not sufficiently defined, the pro-    in quality assurance and surveillance inspection acceptance requirements.
gram office did not use the systems        staffing is a major challenge to the Government acceptance of vehicle
engineering plan that they were de-        Department. The increasing level lots at first inspection decreased from
veloping to support its systems engi-      of contracting along with urgencies 86 percent in January 2004 to 21
neering management approach, and           of the war efforts and support for percent in January 2007. If Defense
the Defense Contract Management            national disaster recover efforts has budgets stay at current levels and ac-
Agency, and the Project Manager,           spread thin the available corps of quisitions corps staffing levels is not
Cruise Missile Defense Systems did         quality assurance and surveillance appropriately adjusted, undoubtedly
not establish complete details on sur-     staff. As a result, DoD IG auditors the problems that we have identified
veillance requirements.                    have found a pattern of problems in will continue to occur.
                                           this area. On the audit of U.S. Army
We also found problems with the pro-       Corps of Engineers Administration
curement of the Defense Security As-       of Emergency Temporary Roofing
sistance Management System Train-          Repair Contracts, auditors found that
ing Module. The DSAMS Program              the Corps relied on Corps staff and
Management Office continued to de-         other volunteers to perform the qual-
velop cost estimates for the Training      ity assurance function for the tem-
Module that were not valid, delayed        porary roofing mission. As a result,
implementation of the module six           the Corps may not have been timely
times in the last 9 years and did not      in inspecting damaged and repaired
conduct required risk management           roofs. The Corps may have also been
reviews. As a result, costs are escalat-   subject to over billings from contrac-
ing to an unknown amount, the date         tors. Another high profile quality as-
of full operationally capability is un-    surance issue was found on the audit
known and other security cooperative       of the Army’s Procurement and Con-


                                                                                                                      51
Department of Defense Inspector General
Financial Management
....................................................................................................................................................................................

                                                                        Because of the size and complexity of the DoD financial statements, the
                                                                        Department continues to face financial management challenges. These
                                                                        challenges make it difficult for the Department to provide reliable,
                                                                        timely, and useful financial and managerial data to support operating,
                                                                        budgeting, and policy decisions. Much has been done over the last
                                                                        few years to address these challenges, but the Department needs to
                                                                        continue to be vigilant in its efforts to provide accurate and usable
                                                                        financial information to its managers for decision making purposes.

                                                   The DoD IG is working closely with the Department to address long-
                                                  standing financial management challenges and supports the DoD goal
DoD IG auditors reviewing financial statements. of achieving a favorable audit opinion for the DoD Agency-Wide financial
                                                statements and the major DoD components. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer issued the DoD Financial Improvement and Audit Readiness Plan as
part of an initiative to improve financial management within the Department. The DoD IG supports the objective
of the plan, which is to provide ongoing, cross-functional collaboration with DoD components to yield standardized
accounting and financial management processes, business rules, and data that will provide a more effective environment
to better support the warfighting mission. The DoD IG also supports the Department’s ongoing efforts to target
achievable, incremental change and to initiate the adjustments necessary for continual, sustainable improvement in
financial management.

The DoD IG completed audits of financial statements, financial systems, and financial-related information during this
reporting period. The results of that work are discussed in the sections below.

Financial Statement Audits

The DoD IG issued disclaimer opinion reports, and related reports on internal control and compliance with laws and
regulations, in the FY 2007 DoD agency-wide financial statements and 7 other component financial statements whose
audits are required by the Office of Management and Budget. In addition, the DoD IG issued an unqualified opinion
on the FY 2007 Military Retirement Fund financial statements and a qualified opinion on the FY 2007 Medicare-
Eligible Retiree Health Care Fund financial statements. Specifically, in November 2007, DoD IG auditors concurred
with the Deloitte & Touche qualified opinion on the Fiscal Year 2007 DoD Medicare-Eligible Retiree Health Care
Fund Financial Statements. Deloitte & Touche opined that, except for amounts related to the Fund’s direct care costs
and the impact of a September 30, 2004, backlog of unprocessed purchased care transactions, the financial statements
and accompanying notes present fairly, in all material respects, the Fund’s financial position, net cost, changes in
net position, and budgetary resources as of September 30, 2007 and 2006. Deloitte & Touche also opined that,
other than the effects of the matters identified above, the statements were presented in conformity with accounting
principles generally accepted in the United States of America.

Financial Systems Audits

Financial System Audits provide invaluable information with regard to the validity of financial statement information.
The DoD IG issued reports on 3 DoD systems. In performing the audits, DoD IG auditors tested the design
52
                                                                                                                                          Semiannual Report to Congress
and operating effectiveness of the controls in operation. The controls in place to ensure compliance with DoD
information assurance policies appeared to be suitably designed, but tests of the design and operating effectiveness
indicated inconsistencies in the adherence to DoD policies. One example is the Army’s ineffective planning and use
of an inappropriate contracting method for the acquisition of General Fund Enterprise System integration services.
The lack of planning places the program at high risk for incurring schedule delays, exceeding planned costs, and not
meeting program objectives. The DoD IG recommended improvements that will allow the Army to completely and
accurately define the General Fund Enterprise System program requirements and, as a result, help prevent additional
schedule delays, exceeding planned costs, and reduce the risk of not meeting program objectives. In addition, DoD
IG auditors recommended that the Army completely define requirements and produce a realistic economic analysis
before deciding to continue, modify, or discontinue the General Fund Enterprise System program. This will allow the
Army to put to better use the $532.5 million budgeted for General Fund Enterprise System contracts.

Financial-Related Audits

In addition to the financial statement and financial systems reports, the DoD IG conducted several finance-related
audits. These audits focus on providing insight and valuable recommendations to managers as they focus on audit
readiness. Areas that were covered during the reporting period included interim payments, transit subsidies and the
preponderance of use policy. The following concerns were reported:

•   A judgmental sample of $33.16 billion of contract financing interim payments showed that DoD did not report
    $10.41 billion of the payments correctly as Property, Plant, and Equipment Construction Work-in-Process. Also,
    DoD did not present any of the $33.16 billion of contract financing interim payments in the Other Assets on the
    balance sheet as it claimed in the footnotes to the financial statements. As a result, DoD understated its Property,
    Plant, and Equipment Construction Work-in-Process by about $10.41 billion and overstated its expenses by a
    corresponding amount. There is also a likelihood that expenses will be understated in the period in which the final
    asset is delivered. In addition, DoD and the Military Departments materially misrepresented the Other Assets
    Balance Sheet account and we identified a material internal control weakness in the reporting of contract financing
    interim payments.

•   Internal controls over the DoD Transit Subsidy Program within the National Capital Region were inadequate.
    Specifically, internal control activities were deficient in: the transit subsidy enrollment application process;
    enrollment status changes and withdrawal of transit subsidy participants; management of the enrollment database
    used to determine eligibility for distribution and benefits; and audit trails to validate subsidy benefit amounts and
    enrollment database entries. The results indicate a high risk that DoD employees will not file forms to indicate
    status changes or to withdraw from the program, will commit fraud to receive benefits more than once in the same
    distribution period, and will obtain and hold both transit subsidy benefits and subsidized parking benefits at the
    same time. As a result of this audit, 10 DoD employees were referred to DCIS for fraud investigation.

•   The DoD preponderance-of-use policy and Army practices for reporting real property assets did not comply with
    accounting principles generally accepted in the United States. As a result, the Army did not prepare its financial statements
    in accordance with those principles and misstated the acquisition cost of real property assets on the FY 2006 Army General
    Fund and Army Working Capital Fund Financial Statements by at least $424.3 million. To report real property assets
    accurately, DoD needs to implement a costing methodology that complies with federal financial accounting standards.




                                                                                                                              53
Department of Defense Inspector General
Health Care
....................................................................................................................................................................................

                                                                                  The Military Health System must provide quality health care
                                                                                  for approximately 9.2 million eligible beneficiaries within fiscal
                                                                                  constraints while facing growth pressures, legislative imperatives,
                                                                                  increasing benefits, and inflation that make cost control difficult
                                                                                  in both the public and private sectors. The DoD challenge is
                                                                                  magnified because of its mission to provide health support for
                                                                                  the full range of military operations. Part of the challenge in
                                                                                  delivering health care is combating fraud.

                                                     A major challenge to the Department is sufficient oversight of
                                                     the growing cost of health care for its beneficiaries. The increased
                                                     frequency and duration of military deployment further stresses
the MHS in both Active and Reserve components. The DoD budget for health care costs is about $42 billion in FY
2008, including $23.5 billion in the Defense Health Program appropriation, $7.1 billion in the Military Departments’
military personnel appropriations, $0.5 billion for military construction, and $11.2 billion for the contributions to
the DoD Medicare Eligible Retiree Health Care Fund to cover future costs of health care for Medicare eligible retirees,
retiree family members and survivors. In addition, the Department obligated almost $1.6 billion of supplemental
funds for medical support and health services in support of the GWOT in FY 2007.

The Department is scheduled to transition to the next generation of TRICARE contracts during fiscal year 2008. The
Department’s challenge is how to oversee the growing cost of health care while sustaining the health of its beneficiaries
as it transitions to the next generation of TRICARE contracts. Maintaining medical readiness continues to be a
challenge. Readiness of the medical staff and units includes ensuring that medical staff can perform at all echelons
of operation and the units have the right mix of skills, equipment sets, logistics support, and evacuation and support
capabilities. The challenge of keeping reservists medically ready to deploy continues due to the frequency and duration
of Reserve deployments. In addition, transitioning the wounded, ill, or injured Service members to post-deployment
care will continue to grow as a challenge while the GWOT continues. Information assurance relating to sensitive
medical information is a challenge for the public and private sectors of the health care community. Expanding
automation efforts, including the transition from paper to electronic patient records, increases the exposure of sensitive
patient information to inadvertent or intentional compromise. Maintaining information operations that ensure the
protection and privacy of data will continue to grow as a challenge. Implementing recommendations resulting from
the 2005 Base Realignment and Closure process will also continue to be a challenge for the near future. In addition
to improving the readiness and cost effectiveness of the MHS, the realignment process will provide opportunities for
greater joint activity among the military departments.

DoD IG audit resources continued to focus on cost and GWOT issues-see Chapter 1. The DoD IG completed audits
of the “Controls Over the TRICARE Overseas Program and the Supplemental Funds Used for Medical Support for
the GWOT.” The DoD IG also began an audit of controls over medical equipment used to support operations in
Southwest Asia. See Chapter 1 for more details.

The DoD IG completed an audit of the “Controls Over the TRICARE Overseas Program,” which focused on the
accuracy of TRICARE overseas claims payments made to providers outside of the United States. Government

54
                                                                                                                                          Semiannual Report to Congress
contractors responsible for processing TRICARE overseas health care claims made $14.6 million in duplicate payments
and overpayments during FY 2004 and FY 2005 to providers outside the United States and to TRICARE beneficiaries.
By strengthening internal controls, establishing sound contract surveillance plans, and improving recoupment
procedures, TRICARE Management Activity could put about $29.7 million of Defense Health Program funds to
better use during the execution of the FYs 2008 through 2013 Future Years Defense Plan.

TRICARE Management Activity has price caps on claims payments for health care in the Philippines and Puerto Rico
and plans to revise the Philippines price caps and implement price caps in Panama. By proceeding with the price
cap initiatives in the Philippines and Panama and establishing price caps in other countries, TRICARE Management
Activity could put at least $96 million of Defense Health Program funds to better use during the execution of FYs
2008 through 2013 Future Years Defense Plan.

The DoD IG completed an audit of the use of GWOT supplemental funds and reported that the military department
surgeons general did not consistently report obligations of supplemental funds as required by the TRICARE
Management Activity. Without accurate and consistent reporting of GWOT supplemental fund obligations, DoD
has no assurance that the Military Health System used funds for the purposes for which they were requested. The DoD
IG also reported that DoD could not ensure that the amounts reported in the “FY 2006 Defense Health Program Cost
of War” report were accurate or complete.

Information Security and Privacy
...................................................................................................................................................................................

The Department continues to be severely challenged by the need to provide a robust information security and privacy
program for its data, systems, operations, and initiatives. This is particularly so for that portion of its data, systems,
operations, and initiatives in the hands of the Defense Industrial Base and other non-DoD mission partners. The
twin imperatives of security and information sharing collide daily and little progress has been made toward resolution
of conflicting requirements. The DoD has not adopted National Institute of Standards and Technology standards or
guidelines established in Special Publications. Although DoD established a cooperative relationship working with the
National Institute of Standards and Technology and the Director of National Intelligence to establish a common set
of information security controls, risk management framework, and security certification and accreditation processes
that can meet the need of federal agencies managing and operating both national security and non-national security
systems, progress has been limited.

The DoD does not yet have a comprehensive, enterprise-wide inventory of information systems, to include war fighting
mission area systems and those containing DoD information operated by contractors. For example, for Fiscal Year
2007, DoD reported a total of 78 contractor systems in the two DoD Federal Information Security Management Act
data repositories. Such a low number of contractor systems that may contain DoD information is highly improbably
given that over 46,000 contractors with contracts greater that $25,000 are listed in the DoD data base maintained by
the DoD General Counsel Standards of Conduct Office, and nearly 40,000 contractors with DoD contract awards
in excess of $50,000 are listed in the Defense Contract Action Data System (DD 350 data base). Lack of progress in
meeting these challenges severely hampers the ability of the DoD to protect operational information for the warfighter
and privacy data for all employees, as well as perform basic fiduciary responsibilities and oversight for DoD information
technology expenditures. The DoD IG determined that the information in the DoD Information Technology Portfolio
Repository on contingency planning is not reliable on the basis of sample results. The DoD IG projected that, of 436
mission-critical information systems requiring information assurance certification and accreditation, 264 systems (61

                                                                                                                                                                                55
Department of Defense Inspector General
percent) lacked a contingency plan or their owners could not provide evidence of a plan, 358 systems (82 percent)
had contingency plans that had not been tested or for which their owners could not provide evidence of testing,
410 systems (94 percent) had incorrect testing information reported in the DoD Information Technology Portfolio
Repository, and 37 systems (8 percent) had incorrect contingency plan information reported. As a result, DoD
mission-critical systems may not be able to sustain warfighter operations during a disruptive or catastrophic event.
Further, DoD provided erroneous information to Congress and the Office of Management and Budget on whether
DoD had contingency planning procedures in place and periodically tested the procedures necessary to recover the
systems from an unforeseen, and possibly devastating, event.

The Joint Strike Fighter Program will bring the most advanced aviation and weapons technologies into the next
generation of strike fighter aircraft. With multiple foreign countries participating in development of the advanced
fighter program, the potential unauthorized release of classified information is of particular concern. The DoD
IG found that DoD had controls in place to validate the legitimacy of requests for exporting classified Joint Strike
Fighter technology in our review. However, DoD did not always employ sufficient security controls that could assist
in evaluating potential unauthorized access to classified U.S. technology. Additional oversight, accountability, and
control would help DoD reduce the risk that unauthorized access to classified U.S. technologies may occur.

The DoD IG has numerous projects on-going which may assist management in identifying and addressing weaknesses
in the DoD information security and privacy program. To address issues pertaining to personal identity verification,
to include physical access to DoD installations and facilities, and logical access to DoD information systems and
networks, the DoD IG is reviewing DoD implementation of HSPD-12, the Presidential directive of 2004 regarding
these matters. In addition, the Common Access Card (CAC) program is being reviewed as it pertains to contractors in
general, and personnel in South West Asia in particular. The DoD IG also has ongoing work pertaining to encryption
of data at rest in DoD mobile computing devices, reporting of DoD contractor systems containing DoD information,
security controls for radio frequency identification programs and numerous system security reviews associated with
financial statement assertions.

Logistics
...................................................................................................................................................................................

Transformation of logistics capabilities poses a significant challenge to the Department. The Department’s transformed
logistics capabilities must support future joint forces that are fully integrated, expeditionary, networked, decentralized,
adaptable, capable of decision superiority, and increasingly lethal. Additionally, transformed logistics capabilities must
support future joint force operations that are continuous and distributed across the full range of military operations.
Supply chain management is a challenge for the Department. The Government Accountability Office identified
supply chain management as a high-risk area because of weaknesses uncovered in key aspects, such as distribution,
inventory management, and asset visibility. They stated that since 2005, DoD has taken some positive steps toward
addressing challenges related to the supply chain management high-risk area. For example, in collaboration with the
Office of Management and Budget, DoD developed a plan to address some of the systemic weaknesses in supply chain
management. The plan encompasses 10 initiatives, such as war reserve materiel improvements and the expanded
use of radio frequency identification, requirements forecasting, asset visibility, and materiel distribution. The plan
provides a framework for addressing systemic weaknesses and focusing long-term efforts to improve supply support
to the warfighter. While DoD has made some progress implementing these initiatives, and DoD leadership has
demonstrated a commitment to resolving supply chain management problems, successful resolution of these long-
standing problems will take several years of continued efforts, and the Department faces challenges and risks in
successful implementation of proposed changes.
56
                                                                                                                                          Semiannual Report to Congress
                                                                                       Defense Hotline
FEATURED ARTICLE




                                                                           A Tool in the War Against Fraud, Waste, and Abuse




                   The Office of Inspector General Department of Defense is heavily engaged in combating fraud, waste and abuse. In
                   FY 2007, DoD IG audits achieved $697 million in savings and identified $1.5 billion in funds that could be put
                   to better use. Investigative activities identified 413 suspects who were indicted. Additionally, 307 suspects were
                   convicted of crimes. All in all, $926 million was returned to the U.S. Government in investigative fines, restitution,
                   and recoveries. The DoD IG has a variety of tools available to its auditors, investigators, and inspectors that contribute
                   to these successes; however, one in paticular deserves special mention....the Defense Hotline.

                   The Defense Hotline is a simple and convenient way to report fraud, waste, or abuse. Individuals who believe they
                   have evidence of fraud, waste, and abuse can provide that information to the Hotline. Individuals can contact the
                   Hotline by phone, fax, email, the internet, or by mail.

                   Why is the Hotline Important?

                   Most major corporations in America, state and city governments, and virtually all of the federal cabinet departments
                   use some type of hotline program to assist in minimizing the impact of fraud, waste, and mismanagement in their
                   organizations.

                   Hotlines can be a very effective deterrent. Someone who may be planning to do something that is improper or illegal
                   will be less likely to commit the act knowing that if someone sees them, their action can be reported to the Hotline.
                   Hotlines are also inexpensive ways for departments and agencies to become aware of issues affecting their programs
                   and operations. Government simply does not have all the resources it needs to have enough full time fraud examiners
                   to monitor all of the potential high risk areas for fraud and mismanagement. Hotlines can help achieve a higher level
                   of awareness for a fraction of the cost to the American people.

                   Hotlines are an important resource in times of emergencies. For example, on the afternoon of September 11, 2001,
                   while the area around the DoD IG building was still filled with smoke and soot from American Airlines flight 77 hitting
                   the Pentagon, the DoD IG was contacted by Department of Justice officials who had two requests. The first request
                   was to activate the DoD Hotline on a twenty four hour, seven day per week basis until further notice. The second
                   request was to provide trained hotline investigators to the National Hotline Task Force that was being assembled just
                   outside of downtown Atlanta, Georgia. The purpose of the task force was to participate in and help acquaint the host
                   of Federal agencies who would be manning another 24/7 hotline operated to identify potential future targets following
                   the day’s events. The staff of the Defense Hotline responded immediately to these two requests. The Hotline was up
                   and operational by 3:00 p.m. on September 11, 2001, and remained operational until relieved of this duty during
                   January 2002.




                                                                                                                                          57
                   Department of Defense Inspector General
Background of Hotline

The Defense Hotline was born out of the Inspector General Act of 1978, which in Section 7(a) of the Act authorized
the newly created Inspectors General to “receive and investigate complaints or information from an employee of
the establishment concerning the existence of an activity constituting a violation of law, rules, or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to the public health and
safety.” It then goes on to outline the importance of protecting the employee’s identity.

Within the DoD, the Hotline was authorized by the Secretary of Defense in April 1979 as national level program
having policy and oversight responsibility over all other hotlines having the mission to identify and eliminate fraud,
waste, and mismanagement in the DoD. Between 1979 and about 1982 the hotline program was operated by IG
staff detailed to such duties on a six-month rotational assignment. Because of its success in the early-mid 1980s, the
hotline was then given a permanent status within the DoD IG, with staff ranging from 14-20 investigators. Although
it’s original mission was somewhat narrow in scope (fraud, waste, and mismanagement), today’s “expanded” hotline
mission includes these core responsibilites, plus some contemporary issues, such as threats to homeland security;
allegations of human trafficking; and force protection issues. Over the years, both the number and the complexity
of Hotline grew; this produced a requirement for an expansion of staff. In the 1980’s the Defense Hotline had 10
members on staff, which doubled to 20 by 1995. Currently, a staff of 14 works on the Hotline. And just this past
year, in an effort to increase the ability of our military, civilians, and contractors in the Southwest Asia region to report
allegations of fraud, waste, and abuse, we established a special toll-free Defense Hotline number for the exclusive use
of personnel stationed in the region.

Trend Analysis

The DoD IG is using data gathered on hotline cases to see if there are any specific trends developing or emerging
issues in the Department. That information can be used to determine where exactly more of the DoD IG’s oversight
resources need to be focused.

The Hotline has noticed an encouraging trend over the past twelve to eighteen months of an increase in individuals
reporting unethical contracting shortcuts. Allegations include manufacturers not adhering to contract-required quality
control procedures and processes, which often result in an inferior product for an aircraft or weapons system. The
public’s awareness of the importance of these required steps has contributed to unauthorized shortcuts being reported
in increased instances.

Another unmistakable trend involves the increased reporting of any actions or non-actions taken by the senior
leadership. The DoD IG has an investigative office known as Investigation of Senior Officials. During the past ten
plus years inquiries and referrals of senior official misconduct to our uniformed counterparts in the Army, Navy, and
Air Force have increased significantly. It is important to have accountability and transparency of senior leadership.

Advantages of DoD Hotline

One of the greatest advantages of the hotline is the ability for people to report potential incidents in an anonymous
manner. This allows the person to feel safe from any potential harm by reporting something that is detrimental to
either them or the department as a whole. This minimizes potential retribution for the call, and makes it all the more

58
                                                                                               Semiannual Report to Congress
likely that issues needing to be addressed, are transferred from the caller to DoD IG in a timely manner, providing the
best opportunity to remedy the issue. Another great advantage is the ease with which hotlines can be advertised. The
Defense Hotline number is widely distributed on posters, flyers, and websites enabling the information to be readily
available to those who need it. This ensures our military, civilians, and contractors know where to turn when an issue
of waste, fraud or abuse arises.

Defense Hotline Achievements

The Defense Hotline has a role in a number of interesting and significant accomplishments. One example in particular
involves family members trying to take advantage of benefits. A source alleged an individual married her grandfather
for the purpose of collecting his military survivor benefit program payments. An investigation revealed the marriage
was entered solely to obtain the benefits and further uncovered that the mother conspired with her daughter to affect
the fraudulent marriage. As a result of the marriage the mother and daughter received over $230,000 in benefits they
were not entitled. The daughter was indicted and sentenced to 36 months probation and restitution in the amount
of $230,000. The mother was convicted on both charges and sentenced to 27 months confinement in a federal
penitentiary, 36 months probation and joint restitution of $230,000.

Another example is a complaint alleging that contractor employees were allowed to take government vehicles to
their homes nightly. It was further alleged the individuals were involved in accidents in those vehicles which the
government paid for. The contractor purchased the vehicles under the contract as part of an incentive program. As
a result of the investigation the contractor reimbursed the government $180,000 for the cost of the original vehicles,
associated licensing, taxes, fees, fuel purchases, and invoices to the government for the accidents.

As a final example, an anonymous source reported Navy Seabees sold government-owned tools and parts on eBay.
During the investigation federal search warrants were executed. Several sailors were identified as co-subjects resulting
in five confessions and the recovery of some government-owned tools. Further investigation disclosed additional
sailors involved in forgery of open purchase requests and purchasing items for personal gain. Estimated loss to
the government totaled over $178,000. A total of seven Navy petty
officers were either court martialed or accepted non-judicial punishment.
Punishments included imprisonment, fines, reduction in grades and
several bad conduct discharges.

Conclusion

Today, we live in a world that is at war with the forces of terrorism.
The resources that are needed to fight this war are many; the places we
need to go are far from home. The millions of men and women serving
our government, whether it is in our armed forces, in our agencies, or
in government contracted companies- each deserve the utmost effort
by the oversight community to ensure resources are used effectively
and efficiently. Hotlines provide numerous advantages in the battle
against waste, fraud and abuse. Hotlines, with their deterrent value, cost
effectiveness, and record of achievement, have played an essential role in
this battle.
                                                                             17973-Hotline.indd 1                  10/20/06 5:37:57 PM




                                                                                                                             59
Department of Defense Inspector General
Investigative Oversight
        A look at the investigations conducted by the
        Department of Defense Inspector General




The Defense Criminal Investigative Service is the criminal
investigative arm of the Inspector General of the Department
of Defense. DCIS protects America’s warfighters by
investigating terrorism, shielding our defense technology
against those who seek to steal it or use it against the
United States or its allies; investigating companies that use
substituted or substandard parts in weapons systems and
equipment utilized by the military; preventing cyber crimes
and computer intrusion; and investigating cases of fraud,
bribery, and corruption.

DCIS devotes investigative resources to terrorism,
procurement fraud, computer crimes, illegal technology
transfers and public corruption. DCIS special agents
have full law enforcement authority; make arrests, carry
concealed weapons, execute search warrants, serve subpoenas
and testify in legal proceedings.




60
                                                                Semiannual Report to Congress
DoD IG significant accomplishments in Investigations are listed under the following categories:

•   Illegal Transfer of Technology, Systems, and Equipment
•   Cybercrime and Computer Intrusion
•   Corruption and Fraud
•   Defective, Substituted, and Substandard Products
•   Other
                                                                                                    To set this concept in motion, the
                                                                                                    DoJ announced the National Coun-
                                                                                                    ter-Proliferation Initiative in October
FEATURED ARTICLE



                                                                                                    2007, “to combat the growing nation-
                                                                                                    al security threat posed by the illegal
                                                                                                    exports of restricted U.S. military
                                                                                                    and dual-use technology to foreign
                                                                                                    nations and terrorist organizations.”
                                                                                                    This initiative is supported by DCIS,
                                                                                                    the Department of Homeland Secu-
                                                                                                    rity and the Department of State. All
                                                                                                    participating agencies agreed to in-
                                                                                                    crease efforts to investigate and prose-
                                                                                                    cute export control violations. To this
                                                                                                    end, U.S. Attorney’s offices around
                                                                                                    the country agreed to form Counter-
                                                                                                    Proliferation Task Forces designed to
                                                                                                    enhance interagency cooperation.

                                                                                                    Consistent with the spirit of DOJ’s
                                                                                                    new initiative, DCIS teamed up with
                   Technology Protection                                                            DoJ and spearheaded the formation
                                                                                                    of the Technology Protection Enforce-
                   Technology protection investigations      dination on the part of numerous ment Working Group. The TPEG is
                   are one of DCIS’ highest priorities.      agencies. In conducting these inves- composed of Technology Protection
                   The majority of DCIS’ technology          tigations, DCIS partners closely with decision makers from various partner
                   protection investigations involve the     federal law enforcement agencies, to agencies.
                   illegal theft or transfer of U.S. tech-   include Immigration and Customs
                   nologies and munitions to proscribed      Enforcement, the Federal Bureau of The first TPEG meeting was held in
                   nations, terrorist organizations, and     Investigation, the Naval Criminal November 2007, and has developed
                   criminal enterprises.                     Investigative Service, the Air Force into an invaluable network for shar-
                                                             Office of Special Investigations, U.S. ing critical information among the
                   The illegal trafficking of critical       Army military intelligence compo- participating agencies. The collabo-
                   military technology and weapons of        nents, the U.S. Army Criminal In- ration and integration of the TPEG
                   mass destruction threatens America’s      vestigation Command, and the U.S. members has already reduced infor-
                   homeland and warfighters deployed         Department of Commerce Office of mation barriers and allowed greater
                   around the globe. DCIS has inves-         Export Enforcement.                    access to the collective investigative
                   tigated cases involving the illegal ex-                                          data each agency brings to the table.
                   port of missile technology, military      Recognizing that interagency coop- Pooling resources and working closely
                   night vision components, fighter jet      eration could be improved, the De- with partner agencies has been crucial
                   components, and helicopter techni-        partment of Justice recently launched both in sharing information and in
                   cal data. During the past 12 months,      an export enforcement initiative de- fostering multi-agency cooperation
                   DCIS has been involved in approxi-        signed to harness the various export through all phases of these investiga-
                   mately 223 technology protection in-      control and counter-proliferation as- tions.
                   vestigations.                             sets available to the law enforcement
                                                             and the Intelligence Community in Proactive efforts such as the TPEG
                   Success in conducting technology          order to better detect, investigate, and increased attention to illegal ex-
                   transfer and WMD interdiction in-         and prosecute illicit attempts to ac- ports of U.S technology have recent-
                   vestigations requires seamless coor-      quire sensitive technology.            ly received executive level support.

                   62
                                                                                                              Semiannual Report to Congress
On January 22, 2008, the President       Critical Program Information. DoD         cover operations to intercepting the
signed several new export control        Directive 5200.39 defines CPI as:         sale of particularly sensitive items via
national security policy directives.     “…technologies or systems, that, if       internet auction sites.
Among them are provisions for the        compromised, would degrade com-
formation of a headquarters-level in-    bat effectiveness, shorten the expected   Interagency Cooperation
teragency enforcement group to co-       combat-effective life of the system, or   ________________________
ordinate efforts.                        significantly alter program direction.    While the entire DoD plays a role in
                                         This includes classified military in-     protecting vital Defense technology
DCIS actively participates in a variety formation or unclassified controlled       from falling into the wrong hands,
of other technology protection work- information about such programs,              several Defense agencies maintain
ing groups and meets on a regular technologies, or systems.”                       pivotal roles: the Defense Technology
basis with representatives from the                                                Security Administration, the Defense
intelligence community, allowing CPI may include but is not limited to             Security Service, the Defense Threat
DCIS to share technology protec- any of the following:                             Reduction Agency, and the DoD
tion information developed during                                                  Counterintelligence Field Activity.
the course of DCIS investigations • Various computer programs, soft-
and receive relevant data about other        ware, or hardware                     The Defense Threat Reduction Agen-
agencies’ investigations. Criminal • Design goals, successes, etc.                 cy is a DoD combat support agency
intelligence, gleaned from DCIS and • Vulnerabilities / countermeasures            headquartered in Fort Belvoir, Vir-
partner agencies’ investigative efforts, • New technology / technological          ginia. DTRA employs 2,000 men
has been included in analytical prod-        breakthroughs                         and women, both military and civil-
ucts developed by the Intelligence • Unique application / capabilities             ian at more than 14 locations around
Community for presentation to key • Manufacturing techniques -                     the world. DTRA works to counter
national security policy makers.             equipment, tools                      weapons of mass destruction, includ-
                                         • Company proprietary data                ing chemical, biological, nuclear, ra-
“Cradle to Grave” Protection of • Intellectual property data                       diological or high-explosive.
DoD Critical Technology                  • Formulas, algorithms, etc.
__________________________                                                         The Defense Technology Security Ad-
It is important for DoD to maintain   DoDD 5200.39 requires Defense ac-            ministration administers the develop-
an edge in the development of new     quisition program managers to iden-          ment and implementation of DoD
technologies that sustain battlefield tify the CPI of each of their systems.       technology security policies on inter-
superiority and protect the warfight- Once CPI is identified, the DoD fo-          national transfers of defense-related
er. In order to accomplish this, it iscuses protection on those critical sys-      goods, services and technologies.
crucial to prevent the compromise     tems. This is done by providing in-          It ensures that critical U.S. military
of any military critical technology   formation on threats and appropriate         technological advantages are pre-
throughout its lifecycle.             countermeasures to those developing          served; transfers that could prove det-
                                      and using these technologies. Even           rimental to U.S. security interests are
DoD provides cradle to grave protec- after an item has reached the end of          controlled and limited; proliferation
tion of critical technologies through its lifecycle and is no longer of use to     of weapons of mass destruction and
focused, specialized investigative the DoD, it must go through a de-               their means of delivery is prevented;
techniques designed to help protect militarization process. This process is        diversion of Defense-related goods
and safeguard critical weapons sys- designed to identify those items that          to terrorists is prevented; military in-
tems and programs from the point must be degraded or destroyed before              teroperability with foreign allies and
they enter the acquisition system release from Government custody.                 friends is supported; and the health
through de-militarization or reuse. DCIS prioritizes investigations in-            of the U.S. Defense industrial base is
To make best use of limited investi- volving sensitive items that were not         assured.
gative resources, DoD focuses on the appropriately de-militarized before
most crucial components of critical being released to the public. Investi-
Defense technologies—often called gations range from complex under-

                                                                                                                        63
Department of Defense Inspector General
Stinger missles involved in DCIS illegal export cases




                                                        The Defense Security Service sup-          DoD personnel, resources, critical in-  the International Emergency Eco-
                                                        ports national security and the            formation and infrastructure. CIFA      nomic Powers Act (50 USE 1701),
                                                        warfighter, secures the nation’s tech-     programs further safeguard key U.S.     covering the Presidential powers that
                                                        nological base, and oversees the pro-      interests and fundamental economic      focus on economic and trade sanc-
                                                        tection of U.S. and foreign classified     security by shielding Defense technol-  tions. ICE also enforces the Trad-
                                                        information in the hands of industry.      ogy and strategic science from foreign  ing with the Enemy Act (50 USC
                                                        DSS accomplishes this by certifying        influence, theft and manipulation.      5). Both ICE and DOC enforce the
                                                        industrial facilities for the processing                                           Export Administration Act (EAA)
                                                        of classified information, accrediting     Immigration and Customs Enforce- which covers dual-use technology.
                                                        information systems, facilitating the      ment and the Office of Export En-
                                                        personnel security clearance process,      forcement have been particulary Potential Adversaries have a myriad of
                                                        delivering security education and          valuable partners in countering illegal capabilities to obtain critical military
                                                        training, and providing information        export of sensitive DoD technolo- technologies and continue to success-
                                                        technology services that support the       gies and equipment. DCIS, ICE and fully employ them. Given our con-
                                                        industrial and personnel security mis-     OEE use traditional criminal investi- tinued reliance on technology and
                                                        sions of DoD and its partner agen-         gative methodologies and authorities its importance to our national and
                                                        cies.                                      to investigate violations of the Arms economic security, a new approach
                                                                                                   Export Control Act (22 USC 2778), is called for to achieve interdiction
                                                        The Counterintelligence Field Activ-       International Trafficking in Arms success. It is through the collabora-
                                                        ity develops and manages Defense           Regulations (22 CFR 120-130), and tive process being forged with key
                                                        Department counterintelligence pro-        the Export Administration Act (50 agencies such as ICE and OEE that
                                                        grams that protect the Department          USC 2401-2420 EAR, 15 C.F.R. 370 progress will be made in further iden-
                                                        by supporting the detection and            et seq). ICE has primary jurisdiction tifying, disrupting, and deterring the
                                                        neutralization of foreign espionage.       for enforcing the Arms Export Con- proliferation of critical military tech-
                                                        CIFA contributes to the security of        trol Act (AECA) 22 USC 2778, and nology transfer and WMD.

                                                        64
                                                                                                                                                      Semiannual Report to Congress
Case Studies:                             licited quotes for 10 QK410B klys-        edged he purchased the laser aimer
                                          tron oscillators. It was determined       from one of the persons he previously
Attempted Export of                       that these compo¬nents were being         identified to DCIS as dealing in sto-
                                          shipped to a Gar¬dena, CA, supplier       len military property.
Aircraft Components
                                          who in turn sold them to World Elec-
________________________                  tronics, located in Glenrock, NJ. Over    On February 11, 2008, the man was
Two men from Ogden, Utah, were            the course of several years, the owner    sentenced in the Northern District of
each charged with three violations        of World Electronics made numer-          Texas, Fort Worth Division, pursuant
of the Arms Export Control Act for        ous shipments of U.S. Muni¬tions          to a September 26, 2007 guilty plea
attempting to illegally export com-       List Items, such as F-14 aircraft parts   to one count of false statements (18
ponents to foreign buyers for F-14        and Hawk missile systems, to Ger-         USC 1001) and one count of posses-
and F-4 fighter aircraft without pos-     many and other countries with¬out         sion of stolen Government property
sessing a necessary license. They were    obtaining required licenses in viola-     (18 USC 641). The man was sen-
indicted on these charges on October      tion of the Arms Export Control Act       tenced to 21 months confinement
4, 2007. Currently, the only coun-        (22 USC 2778). On Novem¬ber 30,           for each count, to be served concur-
try outside the U.S. that uses these      2007, the owner of World Electron-        rently; a special assessment of $200;
aircraft is Iran. This investigation      ics and his company were sentenced        and three years of supervised release
began when both ICE and DCIS              for their in¬volvement in a conspira-     following his incarceration. Addi-
found F-14 parts listed for sale on an    cy to violate export laws. The owner      tionally, the man was ordered to serve
Internet Web site run by one of the       was sentenced to two-years proba-         his federal sentence consecutive with
men. ICE agents bought cable assem-       tion, and ordered pay a $20,000 fine.     a seven year confinement sentence he
blies and other materials from him.       The company was ordered to pay a          is already serving for a state felony
The suspect and those working with        $20,000 fine.                             drug conviction related to this inves-
him tried to disguise the items they                                                tigation.
were selling and send them out of the
country, but the materials were inter-
                                         Theft of Rocket Launchers/
cepted by ICE agents before they left Laser Aiming Device
                                                                                    Purchase of Aircraft Parts on
the United States.                       ____________________________               Internet Auction Site
                                         On March 8, 2005, the Federal Bu-          ________________________
Illegal Acquisition and Export reau of Investigation, Joint Terrorism               On February 14, 2006, two broth-
                                         Task Force, Fort Worth, Texas, re-         ers of Iranian descent entered guilty
of Missile Components                    ported that a man had posted a pic-        pleas before a Federal Court in the
____________________________ ture of himself with an M190 practice
                                                                                    Southern District of California to vi-
On November 5, 2002, the Unit- rocket launcher and practice rockets
                                                                                    olating the Arms Export Control Act,
ed States Customs Service learned in a non-military setting. M190 and
                                                                                    22 USC 2278(c). The cooperation
that a man, doing business as P.E. their practice rockets are not com-
                                                                                    of the men led to the indictment and
Trad¬ing Limited, Brooklyn, N.Y., mercially available, but only available
                                                                                    arrest of another subject in Thailand
was at¬tempting to illegally acquire to the U.S. military services and some
                                                                                    on November 13, 2006. The men
and ex¬port Hawk missile compo- foreign militaries. During 2003, the
                                                                                    purchased Munitions List military
nents; to include klystron oscilla- Food and Drug Administration, Of-
                                                                                    aircraft parts on eBay and illegally
tors, which are an integral part of the fice of Criminal Investigations con-
                                                                                    shipped F-4, F-5 and F-14 aircraft
Hawk’s illuminator unit. Investiga- ducted an undercover purchase of a
                                                                                    parts to the Islamic Republic of Iran.
tion revealed the ultimate destination Vital 100 military laser aiming device
                                                                                    The illegal shipments were intercept-
of the oscillators would likely be Iran, from the man. The FDA OCI inves-
                                                                                    ed by ICE. On November 26, 2007
which is prohibited by U.S. export tigation determined the laser aiming
                                                                                    both were sentenced to one year in-
laws from receiving such devices. The device was one of three procured by
                                                                                    carceration and 3 years of supervised
investigation also revealed that P.E. the DoD, but stolen before reaching
                                                                                    probation upon release.
Trad¬ing had contacted a Connecti- their final destination. During a sub-
cut sup¬plier of surplus/refurbished sequent interview, the man acknowl-
U.S. mil¬itary electronics and so-

                                                                                                                       65
Department of Defense Inspector General
Cyber Crime and Computer Intrusion
....................................................................................................................................................................................

During this reporting period, DCIS computer crimes agents
provided computer forensics support to more than 85 DCIS
investigations. Cases worked during this period include the
following examples.

A case was initiated when the Defense Finance and Accounting
Service notified DCIS that DoD employees’ pay account
information maintained in an on-line Internet-accessible database
known as myPay was accessed without employees’ knowledge or
consent. Employees’ pay was diverted electronically and deposited
into other individuals’ financial accounts. Following a review
of DFAS computer network records and logs, Department of
Homeland Security records, and various financial institution records, it was determined that a foreign national and
his accomplice accessed the accounts. The foreign national installed spyware on hotel computers and stole login
information. He then used the login information and passwords to access the users’ account data and financial
information. On August 31, 2007, the individual was arrested in Miami, Florida, upon arriving from Colombia.
On November 15, 2007, he was indicted on charges of Access Device Fraud, Identity Theft, and Aggravated Identity
Theft. He subsequently pled guilty on January 8, 2008.

Corruption and Fraud
....................................................................................................................................................................................
The DoD loses millions of dollars annually because of financial crime, public corruption, and major thefts. DCIS
investigative efforts target abuses in the procurement process, such as the substitution of inferior products, overcharges,
bribes, kickbacks, and cost mischarging. Additionally, DCIS partners with acquisition and financial agencies to
proactively identify areas of vulnerability. Examples of DCIS efforts to combat financial threats include the following
examples.

An officer of a DoD contractor was convicted of wire fraud in U.S. District Court, Middle District of Florida. He
was sentenced to 24 months confinement, 36 months supervised release, and was ordered to pay $202,510. The
officer fraudulently provided substandard parts, surplus parts, and overhauled parts to DoD. Many of these parts
were classified as Critical Application Items, which are considered essential to military weapon system performance or
operation. The individual electronically filed false certifications indicating that the parts were new and met standards
specified in contracts.

A DoD contractor agreed to an administrative settlement and paid the U.S. Government $4.3 million for fraudulently
mischarging the U.S. Government when calculating proposed costs on Government negotiated firm-fixed price
contracts. The contractor applied a fraudulent rate to proposed direct costs, including material costs, for all negotiated
contracts awarded from November 1995 through February 2002.

A major Defense contractor agreed to pay the U.S. Government $237,680 in a civil settlement to resolve charges
of submitting false claims. The contractor was placed on 60 months probation and fined $4,000. The contractor
submitted false certified disposal documentation to the Defense Reutilization and Marketing Service which related

66
                                                                                                                                          Semiannual Report to Congress
to the disposal of an estimated 3.7 million pounds of unused Super Topical Bleach. The company’s president was also
sentenced in conjunction with a previous conviction for submitting false claims to DRMS. He received 60 months
confinement and was ordered to pay a fine of $1,000 and restitution of $237,680.

A joint investigation with the U.S. Army Criminal Investigation Command, Arlington, Texas, was initiated after a
U.S. Army officer allegedly mailed approximately $120,000 in U.S. currency and approximately 3,000 Iraqi Dinar to
his home in Killeen, Texas. Further investigation implicated a U.S. Army major in receiving bribes from contractors in
Iraq. The Army major was sentenced October, 19, 2007, in the Western District of Texas, Austin, Texas, and ordered
to serve 10 years confinement, 3 years on probation, pay a $5000 fine and a $300 assessment, and forfeit $1 million,
for bribery, conspiracy, and money laundering in connection with schemes involving fraudulent contracts he awarded
while deployed to Iraq.

A U.S. Army major, his wife, and his sister were indicted on bribery,
money laundering, obstruction charges, and conspiracy to defraud
the U.S. Government arising out of the major’s service as an Army
contracting officer in Kuwait. The major was deployed to Camp Arifjan,
Kuwait, serving as a contracting officer responsible for soliciting and
reviewing bids for DoD contracts in support of operations in the
Middle East, including Operation Iraqi Freedom. The major allegedly
guaranteed that a contractor would receive a contract in return for
the payment of money. The major and others allegedly accepted $9.6
million in bribe payments on his behalf through bid-rigging schemes.

On February, 20, 2008, Brent Wilkes, president of ADCS, Inc., a
DoD contractor, was sentenced to 12 years confinement, 3 years
probation, fined $500,000, assessed a fee of $1,300, and ordered
to forfeit $636,116 as a result of his involvement in a bribery and
corruption scheme. Wilkes was convicted of bribing former U.S.
Congressman Randall “Duke” Cunningham in return for congressional
appropriation earmarks by Congressman Cunningham and others to assist                  DCIS special agent making an arrest.
Wilkes in obtaining millions of dollars in DoD contracts.

A DoD contractor pled guilty in U.S. District Court in the Eastern District of Virginia for submitting false claims
relating to water purification services provided to the U.S. Army. The company contracted with the Army to provide
training, maintenance and refurbishment of Reverse Osmosis Water Purification Units used to make non-potable
water drinkable. The ROWPUs were deployed to overseas locations, to include Iraq. The corporation was sentenced
to 5 years probation, fined $700,000, and ordered to pay $421,523.33 restitution and a $400 special assessment to
the U.S. Government.




                                                                                                                         67
Department of Defense Inspector General
Defective, Substituted, and Substandard Products
....................................................................................................................................................................................

                                                                                           Through the investigative efforts of DCIS special agents,
                                                                                           abuses in the procurement process, such as the substitution
                                                                                           of inferior products, are exposed. Below are examples of
                                                                                           DCIS work in this arena.

                                                                                           Two DoD subcontractors signed civil settlements with
                                                                                           the Department of Justice, Civil Division, Commercial
                                                                                           Litigation Branch, regarding alleged nonconforming Zylon
                                                                                           fabric used by American manufactures to produce body
                                                                                           armor. The subcontractors paid the U.S. Government
                                                                                           $15,425,000 to settle the disputed claims.

                                                               Two employees and the owner of an FAA-certified
                                                               aircraft engine repair company were convicted in U.S.
                                                               District Court in the Western District of Oklahoma for
                                                              using unapproved parts in DoD aircraft. The employees
Transporting a military aircraft. overhauled aircraft engines by using inadequate parts and workmanship. The engines
                                  were sold to customers throughout the United States, to include the DoD. The
subjects were sentenced to a total of 137 months confinement and 84 months probation, ordered to pay $1,064,256
in restitution and a $400 assessment, and will forfeit $352,480.

A DoD contractor pled guilty and was convicted in U.S. District Court in the Eastern District of Virginia for
conspiring to commit wire fraud and aggravated identity theft in a scheme to steal in excess of $4 million from the
Defense Supply Center Columbus through contracts to supply critical and non-critical material to DSCC under
multiple contracts. All products provided did not conform to contract specifications. The contractor was sentenced to
94 months imprisonment, restitution to DoD of $3,696,235, and three years’ supervised probation.

The owners of a company debarred by DoD were convicted of wire fraud in U.S. District Court in the Middle District
of Florida for providing nonconforming electronic parts to the Defense Supply Center Columbus, all of which failed
inspection. The owners created eight fake companies to bid for DSCC contracts online. Many of the replacement parts
provided by the owners have critical applications in sensitive military equipment. The two owners were each confined
for 18 months, placed on 36 months supervised probation, and ordered to jointly pay $1,564,159 in restitution.
Counterfeit Network Hardware Initiative

DCIS, the U.S. Department of Justice, ICE, the FBI, and other law enforcement partners are involved in a nationwide
initiative focusing on illegal trafficking of counterfeit network hardware. The initiative targets the illegal importation
and sale of counterfeit network hardware; in particular network routers, switches, network cards and modules. By
intercepting the counterfeit hardware, and dismantling illegal supply chains in the U.S., the operation will attempt
to protect DoD, Government agencies, and private sector entities from the risk of network infrastructure failures
associated with these counterfeits.




68
                                                                                                                                          Semiannual Report to Congress
Other
....................................................................................................................................................................................

Hurricane Katrina/Rita

                                                                              As of March 6, 2008, DCIS had received 34 criminal allegations
                                                                              related to fraud in relief efforts for Hurricanes Katrina and Rita.
                                                                              DCIS agents have initiated 15 investigations concerning bribery,
                                                                              kickbacks, false claims, and possible product substitution. During
                                                                              the reporting period, the U.S. Army Corps of Engineers negotiated
                                                                              an administrative settlement to recover $560,000 from a Blue
                                                                              Roof contractor. To date, a total of four convictions have been
                                                                              adjudicated.

                                                                      DCIS attends monthly meetings at the Hurricane Katrina Fraud
                                                                      Task Force Command Center to brief other task force members on
                                                                      investigative efforts. DCIS also serves as the liaison between law
DCIS special agents in New Orleans.                        enforcement and the U.S. Army Corps of Engineers and continues to assist the
                                                           HKFTF by reviewing incoming complaints at the command center.

DCIS Asset Forfeiture Program

Since admission into the Department of Justice Asset Forfeiture Fund, in May 2007, DCIS was responsible for
$15,642,246.50 in court-ordered forfeiture and an additional $6,229,938.35 in seizures pending forfeiture. Seizures
and forfeitures of vehicles, gold, real property, trading accounts, and cash represent fraud and corruption proceeds
disclosed as a result of DCIS criminal and financial investigations, often conducted in parallel.

Within the reporting period, $259,612.28 has been seized in conjunction with GWOT-related investigation and is
pending forfeiture. Also during the reporting period, a $636,116.50 criminal forfeiture judgment was entered in the
Southern District of California against a DoD contractor who bribed Congressman Randall “Duke” Cunningham. The
DoD contractor was convicted February 20, 2008, of Honest Service Wire Fraud, 18 USC 1343; Aiding and Abetting,
18 USC 1346; Bribery of a Public Official, 18 USC 201 (b)(1)(A); Money Laundering, 18 USC 1956(a)(1)(B)(i), and
Criminal Forfeiture, 18 USC 982. Lastly, a $1 million judgment of criminal forfeiture was entered in the Western
District of Texas against a major in the U.S. Army for bribery conspiracy and money laundering in connection for
fraudulently awarding contracts while deployed to Iraq.

The intent of the DCIS Asset Forfeiture program is to deter and detect criminal activity, punish offenders, and
dismantle criminal organizations that target the acquisition, technology, and logistical systems within the Department
of Defense. The DCIS Asset Forfeiture program has enhanced cooperation among our military, foreign, federal, state,
and local law enforcement partners and agencies through equitable sharing of assets recovered.




                                                                                                                                                                                69
Department of Defense Inspector General
Policy and Oversight
       A look at the inspections conducted by the
       Department of Defense Inspector General

Evaluation of the Voting Assistance Program: On March 31, 2008, Inspections and Evaluations Directorate released
this annual statutory report. In accordance with the provisions of section 1566, title 10, U.S. Code, the DoD
IG consolidated the VAP reports of the Services’ Inspectors General and summarized the results of their respective
evaluations. Our analysis concluded that there are opportunities to improve dissemination of informative voting
materials and program metrics.

Evaluation of the Prompt Payment Act Project: On December 16, 2007, the Inspections and Evaluations Directorate
announced this project to review DoD’s management of the Prompt Payment Act provisions and evaluate the process
used to disburse interest on late payments to contractors. The guidance in the 1999 Office of Management and
Budget CFR 1351 stipulates exceptions to the Prompt Payment Act for military contingencies, emergency responses,
and responses to a hazardous substance release. For example, these exceptions apply to Operations Enduring and
Iraqi Freedom and to catastrophic events like Katrina and the tsunami. We are evaluating the management of, and
compliance with, these PPA exceptions, program policies, continuity and standardization, and the validity of interest
payments.

Assessment of Contracting with Blind Vendors and Employers of Persons Who are Blind or Have Other Severe
Disabilities: Section 856 of the National Defense Authorization Act for FY 2007 directed the Departments of Defense
and Education Inspectors General to review management procedures under the Randolph-Sheppard Act (sections
107-107f, title 20, United States Code) and the Javits-Wagner-O’Day Act (sections 46-48c, title 41, USC). Together,
these acts legislate priorities and preferences for blind vendors and employers of blind and severely disabled persons to
provide food services for military cafeterias and dining facilities.

Evaluation of the DoD Safety Program: Accidents cost the Military Services the lives of 700 service members
per year and an estimated $21 billion in direct and indirect costs. As described in previous Semiannual Reports,
the Inspections and Evaluations team has been engaged in a long-term effort to assist the Secretary of Defense in
improving the DoD safety program. In addition to the interim recommendations presented to Defense Safety and
Oversight Council, the evaluation will provide additional suggestions to improve the DoD safety culture, policies,
leadership structure, and resource allocations.

Accident Reporting Related to Military and Civilian Injuries: The Assistant Deputy Under Secretary of Defense
for Environment, Safety, and Occupational Health requested this project on August 20, 2007. The objective of the
project is to evaluate the DoD reporting process involving civilian and military injuries caused by reportable accidents.
The ESOH community is concerned that there may be a significant number of injury mishaps documented in medical
records, without reporting the underlying mishap to the respective safety centers. To help program managers and
decision makers, the project team is evaluating compliance with reporting requirements, identifying root causes for
under-reporting and determining impediments to data transfer between medical and safety systems.




70
                                                                                            Semiannual Report to Congress
Chapter 3:
Services
Oversight
                                                               Proper Use of Non-DoD Contracts: At the request of
                    U.S. Army                                  the Deputy Assistant Secretary of the Army (Policy and
                                                               Procurement), AAA assessed the Army’s implementation
                                                               of policy for proper use of non-DoD contracts. AAA
                                                               found requiring activities had partially implemented the
                                                               Army policy when procuring supplies and services using
                                                               non-DoD contracts. This occurred because activities
                                                               weren’t aware of the Department of the Army policy or
                                                               didn’t understand how certification requirements applied
                                                               to exercising option years and incremental funding
                                                               situations. The AAA made recommendations in the final
                                                               report to reissue non-DoD policy under Secretary of the
                                                               Army signature to get greater visibility and emphasis
                                                               across the Army, improve management controls over
                                                               gathering and checking the reasonableness of reported
                                                               acquisitions, and submit a recommended change to the
Army Audit Agency                                              Federal Acquisition Regulation to address congressional
                                                               concerns with interagency contracting.
To accomplish our mission, Army Audit Agency relies on
a work force of highly trained professional auditors, many     Army Contracting Operations – White Sands Missile
with advanced degrees and professional certifications.         Range: At the request of the U.S. Army Contracting
Army Audit’s staff consists of approximately 600 employees     Agency, AAA assessed White Sands Missile Range’s
and is organized into 17 functional audit teams that           contracting operations and associated controls.
provide audit support to all aspects of Army operations.       AAA found that the White Sands contracting office
AAA’s goal is to be highly sought after and an integral part   inappropriately operated a reimbursable order program for
of the Army by providing timely and valued services that       Department of the Army, non- Department of the Army,
improve the Army by doing the right audits at the right        and non-DoD entities. The reimbursable order program
time and achieving desired results.                            inappropriately generated about $2.1 million in service
                                                               fees and Government Payment Card rebates in excess
To ensure its audits are relevant to the needs of the Army,    of the actual cost to provide contracting services. The
AAA aligns its audits with the Army’s Strategic Objectives.    AAA issued a time-sensitive report that described several
AAA’s work for the first half of FY08 covered a broad          potential Antideficiency Act violations and identified the
range of Army initiatives. The majority of AAA’s published     need for the Department of the Army to recover about
work focused on the following initiatives: Equipping our       $3.8 million from White Sands’ contracting operations.
Soldiers, Care for Soldiers and Army Families, Adjusting
the Global Footprint to Create Flagships of Readiness and Science and Technology (Multiple Reports): AAA
Building a Campaign Quality Modular Force with Joint reviewed the Army’s process to transition Science and
Expeditionary Capabilities.                                 Technology to the acquisition community and the
                                                            oversight of its Science and Technology programs. The
During the first half of FY08, AAA published 82 reports, Army Science and Technology community had made a
made over 267 recommendations, and identified more concerted effort to institute the policies and best practices
than $402 million of potential monetary benefits.           for transitioning technology. Science and Technology
                                                            program managers were preparing transition agreements
                                                            with potential users of the technology under development
                                                            in Army Technology Objective–Demonstration programs.


72
                                                                                             Semiannual Report to Congress
Transition agreements that focus on user needs are an          organizations: Task Force Hope, the Hurricane Protection
important component of good transition planning.               Office, and the Protection and Restoration Office. AAA
However, some technology programs encountered                  evaluated each of these organizations and concluded that
problems after the transition that could have been avoided     organizational staffing, processes, and procedures weren’t
through earlier and more effective transition agreements.      adequate to ensure that projects were managed properly,
The Army needed to strengthen its guidance in several areas    completed on schedule, and executed in a cost-effective
that should lead to more effective transition agreements       manner.
and further improve the success rate with transitioning
technology. Also, the Army needed to establish a means to
better measure and report on the overall Army Technology
Objective–Demonstration program’s effectiveness and
efficiency so that senior leaders can gauge whether Science
and Technology investments are effective in meeting the
needs of the warfighter. Taking full advantage of Science
and Technology is a critical aspect of transformation and
the transition of proven technologies should enhance the
capabilities of the current force in an effort to win the
GWOT.

Accelerated Commercial Off-the-Shelf Acquisitions:
AAA audited the Army’s processes for evaluating and
sustaining commercial-off-the-shelf materiel. The Army’s
evaluation process was generally effective. However, the       AAA auditors (along with U.S. Army Corps of Engineers’ personnel)
                                                               assessing the damage at the 17th Street Canal in New Orleans.
process didn’t receive input from Life Cycle Management
Commands, and category definitions weren’t clearly             Use of Role-Players at Joint Multinational Readiness
defined. Also, the Army didn’t have effective processes to     Center: The Joint Multinational Readiness Center
sustain accelerated commercial-off-the-shelf acquisitions.     located in Germany, used contracted role-players to
Detailed guidance existed for managing program of              replicate the deployed operating environment for training
record or type classified items under the Army’s existing      and pre-deployment exercises. AAA audited the adequacy
deliberate acquisition system, but there were no specific      of the Center’s standards for using role-players, and the
procedures for the sustainment of accelerated commercial-      processes to determine quantitative requirements and
off-the-shelf acquisitions. Also, the Army sometimes           monitor contractor performance. AAA reported the
didn’t use official non-standard line item numbers to          Center did not require using the language of the training
track accelerated commercial-off-the-shelf acquisitions in     unit’s deployment area of responsibility until March 2007
theater.                                                       because Army guidance did not establish standards for
                                                               using role-players. AAA recommended updating guidance
Program Management to Restore and Enhance the                  to include specific standards for using role-players. Also,
Southern Louisiana Hurricane Protection System: AAA            upon changing to Arabic-speaking role players, the Center
evaluated the organization and processes that the U.S.         required all role-players to speak Arabic, even though
Army Corps of Engineers used for managing about $6.5           many only had limited interaction with Soldiers. The
billion of projects to restore and enhance the hurricane       Center could reduce costs if it required foreign language
protection system for southern Louisiana. The Corps            skills only for groups that frequently interact with soldiers,
was responsible for enhancing the system to the 100-year       specialized role-players (who portray authority figures) and
flood protection level necessary to achieve certification by   interpreters. The Center had effective processes to quantify
the National Flood Insurance Program. To manage the            requirements by adequately estimating the number of
efforts, the Mississippi Valley Division established three     specialized role-players it needed, and replicating cities

                                                                                                                                   73
Department of Defense Inspector General
and towns in the training unit’s deployment area of •           Will compare workload to costs after collecting a
responsibility. However, the Center did not effectively         year’s worth of data to determine the impacts of
monitor contractor performance. Specifically, procedures        recent Army initiatives before making any decisions
for documenting performance problems, tracking and              on possible contract modifications.
validating role-player attendance, and certifying invoices
weren’t effective. AAA estimated the Army overpaid the •        Closed all 10 Standard Army Retail Supply System
contractor for role-players the contractor did not provide.     Equipment Transition Sites, established four Standard
Based on the recommendations, the Army took action to           Army Retail Supply System Retrograde Sites, and
reduce role-player costs and recouped the overpayment.          reduced contractor personnel from 44 to 16 starting
                                                                in March 2006.
Administration of Guard Services Contracts in Europe:
Force protection requirements have increased significantly   As a direct result of closing the System Equipment
after the terrorist attacks of September 11, 2001 and the    Transition Sites and reducing contractor personnel, the
onset of the GWOT. The escalation is more apparent at        Reserve Command saved about $1.1 million in the fourth
installations in Europe where the force protection levels    option year of a task order and should expect to realize
are normally higher than in the continental United           another $6.6 million over the next 5 years of the task
States. As part of GWOT, Congress granted temporary          order.
authority for the Army to use contract security guards at
military installations. The Army’s contract guard costs in   Army Criminal Investigation
Europe total about $200 million annually. AAA audited
                                                             Command
the administration of guard service contracts in Europe.
AAA reported that Army in Europe activities needed
                                                             The USACIDC is headquartered at Fort Belvoir, Virginia.
to improve their procedures to ensure compliance with
                                                             The USACIDC supports the Army through its deployment
contract requirements, monitor contract resources, and
                                                             in both peace and war of highly trained soldier and
validate contractor billing. The recommendations will
                                                             civilian government special agents and support personnel
help increase the Army’s assurance that guard services
                                                             who perform a variety of law enforcement related services.
contractors meet contract terms and conditions, properly
                                                             These services include investigating crime, collecting and
fulfill guard duties and accurately bill for services
                                                             analyzing criminal intelligence and the maintenance
rendered.
                                                             of Army criminal records. Examples of investigations
                                                             include the following.
Followup Audit of Contract Management of Equipment
Transition Sites at the U.S. Army Reserve Command:
                                                         USACIDC investigated an Army civilian employed
The Reserve Command took actions to implement the two
                                                         at the Carlisle Barracks Pharmacy for theft of non-
recommendations in Audit Report A-2006-0043-ALI,
                                                         controlled medications. The civilian was videotaped
“Contract Management of Equipment Transition Sites:
                                                         placing medications in his pants pocket and disposing
U.S. Army Reserve Command Fort McPherson, Georgia,”
                                                         the bottles in trash containers. An Army Audit Agency
its actions fixed the problems, and it has realized more
                                                         review determined $1.5 million of non-controlled
than $1 million in funds put to better use. In response to
                                                         medications, under the control of the civilian employee,
the recommendations, the Reserve Command:
                                                         were unaccounted for. The civilian was removed from
                                                         employment and the U.S. Attorney’s Office has accepted
•    Produces a monthly report from Standard Army Retail
                                                         the case for prosecution.
     Supply System with pertinent data the contractor
     submits every month to monitor contractor workload,
                                                         A joint investigation between USACIDC, AFOSI,
     starting in January 2007.
                                                         DCIS, National Aeronautics and Space Administration,
                                                         Inspector General and Small Business Administration
                                                         resulted in the prosecution of a Small Business Innovation
74
                                                                                           Semiannual Report to Congress
Research contractor for providing false and misleading        A USACIDC investigation disclosed a Korean Realty
data, fabrication of research projects, billing of time and   Company employee made 52 lease contracts with various
materials used on commercial contracts to Government          landlords for DoD personnel attempting to locate off-post
costs and false labor charges in excess of $2 million         housing and subsequently made false inflated contracts
on Army and Air Force contracts. The court ordered            that she submitted to the military housing office for
judgment of $5,015,365 inclusive of treble damages for        reimbursement. Military personnel subsequently paid the
the DoD contracts.                                            realtor the inflated cost while she paid the lesser amount
                                                              on the original contract to the landlord, keeping the
                                                              difference for profit. The realtor was barred from all U.S.
                                                              Forces Korea facilities and all business with her company
                                                              was terminated. The annual loss to the U.S. Government
                                                              was $587,483.

                                                              A USACIDC joint investigation with DCIS disclosed a
                                                              roofing contractor filed two duplicate claims through the
                                                              U.S. Army Corps of Engineers for plastic roofing installed
                                                              on private residences damaged by hurricanes Francis and
                                                              Jean. The investigation determined that these claims
                                                              were duplicates previously identified by the USACOE
                                                              under Right of Entry for damage estimates, and as such
USACIDC and MPFU agents at a crime scene.
                                                              the claims were denied equating to a cost avoidance of
                                                              $1,779,702.
A joint investigation between USACIDC, AFOSI, DCIS,
General Services Administration Inspector General and         A USACIDC joint investigation with DCIS disclosed a
the U.S. Agency for International Development, initiated      former U.S. contractor employee obtained a fraudulent
as a result of a Qui Tam, disclosed a U.S. contractor sold    Contractor Identification Card with which he used to
defective bullet proof vests to 20 major and 31 subordinate   gain access and sign for weapons and U.S. Government
federal agencies under a General Services Administration      property from U.S. Military retrograde yards in Kuwait
contract valued at $118 million. A subsidiary company         and Iraq. The former contractor employee sold $15,000
entered into a $15 million civil settlement with the          worth of Government owned equipment, including four,
Department of Justice for violation of the False Claims       .50 caliber machine guns, to a private security contractor.
Act. A second subsidiary company entered into a               He also gave the contractor three Armored Personnel
$425,000 settlement. The DoJ Civil Division filed claim       Carriers he obtained from the retrograde yards. The
against the prime contractor for settlement of recoveries     matter is being coordinated with the U.S. Attorney’s
from $274,227,017 to $301,809,842.                            Office for potential prosecution.

A joint investigation, initiated under the DoD Voluntary      A USACIDC joint investigation with DCIS disclosed
Disclosure Program, between USACIDC, DCIS and the             a contractor, awarded a multi-year sole-source contract
Internal Revenue Service disclosed a former contractor        to provide reverse osmosis water purification training,
employee conspired with the owner of a subcontract            maintenance and logistics support to the U.S. Army
company to provide substandard and non-existent               Coastal Water Purification Training Center submitted
equipment through false invoicing on a Government             false claims and paid bribes to the contracting officer’s
contract. The former contractor employee was convicted        representative. The contractor devised a scheme with the
in U.S. District Court and sentenced to 41 months             COR and his spouse to defraud the government through
confinement and 3 years probation and ordered to pay          the submittal of 36 false direct labor cost invoices for
$1,142,030 in restitution. The subcontractor was indicted     training. In addition, the Company President paid the
on eight counts of mail fraud. Sentencing is pending.
                                                                                                                      75
Department of Defense Inspector General
COR in excess of $416,000 in bribes. The COR, his           18 months ago to house the Combined DNA Index
spouse, sister-in-law and the company president were        System. The $4.2 million, 8,200 square foot addition
indicted by grand jury on 105 counts of conspiracy,         is substantially complete and expected to be occupied
bribery and money laundering. The company was placed        and fully operational during April 2008. The CODIS
on five years probation and ordered to pay $421,532         mission provides investigative leads to field agents by
restitution.                                                performing DNA analysis on samples collected from
                                                            military offenders and searching those profiles against
The USACIDC’s Computer Crime Investigative Unit DNA profiles developed from crime scene evidence. DNA
continued to support the Army through its “Virtual profiles are entered into both the military and national
Community Policing” approach to fighting cyber crime. DNA databases and are also searched against crime scene
One noteworthy example is CCIU’s partnership with the profiles from civilian laboratories.
Army Chief Information Officer to conduct proactive
vulnerability assessments of the Army’s computer
networks (collectively referred to as LandWarNet). This       U.S. Navy and Marine Corps
proactive crime prevention effort identifies and remediates
vulnerabilities before cyber criminals or other adversaries
can gain unauthorized access to and damage Army
systems, steal or alter sensitive information, or disrupt
network operations. During Fiscal Year 2007, CCIU’s
vulnerability assessment program resulted in more than
$118 million in cost avoidance to the Army. Even more
significant is the fact that soldiers supporting the GWOT,
especially those engaged in combat, could count on the
uninterrupted availability of the Army’s LandWarNet and
the confidentiality and integrity of critical information.
An expansion on the existing U.S. Army Criminal
Investigation Laboratory facility was launched about
                                                          Naval Audit Service

                                                          The mission of the Naval Audit Service is to provide
                                                          independent and objective audit services to assist
                                                          Naval leadership in assessing risk to improve efficiency,
                                                          accountability, and program effectiveness. Working
                                                          collaboratively with senior Department of the Navy
                                                          officials, NAVAUDSVC develops an annual audit plan that
                                                          addresses critical areas that officials feel merit additional
                                                          oversight due to their risk, sensitivity, or potential
                                                          monetary benefits. In the past 6 months, NAVAUDSVC
                                                          audits have addressed such important, and at times high-
                                                          profile, DON issues as the transportation of Marine
                                                          Corps small arms, safeguarding of the protected personal
                                                          information of DON employees, physical readiness of
USACIDC special agent documents a crime scene             Navy individual augmentees serving in the GWOT,
with measuring tape.
                                                          contractor performance in the building of the Littoral


76
                                                                                         Semiannual Report to Congress
Combat Ship, and the validity of multi-million dollar          at risk of receiving Equal Opportunity Employment
military construction projects. NAVAUDSVC assisted             complaints, grievances, Merit System Protection Board
reports for the Naval Criminal Investigative Service have      appeals, civil actions, and/or class complaints. Also, the
identified potential fraud and will be used as evidence in     NAVAUDSVC found that there was no process in place
court cases. In addition, at the request of the Secretary of   to ensure that screening to determine suitability of Navy
the Navy, NAVAUDSVC has begun a series of audits on            and Marine Corps military, civilians, and family members
overseas acquisition and have audit teams working onsite       for overseas assignment was effective.
in Djibouti and Bahrain. NAVAUDSVC will continue to
work with senior DON officials to provide them with an         Selected Reservist Annual Training and Active Duty
expert and impartial assessment of critical DON issues,        for Training: NAVAUDSVC determined improvements
risks, and opportunities.                                      were needed to comply with the statutory limit and DoD
                                                               regulations on the amount of annual training and active
Joint Warfighting and Readiness                                duty for training received. In addition, NAVAUDSVC
                                                               found that improvements were needed in tracking and
Interim Report–Marine Corps Small Arms: The                    recording the type of annual training and active duty for
NAVAUDSVC found that as of March 7, 2007, 813 in-              training received. These conditions occurred because
transit shipments containing a total of 8,323 small arms       Commander, Navy Reserve Forces Command existing
were reported as delinquent. These included assault rifles,    policies and procedures extended additional day limits
machine guns, and pistols. There had been no follow-up         beyond the requirement established by the higher level
at any level on these shipments. In addition, Missing,         criteria. In addition, for training beyond the 12- to 14-
Lost, Stolen, or Recovered reports had not been filed          day entitlement, there were no Commander, Navy Reserve
for any of these delinquent shipments, as required. The        Forces Command criteria or procedures established to
insufficient control over in-transit shipments was a result    prioritize training, consider corporate Reserve requirement,
of general inattention to required procedures at all levels    identify and address Navy-wide shortfalls, or ensure
in the shipping process and of insufficient management         as many reservists as possible received the appropriate
oversight to ensure that the process was functioning           amount of needed training. These conditions resulted
as intended. Also, another contributing factor was             in the Commander, Navy Reserve Forces Command
the substantial increase in the number and volume of           allocating more than $9 million for more than 30-45 days
weapons shipments required to support the GWOT. As             of training for reservists in FY 2004-2005.
a result, small arms shipments were vulnerable to loss or
theft, and the Marine Corps had no assurance that it had Auditor General Advisory Report -Corporate
accountability for all of its small arms.                   Governance of Department of the Navy Fisher Houses:
                                                            The audit showed that making changes to the Department
Human Capital                                               of the Navy Fisher House Board of Directors membership
                                                            and structure, the program management organization, and
Military and Civilian Suitability Screening: the Fisher House charter, should improve the Department
NAVAUDSVC found that the Human Resource Service of the Navy Fisher House programs’ efficiency and
Centers, Europe and Pacific, were using selectee and/or effectiveness.
dependent medical information to rescind, withdraw,
and/or modify civilian selectee overseas job offers.           Information Security and Privacy
Because Navy civilian personnel management guidance
allowed suitability screening that was unrelated to merit,     Management of Privacy Act Information at the
overseas employment decisions may have violated merit          Navy Recruiting Command: The Navy Recruiting
system principles, anti-discrimination laws, and/or DoD        Command has begun implementing several Protected
guidance. These types of violations could place DON            Personal Information management changes. However,


                                                                                                                        77
Department of Defense Inspector General
opportunities remain for increasing administrative           Acquisition Processes & Contract Management
controls to bring the Privacy Act Program in full
compliance with DON guidance. When administrative            Interim Report-Earned Value Management for the
and management controls are not properly executed over       Littoral Combat Ship “Freedom” Contract N200024-
Protected Personal Information, the risk of identity theft   03-C-2311: This interim report focused on the earned
increases. NAVAUDSVC made several recommendations            value management implementation of the subcontractor,
to the Navy Recruiting Command to identify, compile,         and the Government oversight of earned value management
and maintain a current list of Systems of Records;           implementation and application.           NAVAUDSVC
designate System Managers, specify their responsibilities,   found earned value management was not effectively
and provide training on Protected Personal Information.      implemented and overseen on the Littoral Combat
NAVAUDSVC also recommended the Navy Recruiting               Ship “Freedom” contract option for detailed design and
Command notify the proper privacy officials and agencies,    construction. NAVAUDSVC considered the lack of
as well as affected individuals, when known or suspected     oversight and monitoring of the contractor’s earned value
Protected Personal Information losses occur. Finally, the    management a significant breakdown in internal controls.
Naval Audit Service recommended the Navy Recruiting          NAVAUDSVC recommended a comprehensive Estimate
Command ensure adequate controls are in place so that        at Completion, a bottom-up schedule review, approval
the collection, use, storage, and disposal of Protected      of an Over-Target Baseline, and an Integrated Baseline
Personal Information are done in accordance with federal     Review of the Over-Target Baseline. Also, the contractor
and DoD guidelines.                                          should be required to develop and provide to Program
                                                             Executive Office Ships a plan of actions and milestones
Information Security Within the Marine Corps: The            to address all earned value management compliance and
information security controls within the Marine Corps        program application issues. The contractor’s plan of
contained significant opportunities for improvement.         actions and milestones should be reviewed, approved,
Information security controls were incomplete.               and monitored to ensure compliance and effectiveness
NAVAUDSVC found comprehensive information                    of corrective actions. A validation review should provide
system security plans had not been implemented; account      assurance that the earned value management is fully
termination controls within the Marine Corps activities      compliant. NAVAUDSVC also recommended a joint
audited needed improvement; information security             surveillance program to ensure continuous compliance
documentation was sometimes not available; and service       with earned value management guidelines prescribed by
continuity controls had not been developed. In addition,     DoD policy.
information security training policies and procedures
were incomplete at the 10 Marine Corps activities visited.   Management of Special Tooling and Special Test
The DoD information security professional certification      Equipment at Naval Sea Systems Command:
requirements are not being met. These conditions             NAVAUDSVC found that, with few exceptions, the
represent noncompliance with statutory and regulatory        Naval Sea Systems Command Special Tooling/ Special
requirements for information security.         Ineffective   Test Equipment could be fully accounted for. However,
information security controls create an environment          the Naval Sea Systems Command’s Special Tooling/
that increases the risk for loss or misuse of Government     Special Test Equipment inventory management reporting
resources, unauthorized access, and modification of system   process did not provide timely reporting or complete
data, disruption of system operations, and disclosure of     visibility of its portion of Navy Special Tooling/ Special
sensitive information.                                       Test Equipment. Timely and reliable information should
                                                             be obtained, maintained, and used for decision making.
                                                             Rather than relying on an available inventory information
                                                             system, the Naval Seas Systems Command used a data
                                                             call process that was inefficient, and data call results


78
                                                                                           Semiannual Report to Congress
were incomplete. The Naval Sea Systems Command’s             Naval Facilities Engineering Command Southeast was a
inability to provide timely reporting and complete           reduction in the amount of funds the Government was
visibility for its portion of Navy-owned Special Tooling/    required to pay the contractor in FY 2007, NAVAUDSVC
Special Test Equipment could result in less-than-fully       claimed this amount as funds potentially available for other
informed program decisions, such as those regarding          use. NAVFAC-SE should also report to NAVAUDSVC in
acquisition of the same or similar Special Tooling/ Special  the follow-up status report on this recommendation, the
Test Equipment items in the inventory and unnecessary        specific amount of any additional credits received from
hidden costs to Naval Sea Systems Command programs.          the contractor above the $597,000 claimed in the report,
                                                             recovered as a result of completing their review. Potential
Contract Administration at Fleet and Industrial fraud conditions have been referred to the Naval Criminal
Supply Centers Norfolk and Supported Activities: Investigative Service and Acquisition Integrity Office.
NAVAUDSVC found that Fleet and Industrial Supply
Center Norfolk and the requiring activities did not always Infrastructure and Environment
comply with policies for establishing management controls
over contract certification procedures. Contracting officers Selected Department of the Navy Military
and specialists did not place a high enough priority Construction Projects Proposed for FY 2009: All 29
on ensuring that: COR’s were appointed to monitor military construction projects audited represented valid
contractors’ performance; Contract Administration Plans needs for the Department of the Navy. Thirteen projects
were developed outlining responsibilities for contract were properly scoped and 16 projects were not accurately
administration; and Quality Assurance Surveillance Plans scoped. Fourteen of the 16 military construction projects
were developed and used to provide required surveillance were over-scoped by approximately $13.166 million.
over contractor’s performance. As a result, the requiring Eight of the 16 military construction projects appeared to
activities may have accepted substandard performance by be under-scoped by about $7.638 million. One project,
contractors and paid for services not in accordance with estimated to cost $6.7 million,was initially determined to
contract requirements. NAVAUDSVC recognized that be over-scoped by approximately $0.10 million; however,
Fleet and Industrial Supply Center Norfolk had taken it was removed from the FY 2009 military construction
some measures, through current contract provisions, program.
to ensure that the Federal Acquisition Regulation and
Naval Supply Systems Command procurement policy Selected Base Closure and Realignment Department
requirements for contract oversight and surveillance were of the Navy Military Construction Projects Proposed
effectively implemented.                                     for FY 2009: Of the 10 projects audited, one project
                                                             was valid and properly scoped, one project was not
Contract Administration Over the Service needed and eight projects included unneeded, invalid,
Contracts at Naval Air Station Pensacola, Florida: or overstated construction requirements. Specifically,
NAVAUDSVC identified inadequate contract oversight one project estimated to cost $5.3 million should be
and administration, and inappropriate vendor payment cancelled since the building that is currently performing
processes. Additionally, the contractor was not penalized the function the proposed project calls for is in “good to
for non-performance and for delivering substandard very good” condition, per a July 25, 2007 Marine Corps
services over a 4-year period. Based upon the audit of study report, and has sufficient space to accommodate
incomplete records, a contracting officer’s representative potential increase in personnel. Eight projects included
recommended recovering at least $602,000 for FY 2003, invalid or overstated construction requirements worth
$56,000 for FY 2004, $331,000 for FY 2005, $200,000 $30 million. The projects were over-scoped because the
for FY 2006, and $137,000 for FY 2007. As a result planners used incomplete or inaccurate supporting data.
of the audit recommendation to recoup funds for late, Three of the eight projects did not include all the valid
inadequate performance and nonperformance, recoveries construction requirements or understated the construction
to date total $597,000. Because the $597,000 cited by requirements by $4.4 million.

                                                                                                                      79
Department of Defense Inspector General
Naval Criminal Investigative                                the Marines. During questioning, six of the Marines
Service                                                     confessed that their squad had abducted and murdered
                                                            the Iraqi male. Several Marines also admitted to stealing
                                                            the shovel and AK-47 from a residence and staging these
NCIS is the primary law enforcement and
                                                            items at the crime scene to make it appear as though the
counterintelligence arm of the Department of the
                                                            Iraqi male had fired the weapon. Sentencing of the eight
Navy. It works closely with other local, state and federal
                                                            Marines ranged from 418 days to 15 years confinement,
agencies on serious crimes including terrorism, espionage,
                                                            reduction in grade to E-1, total forfeiture of pay and
and computer intrusion among others. NCIS has
                                                            allowances and dishonorable discharge.
three strategic priorities; they are preventing terrorism,
protecting secrets and preventing crime. The following
                                                            During a trial by General Courts Martial, two Marine
are examples of NCIS investigations.
                                                            majors were convicted of bribery, fraud against the United
                                                            States, conspiracy, conduct unbecoming an officer and
                                                            several other violations. The third Marine major received
                                                            non-judicial punishment for dereliction of duty, conduct
                                                            unbecoming an officer and adultery. The investigation
                                                            disclosed the officers received bribes and kickbacks from a
                                                            Thai national vendor in return for inside bid information
                                                            and for schemes that allowed the vendor to receive
                                                            payment for items never delivered. Contracts were
                                                            awarded during various military exercises in Thailand
                                                            over the past 10 years. An NCIS source estimated that
                                                            more than $1 million in bribes and kickbacks had been
                                                            paid to various U.S. military officials. The investigation
                                                            disclosed that one Marine major received in excess of
                                                            $100,000 in cash and gifts. As a result, one major was
NCIS special agents in Iraq.
                                                            sentenced to four years confinement, given a $25,000
                                                            fine and dismissal from the Marine Corps; a second major
A USMC noncommissioned officer was convicted of
                                                            was sentenced to six months confinement and dismissal
negligent homicide and false official statement for killing
                                                            from the Marine Corps; the third major forfeited $3,060
an Iraqi guard as the two were standing post at the
                                                            in pay and allowances and received a reprimand. The
Civil Military Operations Center in Fallujah, Iraq. The
                                                            contractor received a debarment notice and her U.S. visa
NCO originally claimed self-defense and staged a crime
                                                            was revoked.
scene to support his cover story. During a subsequent
interrogation, the NCO admitted he fabricated the story
                                                            The owner and purchasing supervisor of a U.S. company
and stabbed the Iraqi guard. The NCO served 294 days
                                                            entered guilty pleas in U.S. District Court for conspiracy,
of pre-trial confinement, was reduced in rank to E-1 and
                                                            mail fraud and counterfeit trademark violations for
received a bad conduct discharge.
                                                            fraudulently securing $788,875 in U.S. Government
                                                            contracts. A joint NCIS/DCIS investigation disclosed the
As the result of a homicide investigation in Iraq eight
                                                            subjects provided suspected discrepant and/or counterfeit
Marines were convicted of crimes ranging from murder,
                                                            computer parts to the U.S. Navy. Both were sentenced to
assault, kidnapping larceny and conspiracy. During a
                                                            2 years probation and 200 hours community service. The
patrol in Northern Hamdania, Iraq, a U.S. Marine patrol
                                                            owner was also required to make $46,995 restitution and
shot and killed an Iraqi male. The Marines initially
                                                            the purchasing supervisor $4,352 restitution.
reported that the Iraqi male had an AK-47 and a shovel in
his possession and upon engagement returned fire against

80
                                                                                           Semiannual Report to Congress
                                                                implementing LInX and the resultant increased law
                                                                enforcement liaison. They have also tied the development
                                                                of LInX to the DON MDA program, and the integration
                                                                of law enforcement data with intelligence data to provide
                                                                more effective security to our port and maritime areas.
                                                                Internationally, NCIS has initiated efforts with the Royal
                                                                Canadian Mounted Police in Canada; the Metropolitan
                                                                Police in the United Kingdom; and the Australian Federal
                                                                Police to increase our information sharing partnerships
                                                                and strategies in support of MDA.


                                                                               U.S. Air Force


NCIS special agent conducting training.

The NCIS Law Enforcement Information Exchange
Program has expanded during this reporting period
to include the effective sharing of law enforcement
information among more than 400 local, county, state
and federal law enforcement agencies in seven geographic
regions around the U.S. NCIS leveraged the development
of this program to gather and exploit millions of law
enforcement records to directly support NCIS criminal,
counterintelligence and counterterrorism investigations
and related activities. NCIS is developing two additional
LInX regions in North Carolina and southern California
to support USMC and USN assets and facilities in
                                                                Air Force Audit Agency
those respective regions. Additionally, NCIS is leading
the development of a DoD LInX, to initiate sharing
of criminal investigative information between NCIS,             The Air Force Audit Agency provides all levels of Air Force
AFOSI, USACID and DCIS. This effort is expected to              management with independent, objective, and quality
identify increased efficiencies among the Defense criminal      audit services.
investigative organizations, and greatly facilitate DoD
criminal investigative efforts related to joint basing, joint   This is done through multiple activities including,
military operations, and the DCIO’s move to Quantico            reviewing and promoting the economy, effectiveness,
under Base Realignment and Closure in 2010. NCIS                and efficiency of operations, evaluating programs and
has a strategy to ensure LInX serves as the cornerstone of      activities, assisting management in achieving intended
information sharing for the Maritime Domain Awareness           results, assessing and improving Air Force fiduciary
initiatives. The LInX Program has been credited by              stewardship and the accuracy of financial reporting.
scores of municipal, state and federal law enforcement
agencies as the catalyst that has led to the successful
resolution of hundreds of criminal incidents. NCIS
has realized significant investigative efficiencies through


                                                                                                                        81
Department of Defense Inspector General
The AFAA is a decentralized audit organization with          requirements needed improvement. Specifically, Air
auditors located at 57 installations around the world. The   Force personnel did not efficiently implement electronic
Auditor General and AFAA headquarters are located in         technical orders. In particular, technical order managers
the National Capital Region. AFAA line operations are        did not develop strategic fielding plans, program goals,
managed through three line directorates.                     or the performance metrics necessary to effectively
                                                             accomplish and maintain the digitization and electronic
•    The Financial and Systems Audits Directorate,           distribution of Air Force technical orders. As a result, the
     headquartered at March AFB, California, directs         Air Force did not have visibility to manage and evaluate
     audits in financial management, financial support,      the progress of technical order digitization and electronic
     information systems development, communications         distribution. Also, personnel did not effectively distribute
     systems, and system security.                           and catalog digitized technical orders. Specifically,
                                                             managers did not make all digitized information available
•    The Support and Personnel Audits Directorate,           to users, accurately record electronic technical order
     headquartered at Brooks City-Base Texas, directs        catalog information, appropriately identify electronic
     audits of operational support, personnel, training,     technical orders, or provide digital links for electronic
     engineering support, support services, environmental    technical orders. As a result, Air Force personnel did not
     issues, intelligence operations, and health care.       have access to digitized technical data and continued to
                                                             order paper copies. Further, Air Force personnel did not
•    The Acquisition and Logistics Audits Directorate,       write and view digitized technical orders in standardized,
     headquartered at Wright-Patterson AFB Ohio, directs     interoperable formats. Instead, managers used multiple
     audits related to procurement, maintenance, supply,     languages and viewers for digitized technical orders. As
     transportation, and weapon systems acquisition.         a result, the Air Force risked decreased functionality and
                                                             interoperability, configuration control, and technical
During the reporting period, the AFAA issued 34 Air          order standardization. Lastly, personnel did not accurately
Force-level and 437 installation-level audit reports.        determine technical order digital requirements. For
These 471 reports identified $659.8 million of potential     example, technical order digital plans included obsolete
monetary benefits and provided more than 1,932               and duplicate technical orders and excluded technical
recommendations for improving Air Force operations.          orders that needed to be digitized. As a result, Air Force
The AFAA also applied 71 percent of their audit resources    personnel overstated funding requirements by nearly $9.7
to the DoD Management Challenge Areas of Joint               million over the 6-year Future Years Defense Program.
Warfighting and Readiness, Financial Management,             Additionally, personnel did not include an additional
and Acquisition Processes/Contract Management. For           1,218 technical orders that required digitization.
example, the AFAA supported several critical DoD-wide
initiatives including pre-assessment financial validation File Maintained Applications: The Secondary Item
controls, the GWOT, United States Air Forces Central      Requirements System (D200A) computes spare part
area of responsibility, and Homeland Security. During     requirements needed to maintain end item (for example,
the 6-month period, the AFAA issued 15 pre-assessment     aircraft; equipment) readiness. The system relies on
validation controls reports and 52 GWOT, USAFCENT         past and future program activity data such as regularly
AOR, and Homeland Security reports.                       scheduled depot maintenance and engine overhaul to
                                                          accurately compute requirements. When program activity
Joint War Fighting And Readiness                          data does not accurately represent depot maintenance
                                                          schedules or other anticipated future activity, logistics
Electronic Technical Orders: AFAA determined that personnel can temporarily replace system program
although personnel identified equipment requirements, data manually (hereafter referred to as file maintained).
program implementation and identification of digitization When data are file maintained, logistics personnel input


82
                                                                                            Semiannual Report to Congress
a program element code to override system data and             combat support agencies to determine force readiness
replace them with the manually determined data. The            throughout DoD. Within DoD, the Status of Resources
program element code identifies the program to be              and Training System is the central registry of all United
changed along with the revised program data, and will          States Armed Forces and certain foreign organizations.
continue to override system data until personnel remove        The registry includes all units that have the potential to
the code. As of September 30, 2006, the requirements           support, by deployment or otherwise, a Chairman of the
computation system identified 21,884 items with file           Joint Chiefs of Staff or combatant command-directed
maintained program element codes and computed buy              operation plan, operation plan in concept format, single
and repair requirements totaling $416 million. Air Force       integrated operational plan, or contingency operation.
personnel did not effectively manage file maintained           The Air Force uses Status of Resources and Training
program element codes. Specifically, 81 (64 percent) of        System status information to assess readiness, determine
127 items reviewed had validity, support, or data accuracy     budgetary allocation and management action impacts
deficiencies resulting in overstated requirements of $48       on unit level readiness, answer congressional inquiries,
million and understated requirements of $8 million.            analyze readiness trends, and support readiness decisions.
Reducing the overstated requirements would allow the           This audit revealed that Status of Resources and Training
Air Force to put $48 million to better use.                    System data were not complete and accurate. Specifically,
                                                               at the 12 locations reviewed, 29 of 312 combat units
C-130 Aircraft Depot Engine (T56) Repair                       either did not register or report readiness in the Status of
Requirements: The C-130 Hercules is an intratheater            Resources and Training System. As a result, the Chairman
airlift aircraft powered by four T56 turboprop engines.        of the Joint Chiefs of Staff, Services, unified commands,
The Air National Guard and Air Force Reserve Command           and combat support agencies did not have a complete
send C-130 engines to the Oklahoma City Air Logistics          readiness picture of Air Force capabilities. Furthermore,
Center depot when failures occur that require special          unit commanders and Status of Resources and Training
skills or equipment not normally possessed at operating        System monitors at 27 of 34 units reviewed did not
locations. Oklahoma City Air Logistics Center Engine           accurately report unit readiness status. Specifically, for 35
Inventory Managers, along with Command Engine                  reports reviewed, Status of Resources and Training System
Managers, calculate depot engine repair requirements           inaccuracies exceeded 50 percent in each of the individual
using projected flying hours, anticipated failure rates, and   readiness elements: personnel, training, and equipment.
available spare engines. For FY 2007 through FY 2013,          Accurate data is essential in reporting resource readiness
the Air National Guard and Air Force Reserve Command           to the Chairman of the Joint Chiefs of Staff, Air Force
managers programmed 760 T56 depot engine repairs,              Chief of Staff, unified commands, and combat support
costing approximately $616 million. Air Force personnel        agencies.
did not properly manage T56 depot-level engine repair
requirements. Although engine managers generally       Selected Aspects of Unit Type Code Management: The
computed repair requirements properly, they did not    Air Force uses the unit type code availability database to
adequately support negotiated repair requirements, reduce
                                                       identify war fighting capability available to combatant
requirements when flying hours declined, or accurately commanders. Capability is defined using a unit type
compute funding for repairs. As a result, engine personnel
                                                       code and includes the personnel and/or equipment
overestimated requirements by 307 repairs valued at    required to perform specific missions. The Air Force
approximately $254 million.                            uses the database, accessed through the Deliberate and
                                                       Crisis Action Planning and Execution Segments, as the
Air Force Status of Resources and Training System: system of record for unit type codes. Further, Deliberate
The Status of Resources and Training System is an and Crisis Action Planning and Execution Segments
internal management tool used by the Chairman of the link the availability database into the Joint Planning and
Joint Chiefs of Staff, Services, unified commands, and Execution System used by combatant commanders to


                                                                                                                         83
Department of Defense Inspector General
request forces. The availability database must include all     Acquisition Processes & Contract Management
personnel authorizations. The audit, requested by the Air
Force Personnel Center Commander and the Director              Management and Oversight of the Acquisition of
of Operations Plans and Joint Matters, as Air and Space        Services Process: Due to increases in expenditures for DoD
Expeditionary Force Steering Group co-chairs, showed           services, the National Defense Authorization Act for FY
Air Force officials did not accurately identify war fighting   2002 required that the Secretary of Defense establish and
capability to combatant commanders. Specifically, Air          implement a management structure for the procurement
Force planners incorrectly postured 11,667 (28 percent)        of services. In response to these requirements, the Air
of 41,128 authorizations reviewed. Inaccurately postured       Force implemented the Management and Oversight of the
authorizations resulted in the Air Force misstating            Acquisition of Services Process in June 2003. The process
available capability to combatant commanders.                  established a management structure and a series of specific
                                                               requirements to increase visibility and management
Information Security and Privacy                               oversight of services acquisitions. During FY 2006, the
                                                               Air Force executed contract actions totaling $21.2 billion
Information Transport System Management: The                   on 17,048 services contracts. Air Force personnel did
Information Transport System is the Combat Information         not effectively implement and administer the process.
Transport System program for upgrading the broadband,          Specifically, acquisition and contracting personnel did
fiber-optic digital information transport network at each      not fully comply with management and oversight process
installation and selected geographically separated units.      review and reporting requirements for 43 of 78 ($7.6
The Information Transport System provides warfighters          billion of $16.7 billion) services acquisitions examined.
the means to exchange critical command and control             As a result, responsible procurement officials significantly
information at near-instantaneous speed. As of September       limited their ability to improve services acquisition
1, 2006, the Air Force fielded the Information Transport       oversight and achieve efficiencies on contracts valued at
System at 57 active duty and Reserve installations             $7.6 billion.
with an additional 21 installations on contract. The
Information Transport System lifecycle cost is projected
to be $2.2 billion. The review showed major command
and installation network control center personnel did
not economically contract for Information Transport
System equipment maintenance. As a result, the Air
Force spent more than $6.3 million to replace equipment
and for maintenance contracts on equipment covered
by an existing Air Force-wide contract or still under
warranty. Further, network control center personnel
did not accurately account for Information Transport
System equipment. Consequently, the Air Force did not
have visibility over $2 million of Information Transport
System equipment on hand, resulting in losses that could       AFAA personnel conducting an audit.
lead to unauthorized purchases. Lastly, network control
center personnel did not support or accurately account for
operational spares. Therefore, installations may not have      Procurement of Contract Field Team Services: A
the optimal number of spares needed to ensure mission          contract field team is a group of contractor maintenance
continuity. Proper accountability also helps ensure spares     personnel who accomplish depot-level modification,
are available when needed.                                     maintenance, and repair work on-site at operational
                                                               Government locations worldwide.          In 1997, four

84
                                                                                                 Semiannual Report to Congress
indefinite-delivery indefinite quantity basic contract field   the 5-year service life milestone, depot officials awarded
team contracts, with a cumulative value of $4.2 billion        a $21.3 million contract to The Boeing Company for
over a 10 year performance period were awarded. As of          12 prototype engine struts, followed in 2005 by a $45.3
October 2006, more than $7 billion had been obligated          million contract for 72 remanufactured engine struts.
against the contracts and the revised cumulative value         This audit was performed because a whistleblower alleged
was $7.65 billion. This audit, requested by the Air Force      that depot officials awarded a fraudulent contract for KC-
Program Executive Officer for Combat and Mission               135E engine struts and expended funds on retiring aircraft
Support, disclosed Air Force contracting personnel             in violation of public law and Chief of Staff direction.
did not afford qualified contractors fair opportunity to       The audit found no evidence of contract improprieties or
compete for contract field team workload. As a result,         violation of public law. The plan to retire the KC-135E
the Air Force may not have achieved the best value by          model aircraft, concurrent with contractual actions to
paying an additional $16.5 to $22 million for contract         acquire engine struts, likely resulted in the appearance of
field team services. Further, Air Force contracting            improprieties. However, congressional direction to delay
personnel competed contract field team workload based          KC 135E retirement plans required continued Air Force
on inaccurate and improper task order pricing practices.       support of the aircraft. Further, depot officials responded
Air Force contracting officers also did not sufficiently       appropriately to the engine strut corrosion problem,
evaluate or document their rationale for selecting time and    developed a reasonable business case supporting the
material type arrangements for contract field team task        acquisition of replacement struts, and properly planned
order awards. Consequently, the Air Force obligated more       and executed the program based on existing conditions.
than $164 million to procure repetitive contract field team    However, as circumstances have changed, continuing the
support services using more risky and administratively         program may not be appropriate. Budget constraints
burdensome time and material contracting arrangements          and competing requirements resulted in reprogramming
when lower risk and more advantageous firm-fixed-price         of depot funds allocated for strut installations. Also,
type contracts may have been more appropriate and cost-        the Air Force recently attained Congressional approval
effective. Finally, the contract field team program office     for a tanker replacement strategy (the KC-X Program)
personnel did not perform adequate quality assurance           to modernize the fleet. Therefore, all KC-135E engine
oversight and reporting for contract field team contracts.     struts currently under contract may not be needed. The
Therefore, contract field team program office personnel        auditors made one recommendation to the Deputy Chief
did not have sufficient visibility over program executions     of Staff, Logistics, Installations and Mission Support, to
to ensure contract field team contractors were performing      develop an overall corporate strategy and issue interim
satisfactorily and contractor payments were appropriate        guidance to Air Mobility Command and HQ Air Force
and justified.                                                 Materiel Command officials with respect to current and
                                                               future KC-135E sustainment decisions.
KC-135E Engine Strut Remanufacture/Install Program:
The KC-135 Stratotanker, produced from 1954 to 1965,           Housing Requirements and Market Analysis: DoD
constitutes approximately 80 percent of all U.S. aerial        guidance requires the Armed Services to determine
refueling capability. The two basic versions of the KC-        Government housing requirements based on a rigorous
135 aircraft, the KC-135E and the KC-135R models are           analysis of housing needs including the availability,
both based on the original KC 135A aircraft. The KC-135        suitability, and affordability of local housing. The Air
System Program Office determined that strut degradation        Force uses the Housing Requirements Market Analysis to
eroded the design safety margin signifying the struts were     assess local housing availability, and the report is the first
nearing the end of their service life. In response, depot      step in planning Government housing requirements. In
officials implemented an extended interim repair strategy      FY 2006, Air Force civil engineers and contracted analysts
that prolonged strut service life about 5 years. In 2004,      performed housing requirements market analyses at 38
as extended interim repair-modified aircraft approached        locations and identified more than 32,000 Government


                                                                                                                          85
Department of Defense Inspector General
housing requirements, valued at approximately $6.1             disbursements, or reconcile financial data. Deobligating
billion. This audit disclosed, at four of five locations       funds no longer required could provide approximately
reviewed, housing and manpower officials miscalculated         $1.2 million for other valid requirements. Further, Air
authorizations by 8,555 personnel (overstated 4,685 and        Force Quality Assurance Personnel did not effectively
understated 3,870 authorizations). The miscalculated           monitor inventory practices performed by contractor
authorizations resulted in overstated housing requirements     personnel. As a result, information technology assets
and could cost the Air Force more than $26.9 million for       valued at approximately $20 million were not properly
excess housing. Furthermore, housing personnel at the          accounted for, and therefore were vulnerable to theft or
five installations reviewed did not provide analysts timely    abuse. Lastly, Air Force personnel did not accurately report
data call information. In addition, analysts did not use       direct conversion competition cost savings to Congress
the Military Personnel Data System data dictionary and         after in-house operations converted to contract. As a
housing referral data, and unnecessarily used targeted         consequence, Air Force officials understated information
economic relief data to complete housing requirements          technology contract costs and overstated savings by
market analyses. Lastly, housing personnel did not retain      $31.2 million in the Commercial Activities Management
data required to validate housing requirements market          Information System.
analyses accuracy. Although housing officials identified
unsuitable housing at three of five installations reviewed,    Financial Management
analysts did not properly classify up to 4,143 homes as
unsuitable. Inaccurately evaluating unsuitable housing         Nonappropriated Fund Transformation System
understates the housing requirement and can result in          Implementation (Phase 1), Air Force Services Financial
insufficient housing for military families.                    Management System Controls: Air Force Services
                                                               Financial Management System Non-appropriated Fund-
Financial Management of the 844th Communications               Transformation is phase one of a four-phase, multi-
Group Information Technology Services Contract:                year Enterprise Resource Plan established to improve
The Air Force contracted with Lockheed Martin                  financial management capabilities. The Air Force Services
Integrated Systems, Inc. to provide information                Financial Management System is programmed to replace
technology services for HQ Air Force and other Air             existing non-appropriated fund legacy accounting and
Force organizations in the National Capital Region, as         payroll systems Air Force-wide by May 2009, and was
well as for the National Military Command Center in            deployed to 13 locations in January 2007. Requested
the Pentagon. As of January 2007, Lockheed Martin              by the Air Force Services Agency Commander, this audit
managed more than 41,000 information system assets             determined program personnel effectively implemented 4
valued at $42 million. A direct conversion competition         of the 10 system controls; however, 6 control areas need
under Office of Management and Budget Circular No.             strengthening. As a result of control weaknesses, Air
A-76 for information technology services transferred           Force Services Financial Management System program
responsibilities to the 844th Communications Group at          personnel made critical system changes subsequent to the
Andrews Air Force Base, Maryland, to provide Air Force         system’s deployment resulting in a 5 month deployment
oversight for the Lockheed Martin contract and act as the      moratorium. Further, the Air Force Services Agency is
Executive Agent for National Military Command Center           vulnerable to permanent loss of financial information;
command, control, communications, and computer                 payroll delays; significant business interruptions;
systems. As a result, the 844th Communications Group           unauthorized access to sensitive information; resource
personnel must report direct conversion cost savings to        misappropriation; and fraud, waste, and abuse.
Congress. This audit, requested by the Administrative          Additionally, program management office personnel
Assistant, Secretary of the Air Force, disclosed contracting   did not perform required accounting conformance
and financial management personnel did not effectively         functionality testing or incorporate the U. S. Standard
manage contract actions, review obligations, monitor           General Ledger at the transaction level. As a result,

86
                                                                                              Semiannual Report to Congress
the system’s financial data could not be relied upon for      caretakers incurred maintenance and repair expenses of
financial reporting purposes, and the Air Force Services      approximately $21.7 million. This audit, requested by
Financial Management System will remain non-compliant         the Air Force Real Property Agency, determined Air Force
with Federal Financial Management Improvement Act             officials did not always effectively manage the K.I. Sawyer
regulatory mandates.                                          Cooperative Agreement to provide a fair and reasonable
                                                              closeout. While K.I. Sawyer caretakers provided fully
Air Education and Training Command Pilot Training             supported financial reports and payment requests,
Flying Hours: Air Education and Training Command              Air Force Real Property Agency site managers did not
officials manage all undergraduate pilot training and share   require installation caretakers obtain prior approval for
graduate pilot training responsibility with Air Combat        payment requests exceeding the negotiated amounts in
Command, Air Mobility Command, and Air Force Special          the cooperative agreement. Additionally, Air Force Real
Operations Command. In FY 2006, Air Education and             Property Agency site managers inaccurately calculated
Training Command personnel programmed more than               and allowed excess payments when expenditures exceeded
530,000 flying hours at a cost of over $1 billion. The        the negotiated amounts. Obtaining reimbursement for
audit disclosed Air Education and Training Command            $1.29 million of unauthorized payments will provide the
officials could improve the pilot training flying hour        Air Force additional funds for other funding priorities.
program by maintaining evidence supporting flying hour
requirement computations and redistributing unneeded          Health Care
flying hours. Specifically, except for the F-22 program,
Air Education and Training Command Resources and              Civilian Drug Testing Program: The Air Force Civilian
Requirements personnel accurately allocated flying hours      Drug Testing program began in 1986 when President
to meet pilot training requirements. However, none of the     Reagan signed Executive Order 12564 establishing the
programmers had evidence to support four key variables        goal of a drug-free federal workplace. About 28,000 Air
used to compute flying hour requirements. Properly            Force civilians are in designated drug testing positions.
supported flying hour requirements are essential to justify   The audit disclosed Air Force officials did not correctly
Air Education and Training Command’s $1 billion annual        identify and test civilian employees as required. Specifically,
flying training investment. Also, during FY 2006, Flying      civilian personnel officials did not include more than
Training Wing personnel did not properly execute over         14,000 personnel in the drug testing program, to include
13,000 student flying hours. Annually redistributing          individuals assigned to sensitive and critical safety positions
more than 10,000 excess flying hours for the six locations    at the 15 locations reviewed. Further, Air Force medical
reviewed will provide the Air Force more than $184            officials did not conduct the required number of tests,
million over the 6-year Future Years Defense Program for      improperly excluded and deferred individuals selected for
other flying training requirements.                           drug testing, and did not retest individuals who tested
                                                              positive or non-negative for drug use. These conditions
K.I. Sawyer Cooperative Agreement: K.I. Sawyer Air            compromised the Air Force civilian drug testing program.
Force Base was selected for closure under the 1993 Base       Drug testing is a deterrent to substance abuse; without an
Realignment and Closure Act, and officially closed in         effective drug testing program, the Air Force unnecessarily
September 1995. In August 1995, the Air Force Real            increases its risk for loss of life, injury to personnel, or
Property Agency, then the Air Force Base Conversion           damage to Government property. In addition, substance
Agency, entered into a K.I. Sawyer Cooperative                abusers working with sensitive and classified information
Agreement with the Michigan Jobs Commission to                become potential targets for coercion or blackmail which
provide installation maintenance and repair during            adversely impacts national security.
the closure and conversion period. In mid-1997, the
agreement transferred to Marquette County officials. Environmental Cleanup at Closed Installations: The
From FY 1996 through FY 2004, when the cooperative Air Force closed 32 major installations during the first
agreements concluded, the K.I. Sawyer installation four Base Realignment and Closure rounds in 1988, 1991,

                                                                                                                          87
Department of Defense Inspector General
1993, and 1995. As part of these closures, DoD required          effective actions to increase coding accuracy within each
the Air Force to develop remediation plans to reverse any        medical treatment facility. The audit determined medical
environmental contamination at the closing installations.        coding effectiveness required significant improvement in
Remediation or cleanup must be accomplished in                   all areas reviewed. Specifically, medical providers did not
accordance with applicable statutes, regulations, and            accurately code outpatient encounters. All nine military
authorities, including Superfund Amendments and                  treatment facilities reviewed had coding error rates of
Reauthorization Act, Resource Conservation and                   50 percent or higher and medical providers inaccurately
Recovery Act, and Comprehensive Environmental                    coded at least 69,000 encounters in a 3 month period.
Response, Compensation and Liability Act. The Air Force          Additionally, providers did not completely code at
effectively and efficiently accomplished environmental           least 29,000 outpatient encounters in FY 2006 with an
cleanup at closed installations, but opportunities existed       estimated medical service value of $2.2 million, or code
to convey additional property and further reduce costs           69 percent of sampled encounters within specified DoD
without compromising cleanup program goals. Air Force            time frames. Lastly, medical providers did not include
Real Property Agency cleanup actions generally provided          all American Medical Association and DoD coding
for timely transfer of closed bases to the private sector, but   requirements.
the Air Force Real Property Agency did not aggressively
convey leased property. Of the 51,240 acres reviewed at          Dental Care Optimization: In 2004, the Assistant
13 locations, Air Force Real Property Agency conveyed            Secretary of Defense (Health Affairs) directed each military
36,363 acres (71 percent); however, the Air Force Real           service to develop cost-efficient processes to deliver quality
Property Agency did not aggressively convey 10,538 leased        and timely health care in an optimized manner. As part
acres. Additionally, personnel accomplished generally            of this tasking, DoD provided the Air Force Surgeon
cost-effective cleanup actions, but could have reduced           General funding to resource and implement the Dental
contamination sampling and testing at an additional 746          Care Optimization Initiative. This was an effort to adopt
wells meeting maximum contaminant levels and 610                 more private sector business practices by developing multi-
wells providing unnecessary data, thus saving the Air            chair dentistry techniques, increasing provider to support
Force more than $5.8 million over the 6-year Future Years        staff ratios, and implementing better business concepts
Defense Program.                                                 such as expanded training. The initiative was intended
                                                                 to maximize provider capacity as well as improve military
Medical Encounter Coding: In August 2003, the                    member deployment readiness. During 2004-2006, the
Assistant Secretary of Defense (Health Affairs) directed         Air Force Surgeon General implemented the Dental Care
each Military Service to implement specific actions and          Optimization Initiative at 29 of 78 dental clinics, with
coding standards to improve medical record coding at             Air Force-wide implementation projected by FY 2011.
military treatment facilities. Medical record coding             Also during this period, the Surgeon General tasked the
transforms health care providers’ verbal descriptions            remaining clinics to implement dental care optimization
for diseases, injuries, and treatment into numeric or            concepts. Requested by the Air Force Surgeon General
alphanumeric designations. Medical officials use the coded       to determine the effectiveness of the Dental Care
data to track administered care, record workload data,           optimization initiatives, the audit showed that, while
anticipate patient demand, and manage business activities        dental clinics experienced positive results, the Dental Care
and operations. In FY 2006, Air Force medical personnel          Optimization initiative did not fully meet its intended
coded more than 7.6 million outpatient encounters                outcome. Specifically, the review of the five intended
and delivered medical service to more than 2.6 million           results at eight fully resourced dental care optimization
eligible beneficiaries. The Assistant Deputy (Health             clinics identified these clinics achieved one and partially
Policy), Office of the Assistant Secretary of the Air Force      achieved four of the anticipated results. Further, analysis
for Force Management Integration, requested this audit           at five non-dental care optimization clinics found dental
to evaluate whether the Air Force Surgeon General took           clinics that solely implemented optimization concepts

88
                                                                                                 Semiannual Report to Congress
(no additional equipment and personnel) attained            completed a deal with an ICE undercover agent (posing
similar positive results by simply implementing concepts    as a hit-man) to kill the purported informant for $2,000.
such as expanded training, optimized scheduling, and        The SSgt paid $500 down payment to the ICE undercover
organizational techniques. Consequently, discontinuing      agent before he was arrested. During December 2007,
full optimization implementation at the remaining clinics   the SSgt was sentenced in U.S. District Court to 19 years
will allow DoD to put to better use approximately $5.6      confinement, $125,000 restitution and $2,100 in court
million.                                                    fees.

Air Force Office of Special                                 An intrusion investigation disclosed a malicious hacking
Investigations                                              tool (virus) infected a computer on an Executive Aircraft
                                                            located at Andrews AFB, Maryland. Computer forensic
AFOSI, founded on August 1, 1948, is headquartered          analysis determined malicious logic was transferred from
at Andrews Air Force Base in Maryland and provides          an e-mail attachment while the computer was installed
professional investigative service to commanders of all     to the Internet for software upgrades. Special agents
Air Force activities. AFOSI identifies, investigates and    identified, isolated and neutralized the potential threat
neutralizes criminal, terrorist, and espionage threats to   and programmatic safeguards were implemented to
Air Force and Department of Defense personnel and           mitigate future problems.
resources.
                                                             A contractor submitted false claims for payment by
During January 1994, a USAF technical sergeant adding markup costs to cost reimbursable items on a
mysteriously departed his duty station without leave base supply contract. The performance work statement
shortly before his eight-month pregnant wife was found required the contractor to charge the Government for the
dead in the Golden Gate National Recreation Area, Santa actual cost of the parts. Instead, the contractor added a
Rosa, California. The cause of death was determined to markup cost on the majority of invoices. The contractor
be from blunt trauma to her head. Having been declared acknowledged the markup but believed he was entitled
a fugitive, the TSgt was apprehended during November to the additional charges. An adjudication resulted in
2006, after a massive manhunt by the Royal Thai Police $500,000 reimbursement to the Government for the
in Northern Thailand. During February 2008, U.S. overcharges.
Marshals escorted the TSgt from Thailand and turned
him over to AFOSI. During an interview, the TSgt
confessed to killing his wife, and is currently in pre-trial
confinement awaiting court martial.

A USAF staff sergeant was investigated for theft of
Government property and murder for hire. The SSgt
sold night vision goggles, aviation helmets and other
military bench stock equipment through EBay to a buyer
from New Zealand. He had also planned to sell hand-
held Global Positioning Satellite receivers. AFOSI and
Immigration and Customs Enforcement agents executed
a search warrant on the SSgt’s residence and found stolen
government property. The SSgt was irate and planned to
have someone kill the person he believed reported him
to law enforcement authorities. The SSgt subsequently       An AFOSI special agent rests after assisting in the rescue of 10
                                                            passengers from a C-46 Sea Knight helicopter that crash-landed.


                                                                                                                               89
Department of Defense Inspector General
     Defense Oversight
        Community
Providing Oversight for the Department...




        and making a difference!
Chapter 4:
DoD IG
Outreach
                                                            Defense Hotline

The Defense Hotline continues its primary mission of providing a reliable means for DoD civilian and contractor
employees, military service members, and the public to report fraud, waste, mismanagement, abuse of authority,
threats to homeland security and leaks of classified information to the Department of Defense. The Defense Hotline
offers both confidentiality and protection against reprisal.

The Defense Hotline receives allegations from around the world via e-mail, Internet, U.S. mail, fax, and telephone.

                                                October 1, 2007 - March 31, 2008

                                                          Contacts                                   6576
                                                          Cases Opened                               864
                                                          Cases Closed                               995
                                                          Dollar Recoveries                          $920,897



Distribution of Hotline Contacts by Source
....................................................................................................................................................................................
                     DISTRIBUTION OF HOTLINE CONTACTS BY SOURCE

              300

              250

              200

              150

              100

                  50

                     0
                                      Co                  Ph                  GA                 In t                Em                 Le
                                        ng                  on                    O                  ern                                   tte
                                                                                                                                   Le




                                                                                                                        ail
                                                                                           In
                                                                       G




                                                                                                                Em
                                                    Ph
                                Co




                                           res                e                                         et                                    r
                                                                          AO



                                                                                              t




                                                                                                                                      tte
                                                                                              er
                                                       o




                                               s
                                    ng




                                                                                                                    ail
                                                        ne




                                                                                                ne




                                                                                                                                         r
                                       re




                                                                                                   t
                                          s




92
                                          s




                                                                                                                                          Semiannual Report to Congress
Distribution of Hotline Referrals
...................................................................................................................................................................................




Distribution of Hotline Cases by Category for FY 2007
...................................................................................................................................................................................

• Internal Misconduct (152)
• Reprisal (107)
• Contract Administration (108)
• Finance and Accounting (105)
• Government Property (49)
• Programs/Projects (68)
• Personnel Actions (22)
• Procurement (27)
• Security (24)
• Medical (21)
• Other (7)
• Non-appropriated Fund (3)
• Military Support Services (1)




                                                                                                                                                                                93
Department of Defense Inspector General
Significant Hotline Cases
....................................................................................................................................................................................

Moving Company Overcharges the Government by ‘Bumping Weight’
A confidential source reported a scheme to defraud the Navy by a moving and storage company by “bumping up
weight” of furniture being moved. The process of bumping weight is accomplished by the driver/mover obtaining a
false empty weight on the truck that is then certified by a scale operator. The investigation substantiated the allegations
and the company entered into a civil settlement with the U.S. Attorney’s office to pay the Navy $375,000.

Contractor found Guilty of Bid-Rigging
A Defense contractor was found guilty of submitting a phony bid from another contractor asserting evidence of
increased costs associated with a change notice to an AF contract. The contractor also admitted to submitting forged
criminal history release forms for employees granted access to a sensitive construction site. The contractor has been
debarred from Government contracting and from receiving, directly or indirectly, the benefits of federal assistance
programs until Feb 2010.

Personal Information Found Posted on the Internet
A confidential source reported that military personnel names and personal information were posted on a publicly
accessible Internet Web site. The investigation confirmed the allegations and found that following Hurricane Katrina
a supervisor requested assistance from several agencies to identify and map the location of service personnel impacted
by Katrina. A database file was generated by the personnel office and forwarded to a university for high resolution
geo-mapping. Once the contractor was made aware of the disclosure they immediately removed the data file and also
contacted Google, who in turn removed the data from their cache.

Misuse of Official Position
The Hotline substantiated allegations that a federal police officer misused their official position for private gain in
violation of the Standards of Ethical Conduct, both by misrepresenting himself and the scope of his authority as a
police officer. The officer used his title as a federal police officer to identify himself when addressing members of the
public regarding private community initiatives and programs (security) to obtain additional referrals for a business he
co-owned. The officer was suspended and removed from federal service.

Unauthorized Basic Allowance for Housing
An anonymous complainant reported a service member was receiving unauthorized Basic Allowance for Housing.
The member admitted to receiving more than $45,000 in unauthorized housing allowance for which he received an
Article 15 that resulted in reduction in rank, forfeiture of 2 months pay and extra duty days. The member will repay
the Government all monies fraudulently received.

False Claims for Military Benefits
A source alleged an individual married her grandfather for the purpose of collecting his military survivor benefit
program benefits. Investigation revealed the marriage was entered into solely to obtain SBP benefits and further
uncovered the adoptive mother conspired with her daughter to effect the fraudulent marriage. Both were indicted
for violating 18 USC 286 and an additional charge for lying to a federal agent. The daughter was sentenced to 36
months probation and restitution of $230,000. The mother was sentenced to 27 months confinement in a federal
penitentiary, 36 months probation and joint restitution of $230,000.



94
                                                                                                                                          Semiannual Report to Congress
Travel and Per Diem Fraud
An Army major was found guilty of providing false information concerning his living arrangements and expenses. The
member fraudulently collected Basic Allowance for Housing, Family Support payment and TDY entitlements. For
this he was sentenced to 45 days confinement, dismissed from the military and ordered to pay a fine of $20,000.

Hotline Assists Widow with Military Benefits
The widow (suffering from severe dementia) of a retired Air Force colonel (deceased in 1999) had not properly filed
a claim that reported the death of her husband to DFAS and had never drawn any of her Survivor Benefit Program
entitlements. After numerous attempts with DFAS to resolve the issue, the court appointed conservator for the widow
filed a complaint with the Defense Hotline that alleged DFAS employees appeared to be slow rolling the payment of
back pay and the monthly SBP amount. The Hotline requested DFAS inquire into the situation. They reported they
were in receipt of said claim, however, it was in the ”queue” to be processed at a later date. As a result of the Hotline
inquiry, DFAS Cleveland prioritized this claim and immediately authorized payment of $14,103, paid on February
20, 2008 with a follow-up payment of $134,264 to be paid by DFAS Denver at an undetermined date. The widow
will also receive $1,996 per month.


                                                          DoD IG Web site

                                                                           The DoD IG Web site provides information to the public,
                                                                           Congress and Department of Defense about the agency’s mission,
                                                                           accomplishments and ongoing efforts in areas such as the GWOT,
                                                                           efforts to combat fraud, waste and abuse, and related audits, reviews
                                                                           and investigations.

                                                                           In keeping with its goal of “transparent accountability,” the DoD
                                                                           IG Web site also features an extensive Freedom of Information Act
                                                                           section, where requests can be made on-line, and pressroom section
                                                                           containing links to all report sections, as well as a special section titled
                                                                           “Frequently Requested Documents” where members of Congress,
                                                                           their staffs, reporters and the general public can access high-interest
                                                                           documents as soon as they are posted.




Statistics
....................................................................................................................................................................................

• During this six-month reporting period, 248, 771 unique visitors logged onto the DoD IG public Web site (1,359
visitors per day) for a total of 511,845 visits.

• In addition to the United States, visits were made by viewers from 176 other countries.

                                                                                                                                                                                95
Department of Defense Inspector General
     In addition to providing links, the left column of the front page
     also serves as a quick overview of the agency and its sub-elements
     to include: The most recent Semiannual Report to the Congress;
     “About Us” – the DoD IG Organization; The Global War on Terror;
     Auditing; Investigations; Policy & Oversight; Intelligence; and the
     Office of Communications and Congressional Liaison.

     Prominently displayed on a black bar at the top are:
     • The Pressroom, featuring links to all component report pages as
        well as “Frequently Requested Reports and Documents.”
     • Publications and Documents, featuring drop-down menus
        providing access to unclassified reports, the DoD IG Strategic
        Plan, Instructions and Congressional testimony.
     • Careers, featuring employment opportunities, the Defense
        Career Intern Program, federal health benefits and retirement,
        as well as other employment-related information.
     • The DoD Hotline, where anyone, civilian or military, may
        report fraud, waste, and abuse in addition to any other ethical
        or potentially criminal violations.
     • FOIA/ERR, where Freedom of Information requests may be
        submitted online and documents that have been the subject of
        multiple requests under FOIA may be found in the Electronic
        Reading Room. The FOIA/ERR Web page also contains a
        FOIA Handbook, a glossary of FOIA and Privacy Act terms,
        and a “Guide to FOIA Exemptions.”
     • Search Engine, which allows users to locate documents in the
        Web site by typing in keywords.

     The main portion front of the DoD IG Web site features news about
     recent events such as the work of DoD IG auditors in Afghanistan,
     the successful resolution of investigations by DCIS special agents,
     and testimony by senior DoD IG officials on Capitol Hill.

     To answer the multitude of inquiries the DoD IG has received about
     its work in Afghanistan, Iraq and other parts of Southwest Asia,
     a special Web section has been established to address the agency’s
     role in “The Global War on Terror.” The GWOT site contains a
     list of completed, ongoing and planned audits and reviews as well
     timelines that provide a graphic representation of completed and
     ongoing audits and reviews.


     The image to the left shows the DoD IG auditing timeline of completed
     reports webpage.




96
                                                     Semiannual Report to Congress
                                                                   Another section of the GWOT section titled “Ongoing Projects”
                                                                   features a quick reference chart showing the work now being
                                                                   done by the Auditing, Policy & Oversight, and Intelligence
                                                                   components. This allows Web site visitors a combined picture
                                                                   of the projects being done by those three components.

                                                                   The Defense Criminal Investigative Service is featured in a
                                                                   separate GWOT section and features case summaries to describe
                                                                   its work, such as a joint investigation with Immigration and
                                                                   Customs Enforcement in 2004 that thwarted an attempt by
                                                                   Iranian agents to obtain 3,000 sets of night vision goggles. The
                                                                   page also features a link to a statistical summary of ongoing
                                                                   DCIS cases in SWA, along with the category and the other
                                                                   participating agencies.




DoD IG field offices in Afghanistan, Iraq, Kuwait
and Qatar are highlighted in another section, while
a new page was recently added highlighting the work
currently being done by the Munitions Accountability
Team.



The image above shows the DoD IG field offices in support of the
Global War on Terror webpage. The image to the right show the
Defense Criminal Investigative Service webpage.


                                                                                                                                97
Department of Defense Inspector General
                                   PCIE and ECIE Activities


                                     The President’s Council on Integrity and Efficiency and the Executive Council
                                     on Integrity and Efficiency were established by Executive Order 12805 to address
                                     integrity, economy, and effectiveness issues that transcend individual Government
                                     agencies, and increase the professionalism and effectiveness of IG personnel
                                     throughout the Government. Presidentially appointed Inspectors General are
                                     members of the PCIE and the DoD IG is an active participant in the PCIE,
                                     serving as a member of the PCIE Audit Committee, the PCIE/ECIE IG Act
                                     Implementation Committee, and the PCIE Executive Council; and as chair of
                                     the PCIE Information Technology Committee. Furthermore, the Deputy IG
                                     for Auditing is currently serving as the chair of the Federal Audit Executive
                                     Council, a subgroup of the PCIE and ECIE, and the Assistant IG for Defense
                                     Financial Auditing Service serves as the PCIE Ex-Officio representative to the
                                     Chief Financial Officers Council.

                                     PCIE Information Technology Committee
                                     ...........................................................................................................................

                                       To address the many concerns shared by the IG community regarding information
                                       technology, the PCIE IT Committee was established in 2007 to address the many
                                       concerns shared by the IG community regarding information technology. Its
                                       mission is to facilitate effective information technology audits, evaluations, and
                                       investigations by Inspectors General, and to provide a vehicle for the expression
                                      of the IG community’s perspective on Government-wide IT operations. The
DoD IG was appointed to be the first chair of this new committee that meets quarterly, with two meetings taking
place during this reporting period, in October 2007 and January 2008. Key presentations and agenda items at these
meetings included the role of the Inspector General Community in the implementation of the President’s National
Strategy for Information Sharing; information sharing and security; the recent survey conducted regarding the need
for a digital forensics laboratory for the IG community; and updates from the two sub-committees of the PCIE IT
Committee -- Audit and Inspections, and Investigations. The Web site for the committee is at www.dodig.mil/pcie-
it.




98
                                                                                                                      Semiannual Report to Congress
                                                               DCIE Activities

The Defense Council on Integrity and Efficiency is patterned after the President’s Council on Integrity and Efficiency.
The DCIE is chaired by the DoD IG and meets on a quarterly basis to discuss issues of common interest, share
information and best practices, and build closer working relationships among members of the oversight community
within the Department. Key presentations and topics of discussion during these meetings included munitions
accountability in Southwest Asia, fraud investigations in Southwest Asia, joint basing, information assurance, and
joint IG training.

DCIE Inspections and Evaluations Roundtable
....................................................................................................................................................................................

The Defense Council on Integrity and Efficiency Inspections and Evaluations Roundtable provides a forum for
communication, coordination and collaboration among Department of Defense Inspectors General Inspections and
Evaluations organizations -- Services, Joint Staff, COCOMs, National Guard Bureau, and Defense agencies. The
roundtable meets quarterly and is chaired by the Assistant IG for Inspections and Evaluations. The agenda for the two
sessions for this period included briefings and discussions on the following activities:

•     Development of doctrine, standards, and training for Combatant Command IGs
•     Impact of joint basing on installation IGs
•     Activities of the Southwest Asia Joint Planning Group
•     Munitions accountability in Southwest Asia
•     Overview of DoD/DoS Interagency Section 1206 project—help train and equip partner nations to counter
      terrorism and support U.S. military operations


                                            Speeches and Conferences


Forensic Auditing Forum
....................................................................................................................................................................................

On January 25, 2008 Ms. Mary L. Ugone, Department of Defense Deputy Inspector General for Auditing delivered
the keynote address at the Forensic Auditing Forum sponsored by the Department of Justice National Procurement
Fraud Task Force and the General Services Administration Inspector General. The topic of Ms. Ugone’s presentation
was “Predicting Fraudulent Activities” and her remarks focused on how the Federal Audit Executive Council could
work with the Task Force to “minimize the occurrence of and maximize the disclosure of fraudulent activities using
predictive analytical methodologies.”




                                                                                                                                                                                99
Department of Defense Inspector General
Fiscal Law Course
....................................................................................................................................................................................

From January 15 to 18, 2008, the DoD IG and the Judge
Advocate General, U.S. Army, partnered to provide training
on “Fiscal Law” to the DoD (and federal) community in
Howell Auditorium, at Fort Belvoir, Virginia. The DoD IG
and the Judge Advocate General, U.S. Army collaboration
contributed to the improvement of DoD’s financial- and
business-related operations in that the topics addressed have
sharpened the awareness of the oversight and protection of
the appropriated, obligated, and future years dollars from
potential waste and misuse. The heightened awareness will
result in improved acquisition outcomes and more effective
oversight of contracting actions. Attendees included members
of the DoD IG as well as members of other federal inspectors
general offices within DoD and the Military Services, the Judge Advocate General School, and several Army commands.
General Kicklighter spoke at the conclusion of a course sponsored by the DoD IG Office of the Deputy Inspector
General for Auditing.

E-Gov 2007 Security Conference
....................................................................................................................................................................................

                                             On November 8, 2007, Department of Defense Principal Deputy
                                             Inspector General Mr. Thomas F. Gimble, gave a presentation at the
                                             E-Gov 2007 Security Conference on “Addressing Persistent Security
                                             Weaknesses: IG Perspectives.” Mr. Gimble was on a panel moderated
                                             by Mr. Gaston Gianni along with Ms. Rebecca Leng, Department of
                                             Transportation and Ms. Kathy Saylor, Department of the Interior.
                                             Mr. Gimble spoke about Department of Defense information
                                             technology security challenges, focusing on the Federal Information
                                             Security Management Act and Defense Criminal Investigative Service
                                             investigations into high-tech crimes, including computer intrusions,
                                             unauthorized access, and data theft. Mr. Gimble also highlighted
                                             DoD Inspector General initiatives to foster information sharing in the
oversight community, including the President’s Council on Integrity and Efficiency and the Federal Audit Executive
Council IT committees.




100
                                                                                                                                          Semiannual Report to Congress
                                                             DoD IG Awards


DoD IG Annual Awards Ceremony
...................................................................................................................................................................................

On March 18, 2008, the Department of Defense Inspector General held its 19th Annual Honorary Awards Ceremony
at the Crystal Gateway Marriott in Arlington, Virginia.

Among the award recipients were Ms. Tina W. Jonas, Under Secretary of Defense (Comptroller) and Chief Financial
Officer of the Department of Defense, and Mr. Shay Assad, Director of Defense Procurement, Acquisition Policy and
Strategic Sourcing.

Both were presented with the Joseph H. Sherick award by DoD Inspector General Claude M. Kicklighter. The
Sherick Award is the highest honor bestowed on non-DoD IG employees. It is granted annually to an individual who
distinguished himself/herself by exceptional service or contributions of the broadest scope to the DoD IG. Inspector
General Kicklighter also presented awards to employees from the various DoD IG components in recognition of their
roles in audits, investigations, inspections and supporting activities during the past year. Those efforts resulted in
hundreds of millions of dollars being returned to the U.S. Government, with millions more being put to better use.




Inspector General Kicklighter presents the Joseph H. Sherick Award
to Ms. Tina Jonas and Mr. Shay Assad above. To the right DoD IG
component unique awards are presented.




                                                                                                                                                                              101
Department of Defense Inspector General
DoD IG Awards Ceremony Cont.
...................................................................................................................................................................................




DCIS and ICE Special Agents Receive Awards
...................................................................................................................................................................................

                                                          On December 18, 2007, two special agents from the Defense Criminal
                                                          Investigative Service and U.S. Immigration and Customs Enforcement were
                                                          recognized by the Office of the United States Attorney for the Central District
                                                          of California for their roles in an investigation into an attempt to illegally export
                                                          restricted military equipment to Iran.

                                                          U.S. Attorney Thomas P. O’Brien presented awards to DCIS Special Agent
                                                          Natalie Duerksen and an ICE special agent for their roles in an investigation
                                                          resulting in the arrest and conviction of Reza Tabib for violating the International
                                                          Emergency Economic Powers Act, which prohibits the export to Iran of certain
                                                          items of U.S. origin, such as F-14 “Tomcat” fighter maintenance parts. In
                                                          addition, as part of a companion case, Special Agents Duerksen and Barnett
                                                          were responsible for the civil seizure of four complete F-14 fighters in California
                                                          that were not properly “demilitarized” before they were transferred to private
                                                          parties. Military regulations mandate that parts such as ejector seats must be
                                                          removed from an aircraft before it is turned over to a private party.


102
                                                                                                                                          Semiannual Report to Congress
Chapter 5:
DoD IG
Components
                                                Special Announcement

New Office for Strategic Plans and Operations for GWOT

Our support to the Department of Defense involves a complex operational environment that includes changing
requirements and the need for rapid and focused responses to challenging issues. As a result, we are establishing
an Office for Strategic Plans and Operations to augment the GWOT work being currently conducted by the DoD
IG components. The new component will focus on the Global War on Terror and other high-value, high-visibility
assessment missions as assigned. This office performs quick-assessment missions on critical, time-sensitive national
security issues identified by the Secretary of Defense, Deputy Secretary of Defense, Chairman of the Joint Chiefs of
Staff, and other members of the senior DoD leadership, as well as members of Congress. SP&O teams focus on issues
of critical importance to management and in a relatively short time provide answers to questions regarding a specific
issue such as “What is the status?” and “What is going on right now?”


                                                                        Auditing

The Office of the Deputy Inspector General for Auditing conducts audits on all facets of DoD operations. The
work results in recommendations for reducing costs, eliminating fraud, waste, and abuse of authority, improving
performance, strengthening internal controls, and achieving compliance with laws, regulations, and policies. Audit
topics are determined by law, requests from the Secretary of Defense and other DoD leadership, Hotline allegations,
congressional requests, and internal analyses of risk in DoD programs.

DoD Audit Community
....................................................................................................................................................................................

The Defense Contract Audit Agency provided financial advice to contracting officers in 13,807 audits during the
period. The contract audits resulted in more than $8.4 billion in questioned costs and funds that could be put to
better use. Appendix D contains the details of the audits performed. Contracting officers disallowed $227.8 million
(56 percent) of the $406.6 million questioned as a result of significant post-award contract audits during the period.
The contracting officer disallowance rate of 56 percent represents a decrease from the disallowance rate of 69 percent
for the prior reporting period. The number of overage audits increased by 11 percent to 1,183 with a total of $2.8
billion. Additional details of the amounts disallowed are found in Appendix E.

Audit Significant Open Recommendations
....................................................................................................................................................................................

Managers accepted or proposed acceptable alternatives for 92 percent of the 301 DoD IG audit recommendations
rendered in the first 6 months of FY 2008. Many recommendations require complex and time consuming actions, but
managers are expected to make reasonable efforts to comply with agreed upon implementation schedules. Although
most of the 1019 open actions on DoD IG audit reports being monitored in the follow-up system are on track for
timely implementation, there were 196 reports more than 12 months old, dating back as far as 1994, for which
management has not completed actions to implement the recommended improvements.

104
                                                                                                                                          Semiannual Report to Congress
Significant open recommendations yet to be implemented follow:

• Recommendations from multiple reports to make numerous revisions to the DoD Financial Management Regulations;
clarify accounting policy and guidance, improve accounting processes, internal controls over financial reporting, and
related financial systems have resulted in initiatives that are underway to correct financial systems deficiencies, and
enable the Department to provide accurate, timely, and reliable financial statements. Also, a recent assessment of
an issue regarding abnormal balances in accounting records, which was reported in a prior audit report, found that
the FY 2007 trial balance data for the Army General Fund includes significant unresolved abnormal balances in
the proprietary and budgetary accounts. DFAS Indianapolis uses these accounts as part of the compilation of the
Army General Fund financial statements. The correction of this condition is dependent upon implementation of the
Defense Departmental Reporting System – Budgetary (part of the Business Enterprise Information Services) which
has a September 30, 2008 implementation date.

• Recommendations from multiple reports in the high-risk area of personnel security. Some of the most significant
of these include: development of a prioritization process for investigations, establishment of minimum training and
experience requirements and a certification program for personnel granting security clearances; issuance of policy on
the access by all contractors, including foreign nationals, to unclassified but sensitive DoD IT systems, establishment
of policy on access reciprocity and a single, integrated database for Special Access Programs; implementation of steps to
match the size of the investigative and adjudicative workforces to the clearance workload, development of DoD-wide
backlog definitions and measures, monitoring the backlog using the DoD-wide measures; and improvement of the
projections of clearance requirements for industrial personnel. Progress on the unprecedented transformation of the
personnel security program is slow but steady. Implementation of multiple report recommendations is pending the
issuance of revised DoD Regulation 5200.2-R.

• Recommendations made in 2004 to define network centric warfare and its associated concepts; formalize roles,
responsibilities, and processes for the overall development, coordination, and oversight of DoD network centric warfare
efforts; and develop a strategic plan to guide network centric warfare efforts and monitor progress. DoD guidance has
been updated to reflect relevant definitions that have been developed. Coordination of the revisions to the applicable
DoD Directive and Instruction is ongoing. Publication of the strategic plan is in process. Final coordination is
scheduled to be complete by the end of FY 2008.

• Recommendations made in 2004 to clarify guidance on the differences between force protection and antiterrorism in
DoD policies and procedures. DoD revised its applicable guidance in October 2006. The Services are now in process
of updating their corresponding guidance.

• Recommendations from several reports to address issues regarding information systems security including completion
of the information security certification and accreditation process for various DoD systems, and development of an
adequate plan of action with milestones to resolve critical security weaknesses. These actions need to be completed
to address requirements of the Federal Information Security Management Act and related OMB guidance. Although
some actions have been initiated, they are not adequate to correct the identified deficiencies, nor have they been
adequately incorporated in the revision to the applicable instruction. Discussions are ongoing to establish a standard
“information system” definition across DoD for information technology reporting and other related issues.

• Recommendations from several reports to clarify and improve DoD policy guidance and procedures covering the
roles and responsibilities of contracting personnel; requirements for obtaining cost or pricing data, conducting price
analysis, determining price reasonableness, fulfilling competition requirements, use of multiple-award contracts,

                                                                                                                     105
Department of Defense Inspector General
monitoring contractor performance, and maintaining past performance data on contractors. Corrective actions are
underway to improve DoD contracting procedures related to source selection, interagency acquisitions, contract
surveillance and reporting, and sole-source procurements of spare parts.

• Recommendations from several reports to address issues regarding improvement in oversight responsibilities and
management controls relating to the purchase card program. These include: ensuring all cardholders and approving officials
receive the required initial and refresher purchase card training; effectively managing the span of control over purchase
card accounts; conducting oversight reviews of approving official accounts to verify compliance with DoD purchase card
guidance; ensuring proper retention of documents for all accounts; and adequately enforcing existing controls throughout
the purchase card process. The Services are now in process of updating their guidance to conform to corresponding DoD policy.


                                            Investigations

The Office of the Deputy Inspector General for Investigations (ODIG-INV) comprises the criminal and the
administrative investigative components of the DoD IG. The Defense Criminal Investigative Service (DCIS) is the
criminal investigative component of the DoD IG. The non-criminal investigative units include the Directorate for
Investigations of Senior Officials (ISO), the Directorate for Military Reprisal Investigations (MRI), and the Directorate
for Civilian Reprisal Investigations (CRI).

                 Defense Criminal Investigative Service

DCIS is tasked with the mission to protect America’s warfighters by conducting investigations in support of crucial
national defense priorities. DCIS conducts investigations of suspected major criminal violations focusing mainly
on terrorism, product substitution/defective parts, cyber crimes/computer intrusion, illegal technology transfer, and
other crimes involving public integrity including bribery, corruption, and major theft. DCIS also promotes training
and awareness in all elements of the DoD regarding the impact of fraud on resources and programs by providing fraud
awareness presentations.


                      Investigations of Senior Officials

The Directorate for Investigations of Senior Officials conducts investigations into allegations against senior military
and civilian officials and performs oversight of senior official investigations conducted by the Military Departments.

Figures 1 and 2 to the right show results of activity on senior official cases during the first 6 months of FY 2008. On
April 1, 2008, there were 207 ongoing investigations into senior official misconduct throughout the Department,
representing a slight decrease from September 30, 2007, when we reported 213 open investigations. Over the
past 6 months, the Department closed 181 senior official cases, of which 20 (11 percent) contained substantiated
allegations.




106
                                                                                                Semiannual Report to Congress
            Figure 1: Nature of Substantiated Allegations Against
                    Senior Officials During 1st Half FY 08
                         Other
                       Misconduct
                                                                  Failure to Act
                          15%
                                                                      12%
                                                                                                     Abuse of
                                                                                                     Authority
                                                                                                       16%




                                                                                                        Sexual
                                                                                                     Improprieties
       Misuse/Waste                                                           Improper                   6%
         of Govt                                                              Personnel
        Resources                                                              Action
           38%                                                                  13%



			                        181 Cases Closed 	                                 20 Substantiated
                           Figure 2: DoD Total Senior Offical Cases
                                FY 2003 - First half of FY 2008
                                                                                   This chart shows the total number of
   600                                                                             senior official investigations conducted
                                        489                                        in DoD over the past five and one-half
   500         466                472              466 468
                                                                                   fiscal years.
                     427                                                416

   400                                                            327                    350
                                                                                               331

   300
                                                                                                           175 181
   200
                                                             86
   100                     57                 52
                                                                              73
                                                                                                     50
                                                                                                                     20

       0
                 FY03              FY04             FY05           FY06                   FY07              FY08-
                                                                                                            6mos

                                        Opened         Closed           Substantiated
                                                                                                                          107
Department of Defense Inspector General
                                  Military Reprisal Investigations
The DoD IG Directorate for Military Reprisal Investigations conducts investigations and performs oversight of
investigations conducted by the Military Department and Defense Agency IGs. Those investigations pertain to:

• Allegations that unfavorable actions were taken against members of the Armed Forces, non-appropriated fund
employees, and Defense contractor employees in reprisal for making protected communications.

• Allegations that members of the Armed Forces were referred for mental health evaluations without being afforded
the procedural rights prescribed in the DoD Directive and Instruction.

Whistleblower Reprisal Activity
....................................................................................................................................................................................

During the reporting period, MRI and the Military Department IGs received 288 complaints of whistleblower
reprisal. We closed 231 reprisal cases during this period. Of the 231 cases, 181 were closed after preliminary analysis
determined further investigation was not warranted and 50 cases were closed after investigation. Of the 50 cases
investigated, 9 contained one or more substantiated allegations of whistleblower reprisal (18 percent).

MRI and the Military Departments IGs currently have 410 open cases involving allegations of whistleblower
reprisal.

Examples of Substantiated Whistleblower Reprisal Cases
....................................................................................................................................................................................

A Navy commander alleged he was relieved from his position, issued a non-punitive letter of instruction, received
an unfavorable fitness report, and denied an end-of-tour award in reprisal for reporting his commander’s attempts to
misuse Government funds. A Navy investigation substantiated all reprisal allegations. No corrective action was taken
due to the retirement of the responsible official.

An Army sergeant first class alleged he was issued a letter of reprimand, relieved of his position, and reassigned to a
position not commensurate with his rank in reprisal for contacting a Member of Congress. An Army investigation
substantiated the allegations. The responsible official, an Army major, was issued a letter of counseling.

An Air National Guard master sergeant alleged she was threatened with relief from her position in reprisal for reporting
alleged sexual misconduct to the chain of command. An Air Force investigation substantiated the allegation. Corrective
action is pending.

An Air Force captain alleged he was issued letters of counseling in reprisal for reporting a hostile work environment
that included discrimination due to his age and nationality. An Air Force investigation substantiated that the captain
received one letter of counseling in reprisal for his protected communications. Corrective action is pending.




108
                                                                                                                                          Semiannual Report to Congress
Referrals for Mental Health Evaluations
....................................................................................................................................................................................

MRI closed 27 cases involving allegations of improper referrals for mental health evaluation during the reporting
period. In 6 (22 percent) of those cases, we substantiated that command officials and/or mental health care providers
failed to follow the procedural requirements for referring Service members for mental health evaluations under DoD
Directive 6490.1, “Mental Health Evaluations of Members of the Armed Forces.” We did not substantiate that any
of the mental health referrals were taken in reprisal for Service members’ protected communications.

                                    Civilian Reprisal Investigations

The mission of the Civilian Reprisal Investigations Directorate is to conduct and oversee allegations of whistleblower
reprisal made by DoD civilian employees. CRI also provides support to DoD component Inspectors General regarding
civilian reprisal cases, ensures DoD IG compliance with the Office of Special Counsel’s Section 2302(c) whistleblower
certification program, and conducts outreach to stakeholders of the DoD whistleblower protection program. During
the reporting period, CRI provided advice on 10 complaints that did not warrant full investigation, closed one
investigation, and had eight cases open at the end of the period.


                                                    Policy and Oversight

The Office of Deputy Inspector General for Policy and Oversight provides oversight and policy for Audit, Investigative,
Defense Hotline activities within the DoD; conducts inspections and evaluations of DoD programs; provides technical
advice and support, including quantitative methods, and systems and computer engineering, to DoD IG projects;
conducts data mining; monitors corrective actions taken in response to IG and GAO reports; and serves as the DoD
central liaison with the GAO on reports and reviews regarding DoD programs and activities.

Audit Policy and Oversight
..........................................................................................................................................................

The Office of the Deputy Inspector General for Policy and Oversight provides policy direction and oversight for
audits performed by more than 6,500 DoD auditors in 24 DoD audit organizations, ensures appropriate use of non-
federal auditors and their compliance with auditing standards, and determines whether contracting officials complied
with statutory and regulatory requirements when resolving contract audit reports. During the reporting period,
APO completed 7 reviews. One report described best practices for DoD audit and financial advisory committees;
two reviews were on Hotline complaints for which we did not substantiate the allegations; and one project did not
substantiate a management concern with auditor independence. The best practices report is a useful tool that provides
a framework for recruiting and developing effective and efficient audit and financial advisory committees for use within
DoD. Significant aspects of the best practices report include a Foreword that emphasizes the purpose of the review
effort and what the IG hoped to achieve with it, 10 call out boxes that highlight important information throughout
the document for emphasis, and samples of relevant documents such as sample charters that could be easily altered for
individual agency use should DoD organizations decide to establish an audit committee. Additionally, we performed
3 quality control reviews of Single Audits of nonprofit organizations, with one audit organization having to redo
significant portions of the audit.
                                                                                                                                                                              109
Department of Defense Inspector General
APO staff also participated on 6 DoD and Government-wide working groups that address significant issues impacting
DoD audit and accountability professionals; provided comments on draft financial accounting manual revisions and
revisions to an internal audit manual to ensure that policy guidance for all DoD auditors and accountants focus on
accountability and transparency; coordinated the IG review of 29 revisions to the procurement regulations, commenting
on 2 to ensure the revisions did not adversely impact DoD; commented on 2 Defense Finance and Accounting Service
statements of work for contract audit services so that contracted audit work will comply with required auditing
standards; held the peer review working group conference to discuss the FYs 2008 and 2009 schedules and relevant
issues; and hosted two conferences for DoD components during which IG expectations, emerging issues, and the role
of DoD contract audit followup monitors were discussed.

Data Mining Directorate
....................................................................................................................................................................................

The DoD IG Data Mining Directorate continues its primary mission of expanding and enhancing the use of Data
Mining with computer assisted auditing techniques as analysis tools to combat fraud, waste and abuse in Department
of Defense oversight programs. During this reporting period, the DoD IG Data Mining Directorate supported four
ongoing investigations and provided continuing support to five announced audits.

Inspections and Evaluations
....................................................................................................................................................................................

The Office of the Assistant Inspector General for Inspections and Evaluations conducts objective and independent
customer-focused management and program inspections addressing areas of interest to Congress and the DoD, and
provides timely findings and recommendations leading to positive change in programs.

Investigative Policy and Oversight
...................................................................................................................................................................................

The Office of the Assistant Inspector General for Investigative Policy and Oversight provides policy direction for and
evaluates the performance of, the DoD Criminal Investigative Organizations (that is the Defense Criminal Investigative
Service, the Army Criminal Investigation Command, the Naval Criminal Investigative Service and the Air Force
Office of Special Investigations) and non-criminal investigative offices of the DoD.

The Policy and Programs Directorate is responsible for producing Department-wide policy concerning investigations
and law enforcement, and commenting on all DoD policy affecting the investigative and law enforcement communities;
conducting limited oversight evaluations of DoD investigative organizations or individual investigations; and
administering the DoD Fraud Voluntary Disclosure Program and the DoD IG Subpoena Program.

The Policy and Programs Directorate is actively participating in working groups and committees to develop policy and
enhance information sharing to capitalize on advances in forensic and cyberspace capabilities. These capabilities will
be applied in support of law enforcement and the Global War on Terror.




110
                                                                                                                                          Semiannual Report to Congress
The VDP provides a formal mechanism by which DoD contractors can report potential civil or criminal fraud matters
discovered within their own operations, taking advantage of incentives provided in the False Claims Act and federal
sentencing guidelines for disclosure and full cooperation with Government authorities. The DoD, in coordination
with the Department of Justice and the Military Departments, shares the responsibility of resolving fraud matters and
determining which criminal, civil and administrative remedies are appropriate. During this reporting period, DoD
contractors made three new disclosures; two are being evaluated and one was denied. In addition, one case was settled
resulting in a $215,000 recovery.

The VDP manager is also active in two National Procurement Fraud Task Force committees, the Private Sector
Outreach Committee and the Training Committee. The National Procurement Fraud Task Force is a Department of
Justice initiative to improve the overall response to procurement fraud.

The IG Subpoena Program reviews, validates and processes administrative subpoenas in support of DCIO investigations.
During this period, 133 subpoenas were issued with an average 13.8 day process time from request to delivery. As part
of its outreach plan, this program conducted seven subpoena training classes for DCIOs.

As the war in Iraq and Afghanistan continues, IPO dedicates an increasing number of staff hours to congressional
and family concerns about deaths, especially suicides and a variety of unintentional death scenarios involving both
combatants and noncombatants. In order to evaluate the standards for death investigations, crime scene management,
forensic evidence processing and interview strategies, IPO increased and successfully recruited candidates with relevant
forensic, academic and practical experience.

Report Followup and GAO Liaison Directorate
...................................................................................................................................................................................

The Report Followup and GAO Liaison Directorate monitors the progress of agreed-upon corrective actions being
taken by DoD managers in response to OIG and GAO report recommendations. The Directorate obtains and
evaluates documentation of progress and completion of corrective actions, and maintains a complete record of actions
taken. During this 6-month period, final corrective action was completed on 82 reports and 507 recommendations,
with $128.5 million in savings documented on OIG recommended actions. Also, the Directorate oversees the
mediation process to facilitate resolution of disputes relating to DoD IG recommendations to achieve agreement on
those recommendations. During this 6-month period, we facilitated the successful resolution of 12 reports with 40
disputed recommendations referred for mediation, and assisted in obtaining responsive management comments to
recommendations in 6 reports.

The Directorate provided an extensive reply to a request from the House Committee on Oversight and Government
Reform for information regarding over 1,000 recommendations made by the DoD IG from January 1, 2001, to the
present that have not been implemented by agency officials.

The Directorate serves as the DoD central liaison with GAO on matters concerning GAO reviews and reports regarding
DoD programs and activities. This involves designating the OSD primary action office, coordinating GAO reviews to
facilitate appropriate DoD actions including; monitoring and facilitating the preparation of DoD responses to GAO
reports to ensure the responses are appropriately coordinated before release. The Directorate distributes information
regarding planned GAO activities to DoD auditing and other oversight organizations to facilitate the identification of
unnecessary overlap or duplication. During this 6-month period, the Directorate coordinated 116 GAO reviews and
processed 204 GAO draft and final reports.
                                                                                                                                                                              111
Department of Defense Inspector General
Quantitative Methods Directorate
...................................................................................................................................................................................

The Quantitative Methods Directorate ensures that quantitative methods, analyses, and results used in DoD IG
products are defensible. The Directorate accomplishes this by providing expert statistical/quantitative support and
advice to DoD IG projects, and by assessing the quantitative aspects of DoD IG products prior to their release.
Quantitatively defensible products employ a methodology that is technically sound and appropriate for the objectives
of the project; incorporate analyses that are performed correctly and are consistent with the methodology, and
appropriately present the results.

Technical Assessment Directorate
...................................................................................................................................................................................

The Technical Assessment Directorate provides technical advice to the DoD and conducts assessments to improve
the economy, efficiency, and effectiveness of Defense programs, operations, and oversight. The directorate focuses on
acquisition, program management, engineering, and information technology issues. During the reporting period, the
Directorate provided technical expertise and assessments that have expanded the audit coverage of systems engineering
and information assurance. As a result, Defense programs for systems engineering and information security are
improved in audited systems.




112
                                                                                                                                          Semiannual Report to Congress
                                                Intelligence
The Office of the Deputy Inspector General for Intelligence audits, evaluates, monitors, and reviews the programs,
policies, procedures, and functions of the Intelligence Community, including personnel security, Special Access
Programs, and Nuclear Surety issues within the DoD. The ODIG-INTEL oversees the intelligence-related activities
within the DoD Components, primarily at the DoD, Service, and Combatant Command levels, ensuring that
intelligence and intelligence-related resources are properly, effectively, and efficiently managed. The ODIG-INTEL
also conducts oversight of Service and Defense agency reviews of security and counterintelligence within all DoD test
and laboratory facilities. The Office of Deputy Inspector General for Intelligence is a center of excellence dedicated
to enhancing the capabilities of the DoD intelligence activities through an informed and authoritative oversight
program.

The DoD IG, the IGs of the Department of the Air Force, Defense Intelligence Agency, National Geospatial-
Intelligence Agency, National Reconnaissance Office, and National Security Agency/ Central Security Service, the
Army Audit Agency, the Naval Audit Service, the Air Force Audit Agency, the Naval Criminal Investigative Service,
and the Defense Contract Audit Agency completed 112 intelligence-related and other classified and sensitive reports.
The reports are categorized into the 65 Inspector General component areas shown in Figure 3. A listing and highlights
of the 112 reports can be found in the Classified Annex to this report and a summary of the each report is included
in the Classified Annex.

The Intelligence Community Inspectors and Auditors General continued to coordinate and share information to
improve the effectiveness and efficiency of oversight of DoD intelligence activities. Within DoD, the Joint Intelligence
Oversight Coordination Group comprises senior representatives from the Office of the Secretary of Defense, the
inspectors general of the Defense intelligence agencies, and military department audit, evaluation, and inspection
organizations. The objectives of the Group are to improve the effectiveness and efficiency of DoD oversight of
intelligence activities by identifying areas needing more emphasis and deconflicting oversight programs. The reports
are categorized in Figure 3. A listing and highlights of the 112 reports can be found in the Classified Annex to this
report and a summary of each report is included in the Compendium of Department of Defense Intelligence-Related
Inspector General and Audit Agency Reports.

                                Figure 3: Intelligence Related Reports

             DoD Management               DoD IG   Defense Agencies Military Departments        Total
               Challenge Area
              Joint Warfighting             0             30                  1                  31
                and Readiness
               Human Capital                0             26                  0                  26
                 Information                0             3                   1                   4
             Security and Privacy
                 Acquisition                1             3                   0                   4
                Processes and
                   Contract
                Management
                  Financial                 3             16                  3                  22
                Management
                    Other                   1             20                  4                   25
                    Total                   5             98                  9                  112
                                                                                                                    113
Department of Defense Inspector General
             Office of Communications and Congressional Liaison



The Office of Communications and Congressional Liaison supports the DOD IG by serving as the contact for
communications to and from Congress, and by serving as the DoD IG public affairs office. OCCL also includes
the Freedom of Information Act Requester Service Center/Privacy Act Office, the DoD IG Web team, digital media
support, and the Defense Hotline.

From October 1, 2007 though March 31, 2008, OCCL opened 117 congressional cases. New inquiries involved
issues such as allegations of sexual assault in theater, allegations regarding the New Orleans flood control pumps, and
a request regarding the procurement of C-17 aircraft.

The FOIA/PA Office reviews requests from the public for documents held by the DOD IG to ensure information
is released consistent with the requirements of the Freedom of Information and Privacy Acts. The FOIA/PA Office
received 303 requests for information and completed responses to 306 requests during the fiscal year.

The DoD IG also responded to more than 180 media inquiries during this period.

In addition, the OCCL provides staff support and serves as the liaison for the DoD IG to the President’s Council on
Integrity and Efficiency and the Defense Council on Integrity and Efficiency. Inspector General Kicklighter is the
chairman of the PCIE Information Technology Committee. OCCL also supports the DoD IG participation in the
PCIE by publishing the Journal of Public Inquiry.

OCCL organizes and supports meetings of the DCIE, which are chaired by the DoD IG, and held quarterly. DCIE
meetings are used as a forum to discuss issues related to oversight within DoD.

OCCL also acts as the lead agent for strategic planning for the DoD IG, managing the development and periodic
review and update of the DoD IG Strategic Plan to ensure that it addresses the current and emerging strategic landscape
impacting the Department and the DoD IG. During the last reporting period this plan has been significantly updated
to better align with key strategic initiatives, such as the President’s Management Agenda, Government Accountability
Office high risk areas, and Secretary of Defense priorities.




114
                                                                                           Semiannual Report to Congress
Appendices




	
Appendix A - Reports issued by Central DoD Internal Audit Organizations
Appendix B - DoD IG Audit Reports Issued Containing Quantifiable Potential Monetary Benefits
Appendix C - Followup Activities
Appendix D - Contract Audit Reports Issued
Appendix E - Status of Action on Significant Post-Award Contract Audits
Appendix F - Status of DoD IG Reports More Than 12 Months Old with Final Action Pending
Appendix G - Defense Criminal Investigative Organization Statistics
Appendix H - Acronyms
                                                Appendix A

      REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



Copies of reports may be obtained from the appropriate issuing office by calling:

	       DoD IG							                                                    Army Audit Agency
	       (703) 604-8937						                                             (703) 693-5679
	       http://www.dodig.mil						                                       http://www.hqda.army.mil/aaaweb

	       Naval Audit Service						                                        Air Force Audit Agency
	       (202) 433-5525						                                             (703) 696-7904
	       http://www.hq.navy.mil/NavalAudit				                            http://www.afaa.hq.af.mil

							

      Summary of Number of Reports by Management Challenge Area
                    October 1, 2007 - March 31, 2008


                                                                     DoD IG            Military Depts.           Total
Joint Warfighting and Readiness                                          9                    65                   74
Information Security and Privacy                                         3                     8                   11
Acquisition Processes/Contract Management                               15                    26                   41
Financial Management                                                    43                    18                   61
Health Care                                                              2                    11                   13
Other                                                                    1                    16                   17
 Total                                                                  73                   144                  217
For information on intelligence-related reports, including those issued by other Defense agencies, refer to the classified
annex to this report.

* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix B)




116
                                                                                             Semiannual Report to Congress
                                          D-2008-070 Audit of the               A-2008-0021-FFS Army
 Joint Warfighting                        Management of Noncombatant            Operational Plans for Contractor
   and Readiness                          Evacuation Operations within          Support on the Battlefield
                                          the U.S. Pacific Command              (11/28/2007)
                                          (CLASSIFIED) (03/21/08)
             DoD IG                                                             A-2008-0022-FFP Training
                                          D-2008-071 Audit of the               Ammunition, U.S. Army, Pacific
                                          Management of Noncombatant            (FOR OFFICIAL USE ONLY)
D-2008-024 Audit of the Inspection        Evacuation Operations in Japan        (11/30/2007)
Process of the Army Reset Program         (CLASSIFIED) (03/28/08)
for Equipment for Units Returning                                               A-2008-0023-ALO Base
from Operation Iraqi Freedom                Army Audit Agency                   Realignment and Closure 2005
(01/18/08)                                                                      Construction Requirements, Armed
                                                                                Forces Reserve Center, Red River
D-2008-026 Management of                  A-2008-0004-FFP Support Contract      Army Depot (12/05/2007)
the Iraq Security Forces Fund             for Operation Enduring Freedom-
in Southwest Asia -- Phase III            Philippines, U.S. Army, Pacific       A-2008-0024-ALO Base
(11/30/07)                                (FOR OFFICIAL USE ONLY)               Realignment and Closure 2005
                                          (10/17/2007)                          Construction Requirements, U.S.
D-2008-029 Request for and Use                                                  Army Reserve Northwest Regional
of Emergency Supplemental Funds           A-2008-0006-FFE Followup Audit        Readiness Sustainment Command,
for the Rapid Fielding Initiative         of Remediation at Aberdeen Proving    Fort McCoy (12/20/2007)
(12/05/07)                                Ground (10/22/2007)
                                                                                A-2008-0031-ALE Attestation
D-2008-033 Training for U.S.              A-2008-0007-FFE Range Munitions       Examination of Suggestion
Ground Forces at Army Maneuver            Data (10/30/2007)                     Number EUHD-07002M-R,
Combat Training Centers                                                         SINCGARS Radio Mount for M915
(12/28/07)                                A-2008-0008-ALR Logistics             (12/03/2007)
                                          Management Systems—Depots,
D-2008-039 DoD Support to                 U.S. Army Corpus Christi Army         A-2008-0032-ALM Followup Audit
NATO International Security               Depot (10/19/2007)                    of Sustainment Systems Technical
Assistance Force (FOR OFFICIAL                                                  Support (12/11/2007)
USE ONLY) (01/04/08)                      A-2008-0010-ALL Followup
                                          Audit of Internal Controls Over       A-2008-0034-FFF Followup Audit
D-2008-056 Report on Contractor           Cargo Container Payments,             of U.S. Army Reserve Readiness
Support to the Joint Improvised           Military Surface Deployment           Reporting (12/20/2007)
Explosive Device Defeat                   and Distribution Command
Organization in Afghanistan               (11/02/2007)                          A-2008-0035-ALM Depot-Level
(03/07/08)                                                                      Maintenance Workload Reporting—
                                          A-2008-0014-ALA Army’s                FY 06, Office of the Deputy Chief
D-2008-060 Audit of Potable               Operational Needs Statement           of Staff, G-4 (01/07/2008)
and Nonpotable Water in Iraq              Process, Office of the Deputy Chief
(03/07/08)                                of Staff, G-3/5/7 (11/13/2007)




                                                                                                                   117
Department of Defense Inspector General
A-2008-0038-ALO Base                  A-2008-0047-ALR Logistics          A-2008-0065-ALE Use of Role-
Realignment and Closure 2005          Management Systems—Depots,         Players at the Joint Multinational
Construction Requirements,            Rock Island Arsenal (02/01/2008)   Readiness Center, U.S. Army,
Army Reserve Southeast Regional                                          Europe and Seventh Army
Readiness Sustainment Command,        A-2008-0053-FFS Mobility           (FOR OFFICIAL USE ONLY)
Fort Jackson (01/09/2008)             Infrastructure Requirements        (02/26/2008)
                                      (FOR OFFICIAL USE ONLY)
A-2008-0039-ALO Base                  (02/06/2008)                     A-2008-0066-ALI Base
Realignment and Closure 2005                                           Realignment and Closure 2005
Construction Requirements,          A-2008-0054-ALI Base Realignment Construction Requirements,
Division Headquarters and           and Closure 2005 Construction      Division Headquarters, Fort Carson
Sustainment Brigade Headquarters,   Requirements, Armed Forces Reserve (02/13/2008)
Fort Riley (01/14/2008)             Center, Vancouver, Washington
                                    (02/04/2008)                       A-2008-0074-ALM Reset Metrics—
A-2008-0040-FFH Reserve                                                Procurement (02/27/2008)
Component Medical Readiness         A-2008-0055-ALI Base Realignment
Reporting, Army National Guard      and Closure 2005 Construction      A-2008-0075-ALL Contractor-
(01/16/2008)                        Requirements, Armed Forces Reserve Acquired Property, Audit of Logistics
                                    Center, Fort Chaffee (02/04/2008)  Civil Augmentation Program
A-2008-0041-ALL Asset Visibility in                                    Operations in Support of Operation
Support of Operation Iraqi Freedom A-2008-0058-ALM Benefits of         Iraqi Freedom (03/12/2008)
and Operation Enduring Freedom— Public-Private Partnerships, Deputy
Summary Report, Active Army and     Chief of Staff, G-4 (02/07/2008)   A-2008-0077-ALL Contract
Army Reserve Returning and Left                                        Administration Over Contracted
Behind Equipment (01/30/2008)       A-2008-0060-ALO Base               Dining Facility Operations, Audit
                                    Realignment and Closure 2005       of Logistics Civil Augmentation
A-2008-0043-ALE U.S. Army,          Construction Requirements, Armed Program Operations in Support
Europe and Seventh Army             Forces Reserve Center, Paducah,    of Operation Iraqi Freedom
Restructuring Plans (01/31/2008)    Kentucky (02/08/2008)              (03/20/2008)

A-2008-0044-FFS Housing for           A-2008-0062-FFH Reserve            A-2008-0078-ALO Base
Mobilized Soldiers, Indiana Army      Component Medical Readiness        Realignment and Closure 2005
National Guard (FOR OFFICIAL          Reporting, U.S. Army Reserve       Construction Requirements,
USE ONLY) (01/25/2008)                Medical Command (02/26/2008)       Infantry Brigade Combat Team
                                                                         Complex, Fort Knox (03/03/2008)
A-2008-0045-FFP Followup              A-2008-0063-ALI Base Realignment
Audit of Operational Project PEH      and Closure 2005 Construction      A-2008-0080-ALE Military
(Bridging), Eighth U.S. Army, Korea   Requirements, U.S. Army Reserve    Construction Requirements in
(01/30/2008)                          Center, Fort Hunter Liggett        Europe, U.S. Army Garrison,
                                      (02/12/2008)                       Ansbach (03/10/2008)
A-2008-0046-ALR Logistics
Management Systems—Depots,            A-2008-0064-ALI Base Realignment   A-2008-0081-FFD Followup Audit
Anniston Army Depot (02/01/2008)      and Closure 2005 Construction      of Security of Civil Works Water
                                      Requirements, Brigade Combat       Resources Infrastructure, U.S. Army
                                      Team, Fort Carson (02/13/2008)     Corps of Engineers (03/19/2008)


118
                                                                                   Semiannual Report to Congress
A-2008-0082-ALI Base Realignment          A-2008-0091-ALL Internal Controls       F-2008-0002-FC2000 Electronic
and Closure 2005 Construction             Over Contracted Dining Facility         Technical Orders (10/17/2007)
Requirements, Armed Forces Reserve        Operations, Audit of Logistics Civil
Center, Camp Bullis (03/11/2008)          Augmentation Program Operations         F-2008-0003-FC2000 C-130
                                          in Support of Operation Iraqi           Aircraft Depot Engine (T56) Repair
A-2008-0083-ALI Base Realignment          Freedom (03/31/2008)                    Requirements (11/16/2007)
and Closure 2005 Construction
Requirements, Armed Forces Reserve        A-2008-0094-ALE Roles and               F-2008-0004-FC2000 Exchange or
Center, Yakima Training Center            Responsibilities for Force Protection   Sale of Non-Excess Personal Property
(FOR OFFICIAL USE ONLY)                   in Europe (FOR OFFICIAL USE             for the Organic Depot Maintenance
(03/11/2008)                              ONLY) (03/21/2008)                      Activity Group (11/16/2007)

A-2008-0084-ALI Base Realignment          A-2008-0095-ALO Base                    F-2008-0005-FC2000 Predator
and Closure 2005 Construction             Realignment and Closure 2005            Engine Requirements (1/10/2008)
Requirements, Armed Forces Reserve        Construction Requirements, Armed
Center, Fort Lewis (03/11/2008)           Forces Reserve Center, Cedar            F-2008-0006-FC2000 Follow-
                                                                                  up Audit, Commodity Quality
                                          Rapids, Iowa (03/20/2008)
                                                                                  Deficiency Management
A-2008-0085-ALL Class III (Bulk
                                                                                  (2/19/2008)
and Retail) Fuel Operations in the         Naval Audit Service
Iraq Area of Operations, Audit
                                                                                  F-2008-0001-FC4000 File
of Logistics Civil Augmentation
                                                                                  Maintained Applications
Program Operations in Support             N2008-0008 Interim Report
                                                                                  (11/6/2007)
of Operation Iraqi Freedom                – Marine Corps Small Arms
(03/18/2008)                              (11/23/07)
                                                                                  F-2008-0002-FC4000 Base-Level
                                                                                  Condemnations (2/25/2008)
A-2008-0088-ALI Base Realignment          N2008-0009 Selected Reservist
and Closure 2005 Construction             Annual Training and Active Duty for
                                                                                  F-2008-0002-FD3000 Air Force
Requirements, Dental Clinic, Fort         Training (11/29/07)
                                                                                  Status of Resources and Training
Bliss (FOR OFFICIAL USE ONLY)                                                     System (1/10/2008)
(03/18/2008)                              N2008-0026 Navy Individual
                                          Augmentee Physical Requirements
                                                                                  F-2008-0003-FD3000 Pre-
A-2008-0089-ALI Base Realignment          for the Global War on Terrorism
                                                                                  Positioned Mobility Bags
and Closure 2005 Construction             (03/05/08)
                                                                                  (2/19/2008)
Requirements, Armed Forces Reserve
Center Addition, Kearney, Nebraska                 Air Force                      F-2008-0004-FD3000 Selected
(03/18/2008)                                     Audit Agency                     Aspects of Unit Type Code
                                                                                  Management (2/20/2008)
A-2008-0090-ALL Supply Activities
                                          F-2008-0001-FB4000 Readiness
(H Sites), Audit of Logistics Civil                                               F-2008-0001-FD4000 Upgrade
                                          Training for Deployable
Augmentation Program Operations           Communications (FOR OFFICIAL
                                                                                  Training Program (10/5/2007)
in Support of Operation Iraqi             USE ONLY) (1/10/2008)
Freedom (03/20/2008)
                                          F-2008-0001-FC2000 Uninstalled
                                          Engines and Trailers (10/5/2007)



                                                                                                                     119
Department of Defense Inspector General
                                         F-2008-0003-FB2000 Enterprise           D-2008-036 FY 2006 DoD
    Information                          Information Technology Data             Purchases Made Through the U.S.
 Security & Privacy                      Repository Effectiveness as Portfolio   Department of Veterans Affairs
                                         Management Tool (2/25/2008)             (12/20/07)

                                         F-2008-0002-FB4000 Information          D-2008-037 U.S. Army Corps
            DoD IG
                                         Transport System Management             of Engineers Administration of
                                         (1/31/2008)                             Emergency Temporary Roofing
D-2008-006 Report on the                                                         Repair Contracts (12/20/07)
Automated Time Attendance and            F-2008-0003-FB4000 Air
Production System’s Compliance           Force Portal Access and Rights          D-2008-038 The Army’s
with the Defense Business                Management (FOR OFFICIAL                Procurement and Conditional
Transformation System Certification      USE ONLY) (2/22/2008)                   Acceptance for Medium
Criteria (10/24/07)                                                              Tactical Vehicles (12/21/07)
                                         F-2008-0001-FD3000 Central
D-2008-031 Standard                      Command Air Forces Deployed             D-2008-048 Procuring
Accounting and Reporting System          Locations Cryptographic and             Noncompetitive Spare Parts Through
Compliance with Defense Business         Secured Communication Equipment         an Exclusive Distributor (FOR
Transformation System Certification      (11/1/2007)                             OFFICIAL USE ONLY) (02/06/08)
Criteria (12/10/07)
                                                                                 D-2008-050 Report on FY 2006
D-2008-047 Contingency                      Acquisition                          DoD Purchases Made Through the
Planning for DoD Mission Critical         Processes/ Con-                        Department of Treasury (02/11/08)
Information Systems (02/05/08)           tract Management
                                                                                 D-2008-051 Surface Deployment
 Naval Audit Service                                                             and Distribution Command
                                                     DoD IG                      Hawaii/Guam Shipping Agreement
                                                                                 (02/19/08)
N2008-0022 Management of
Privacy Act Information at the Navy      D-2008-007 Task Orders on the Air       D-2008-057 Contractor Past
Recruiting Command (02/14/08)            Force Network-Centric Solutions         Performance Information (02/29/08)
                                         Contract (10/24/07)
N2008-0023 Information Security          D-2008-022 FY 2006 DoD                  D-2008-062 Purchase Card
within the Marine Corps (02/20/08)       Purchases Made Through the              Controls at Headquarters, DoD
                                         National Institutes of Health           Dependants Schools-Europe
N2008-0028 Capabilities, Technical       (11/15/07)                              (03/10/08)
Specifications, and Costs for Selected
Navy Internet Portals (03/21/08)         D-2008-030 Management of                D-2008-064 Defense Hotline
                                         the Defense Security Assistance         Allegations Concerning the
         Air Force                       Management System Training              Biometric Identification Systems
       Audit Agency                      Module (12/06/07)                       for Access Omnibus Contract
                                                                                 (03/18/08)
                                         D-2008-032 Acquisition of the
F-2008-0002-FB2000 Web Content           Surface-Launched Advanced
Migration to the Global Combat           Medium-Range Air-to-Air Missile
Support Systems - Air Force              (12/06/07)
Framework (2/22/2008)
120
                                                                                          Semiannual Report to Congress
D-2008-066 FY 2006 and FY 2007            A-2008-0020-ALL Assessment of          A-2008-0100-FFH Attestation
DoD Purchases Made Through                Contracting Operations in Kuwait       Examination of External Contract
the Department of the Interior            (FOR OFFICIAL USE ONLY)                Services and Followup, Army
(03/19/08)                                (11/20/2007)                           and Air Force Exchange Service
                                                                                 (03/26/2008)
D-2008-067 Procurement Policy for         A-2008-0025-ALC Competitive
Body Armor (03/24/08)                     Acquisitions of Army Tactical Radios    Naval Audit Service
                                          (12/13/2007)

  Army Audit Agency                       A-2008-0026-ALA Science and            N2008-0012 Contract
                                          Technology, U.S. Army Aviation and     Administration Over the Service
                                          Missile Research, Development and      Contracts at Naval Facilities
                                          Engineering Center (12/13/2007)        Engineering Command Southwest
A-2008-0001-FFS Contractor                                                       (12/06/07)
Support at Mobilization Stations,         A-2008-0027-ALA Science and
Fort McCoy (10/10/2007)                   Technology, U.S. Army Armament         N2008-0016 Contract
                                          Research, Development and              Administration Over the Service
A-2008-0002-ALC Proper Use                Engineering Center (12/18/2007)        Contracts at Naval Air Station
of Non-DOD Contracts, Office                                                     Pensacola, FL (01/07/08)
the of Assistant Secretary of             A-2008-0028-ALA Science
Army (Acquisition, Logistics &            and Technology, U.S. Army              N2008-0019 Management of
Technology) and Office of Assistant       Communications-Electronics             Special Tooling and Special Test
Secretary of the Army (Financial          Research, Development and              Equipment at Naval Sea Systems
Management & Comptroller)                 Engineering Center (12/20/2007)        Command (01/24/08)
(10/11/2007)
                                          A-2008-0029-ALA Science and            N2008-0021 Contract
A-2008-0003-ALC Contract                  Technology, U.S. Army Corps of         Administration at Fleet and
Operations, White Sands Missile           Engineers, Engineer Research and       Industrial Supply Centers Norfolk
Range (11/08/2007)                        Development Center (12/19/2007)        and Supported Activities (02/05/08)

A-2008-0016-FFH External                  A-2008-0067-ALE Use of Public
Contract Services, Army and               Vouchers in Europe (02/14/2008)                Air Force
Air Force Exchange Service                                                             Audit Agency
(FOR OFFICIAL USE ONLY)                   A-2008-0079-FFI Information
(11/02/2007)                              Technology Purchasing Practices,       F-2008-0001-FB1000 Financial
                                          Fort Sill (03/20/2008)                 Management of the 844th
A-2008-0017-ALE Administration                                                   Communications Group
for Guard Services Contracts in           A-2008-0097-ALL Agreed-                Information Technology Services
Europe (FOR OFFICIAL USE                  Upon Procedures Attestation of         Contract (3/10/2008)
ONLY) (11/08/2007)                        the Methodology and Approach
                                          the Army Internal Task Force           F-2008-0001-FC1000 Management
A-2008-0019-ALA Accelerated               on Contracting Used to Assess          and Oversight of the Acquisition of
Commercial Off-the-Shelf                  Contracts U.S. Army Contracting        Services Process (10/1/2007)
Acquisitions, U.S. Army                   Command, Southwest Asia
Materiel Command, Fort Belvoir            - Kuwait Contracting Office            F-2008-0002-FC1000 Procurement
(11/28/2007)                              Awarded Between FY 03 and FY           of Contract Field Team Services
                                          06 (FOR OFFICIAL USE ONLY)             (11/13/2007)
                                          (03/31/2008)
                                                                                                                    121
Department of Defense Inspector General
F-2008-0003-FC1000 Government        D-2008-010 Audit of the Principal      D-2008-018 Endorsement of the
Fuel Card (Fleet Card) Program       Air Force General Fund Financial       Unqualified Opinion on the FY
(1/7/2008)                           Statements for Fiscal Year 2007        2007 Military Retirement Fund
                                     (11/08/07)                             Financial Statements (12/13/07)
F-2008-0001-FC3000 KC-135E
Engine Strut Remanufacture/Install   D-2008-011 Audit of the Principal      D-2008-019 Retirement Fund
Program (1/7/2008)                   Air Force Working Capital Fund         Financial Statements (11/08/07)
                                     Financial Statements for Fiscal Year
F-2008-0003-FD1000 Housing           2007 (11/08/07)                        D-2008-020 Independent Auditor’s
Requirements and Market Analysis                                            Report on the FY 2007 Army
(2/11/2008)                          D-2008-012 Distribution of Funds       Working Capital Fund (11/09/07)
                                     and the Validity of Obligations for
                                     the Management of the Afghanistan      D-2008-021 Independent Auditor’s
       Financial                     Security Forces Fund – Phase I         Report on the Army General Fund
      management                     (11/01/07)                             FY 2007 Basic Financial Statements
                                                                            (11/09/07)
                                     D-2008-013 Government Purchase
                                     Card Controls at DoD Schools in        D-2008-023 Independent Auditor’s
           DoD IG                    Japan (11/07/07)                       Report on the Department of
                                                                            Defense FY 2007 Financial
D-2008-001 Government Purchase       D-2008-014 Independent Auditor’s       Statements (11/12/07)
Card Controls at DoD Schools in      Report on the Department of
Korea (10/11/07)                     the Navy General Fund FY 2007          D-2008-025 Internal Controls
                                     Financial Statements (11/08/07)        over the Department of Defense
D-2008-002 DoD Salary Offset                                                Transit Subsidy Program within the
Program (10/09/07)                 D-2008-015 Audit of the                  National Capital Region (11/23/07)
                                   Department of the Navy Working
D-2008-003 Auditability Assessment Capital Fund Financial Statements        D-2008-027 Air Force Use of Global
of the Defense Intelligence Agency for the Fiscal Years Ending              War on Terrorism Supplemental
Fund Balance with Treasury and     September 30, 2007 and 2006              Funding Provided for Procurement
Appropriations Received (10/16/07) (11/08/07)                               and Research, Development, Test,
                                                                            and Evaluation (11/21/07)
D-2008-004 Government Purchase       D-2008-016 Independent Auditor’s
Card Controls at DoD Schools in      Report on the FY 2007 United           D-2008-028 Independent Auditor’s
Guam (10/24/07)                      States Marine Corps General Fund       Report on the Department of
                                     Financial Statements (11/08/07)        Defense FY 2007 Special-Purpose
D-2008-005 National Security                                                Financial Statements (11/17/07)
Agency Accounts Payable              D-2008-017 Independent Auditor’s
(CLASSIFIED) (10/23/07)              Report on the FY 2007 Department       D-2008-034 Financial Management
                                     of the Navy Working Capital Fund-      at the Defense Security Service
D-2008-008 Defense Finance and       Marine Corps Financial Statements      (01/03/08)
Accounting Service Columbus          (11/08/07)
Processes for Consolidating
and Compiling Other Defense
Organizations Financial Data
(10/30/07)

122
                                                                                     Semiannual Report to Congress
D-2008-035 Endorsement of the             D-2008-053 Defense Finance           D-2008-069 Controls Over Army
Qualified Opinions on the FY 2007         and Accounting Service Kansas        Working Capital Fund Inventory
and 2006 (Restated) DoD Medicare-         City Federal Managers’ Financial     Stored by Organizations Other Than
Eligible Retiree Health Care Fund         Integrity Act, Federal Financial     Defense Logistics Agency (03/25/08)
Financial Statements (12/14/07)           Management Improvement Act,
                                          and Federal Information Security     D-2008-072 Controls Over Army
D-2008-040 Defense Retiree and            Management Act Reporting for FY      Real Property Financial Reporting
Annuitant Pay System (01/04/08)           2005 (02/19/08)                      (03/28/08)

D-2008-041 Internal Controls Over         D-2008-054 Independent Auditor’s     D-2008-073 Cost, Oversight, and
the Management of the General             Report on the DoD FY 2007            Impact of Congressional Earmarks
Fund Enterprise Business System           Detailed Accounting Report of the    (03/31/08)
(01/14/08)                                Funds Obligated for National Drug
                                          Control Program Activities Report    D-2008-076 Independent Auditor’s
D-2008-042 Reporting of Contract          (02/21/08)                           Report on the Fiscal Year 2007 and
Financing Interim Payments on                                                  2006 U.S. Army Corps of Engineers,
the DoD Financial Statements              D-2008-055 Internal Controls over    Civil Works, Financial Statements
(01/18/08)                                FY 2007 Army Adjusting Journal       (03/31/2008)
                                          Vouchers Report (02/22/08)
D-2008-043 Identification and                                                    Army Audit Agency
Reporting of Improper Payments            D-2008-061 Controls Over Funds
- Refunds from DoD Contractors            Used by the Air Force and National
(01/28/08)                                Guard Bureau for the National Drug   A-2008-0011-ALO Notification of
                                          Control Program (03/07/08)           Noncompliance With Memorandum
D-2008-044 Adequacy of                                                         of Agreement, Bayonne Local
Procedures for Reconciling Fund           D-2008-063 Vendor Pay                Redevelopment Authority’s 2004,
Balance with Treasury at the              Disbursement Cycle, Air Force        2005, and 2006 Yearend Financial
National Geospatial-Intelligence          General Fund (03/12/08)              Statements for the No-Cost
Agency (01/31/08)                                                              Economic Development Conveyance
                                          D-2008-065 Endorsement of the        (10/31/2007)
D-2008-046 Defense Finance and            Management Letter on Internal
Accounting Service Compliance             Controls over Financial Reporting    A-2008-0015-FFM Independent
with the Debt Collection and              for the FY 2007 DoD Medicare-        Auditor’s Report for FY 07 American
Improvement Act of 1996 for the           Eligible Retiree Health Care         Red Cross Financial Statements
Department of the Navy (02/04/08)         Fund Financial Statements (FOR       (10/31/2007)
                                          OFFICIAL USE ONLY (03/18/08)
D-2008-049 Internals Controls                                                  A-2008-0030-FFM Followup Audit
Over Army Selective Reenlistment          D-2008-068 Endorsement of            of the Kuwait Defense Cooperation
Bonuses (02/11/08)                        the Deloitte and Touche LLP          Agreement (FOR OFFICIAL USE
                                          Management Letter on the FY 2007     ONLY) (12/06/2007)
D-2008-052 Disbursing Operations          Military Retirement Fund Financial
Directorate at Defense Finance and        Statements Opinion Audit Report
Accounting Service Indianapolis           (FOR OFFICIAL USE ONLY)
Operations (02/19/08)                     (03/21/08)




                                                                                                               123
Department of Defense Inspector General
A-2008-0037-FFM Military             N2008-0018 Verification of the
Personnel, Army FY 05 Subsistence    Department of the Navy’s Fiscal             Health Care
Charges (02/12/2008)                 Year 2006 Reporting of Depot
                                     Maintenance Workload Distribution
A-2008-0068-ALO Attestation          Between Public and Private Sectors
Examination of the Financial         (01/24/08)                                       DoD IG
Statements for the Periods Ended
June 30, 2004, 2005, and 2006        N2008-0020 Independent                D-2008-045 Controls Over the
for the Depot Redevelopment          Attestation – Agreed-Upon             TRICARE Overseas Healthcare
Corporation of Memphis and Shelby    Engagement of Marine Corps            Program (02/07/08)
County for No-Cost Economic          Personal Property Financial
Development Conveyance               Statement Information (01/30/08)      D-2008-059 Supplemental Funds
(02/14/2008)                                                               Used for Medical Support for the
                                     N2008-0025 Followup of                Global War on Terrorism (03/06/08)
A-2008-0069-ALO Attestation          Department of the Navy
Examination of the Financial         Government Commercial Purchase
Statements for the Periods Ended     Card Program Audits (03/05/08)          Army Audit Agency
September 30, 2003, 2004, 2005,
and 2006 for the Anniston-Calhoun                                          A-2008-0009-FFH Attestation
County Fort McClellan Joint Powers
                                             Air Force
                                                                           Examination of Army Suggestion
Authority No-Cost Economic                 Audit Agency                    Number NWCN05004M Under
Development Conveyance                                                     the Army Suggestion Program
(02/14/2008)                         F-2008-0001-FB2000                    (10/30/2007)
                                     Nonappropriated Fund
A-2008-0087-FFH                      Transformation System                 A-2008-0018-FFH Reconciliation
Nonappropriated Fund Fixed Asset     Implementation (Phase 1), Air Force   of Noncontrolled Drugs, Dunham
Valuations, Sierra Army Depot        Services Financial Management         U.S. Army Health Clinic (FOR
(03/17/2008)                         System Controls (10/31/2007)          OFFICIAL USE ONLY)
                                                                           (11/27/2007)
A-2008-0099-ALO Revenues             F-2008-0002-FC3000 Air Force
and Expenses for the 2006 Army       Major Range and Test Facility Base    A-2008-0059-FFH Medical
Birthday Ball (03/25/2008)           Customer Rate and Institutional       Services Account, Brooke Army
                                     Cost Management (1/31/2008)           Medical Center, Fort Sam Houston
                                                                           (FOR OFFICIAL USE ONLY)
 Naval Audit Service                 F-2008-0002-FD1000 Follow-up          (02/07/2008)
                                     Audit, Energy Management Program
N2008-0001 Verification              (12/26/2007)                          A-2008-0070-ALL Attestation of
of Financial Information                                                   the Independent Agreed-Upon
(CLASSIFIED) (10/05/07)              F-2008-0004-FD1000 K.I. Sawyer        Procedures to Eliminate Respondent
                                     Cooperative Agreement (2/11/2008)     Personal Data in Medical Surveys
N2008-0004 Controls Over                                                   Conducted in Iraq and Afghanistan
Shipbuilding and Conversion, Navy    F-2008-0002-FD4000 Air                (02/26/2008)
Funds Hurricane Relief Efforts       Education and Training Command
(10/29/07)                           Pilot Training Flying Hours
                                     (12/26/2007)



124
                                                                                    Semiannual Report to Congress
                                                                                N2008-0006 Budgeting and
 Naval Audit Service                       Army Audit Agency                    Execution of Selected Navy
                                                                                Environmental Projects (11/14/07)
N2008-0011 Department                     A-2008-0012-ALO Operations at
of the Navy Management of                 Yardley and Hall Dining Facilities,   N2008-0007 Fiscal Year 2005
Pharmaceuticals Ordering and              Fort Huachuca (FOR OFFICIAL           Implementation of the Federal
Returns Processes (12/04/07)              USE ONLY) (10/25/2007)                Managers’ Financial Integrity Act at
                                                                                Selected Naval Activities (11/23/07)
N2008-0013 Auditor General                A-2008-0033-FFD Program
Advisory Report – Corporate               Management to Restore and             N2008-0010 Defense Hotline
Governance of Department of the           Enhance the Southern Louisiana        Allegation of Juice Quality and
Navy Fisher Houses (12/07/07)             Hurricane Protection System,          Pricing in the U.S. Navy (12/03/07)
                                          U.S. Army Corps of Engineers,
         Air Force                        Mississippi Valley Division           N2008-0014 Selected Base Closure
                                          (12/17/2007)                          and Realignment Department of the
       Audit Agency                                                             Navy Military Construction Projects
                                          A-2008-0042-FFE Followup              Proposed for Fiscal Year 2009
F-2008-0001-FD1000                        Audit of Sponsor Contributions,       (12/19/07)
Environmental Cleanup at Closed           Central and South Florida Projects,
Installations (11/13/2007)                U.S. Army Corps of Engineers,         N2008-0015 Interim Report–
                                          Jacksonville District (01/17/2008)    Earned Value Management for the
F-2008-0001-FD2000 Patient                                                      Littoral Combat Ship “Freedom”
Movement Items (10/12/2007)               A-2008-0048-FFE Followup Audit        Contract N00024-03-C-2311
                                          of Permit Process for Central and     (01/07/08)
F-2008-0002-FD2000 Civilian               South Florida, U.S. Army Corps
Drug Testing Program (10/31/2007)         of Engineers, Jacksonville District   N2008-0017 Internal Controls Over
                                          (02/06/2008)                          Time and Attendance at the Naval
F-2008-0003-FD2000 Medical                                                      District Washington Public Safety
Encounter Coding (1/7/2008)               A-2008-0061-FFE Disposal              Law Enforcement/Security Program
                                          of Coastal Dredged Material,          (01/23/08)
F-2008-0004-FD2000 Dental Care            U.S. Army Corps of Engineers
Optimization (1/8/2008)                   (02/13/2008)                          N2008-0024 Followup Audit on
                                                                                “Safeguarding Department of the
                                                                                Navy Protected Health Information
             Other                         Naval Audit Service                  in Medical Automated Information
                                                                                Systems” (02/29/08)
                                          N2008-0002 Selected Department
                                          of the Navy Military Construction     N2008-0027 North Atlantic Treaty
             DoD IG                                                             Organization Seasparrow Financial
                                          Projects Proposed for Fiscal Year
                                          2009 (10/17/07)                       Accounts (03/18/08)
D-2008-058 Security Controls
Over Joint Strike Fighter Classified      N2008-0003 Management of
Technology (FOR OFFICIAL USE              Long-Term Federal Employees’
ONLY) (03/06/08)                          Compensation Act Cases (10/17/07)

                                          N2008-0005 Military and Civilian
                                          Suitability Screening (11/13/07)
                                                                                                                 125
Department of Defense Inspector General
                                               Appendix B

              DoD IG Audit Reports Issued Containing Quantifiable
                         Potential Monetary Benefits


                                                                              Potential Monetary Benefits
                         Audit Reports Issued                                 Disallowed     Funds Put to
                                                                                Costs 1
                                                                                               Better Use
D-2008-007 Task Orders on the Air Force Network-Centric Solutions
Contract (10/25/2007)                                                              N/A              $ 8,000,000
D-2008-026 Management of the Iraq Security Forces Funds in Southwest
Asia – Phase III (11/30/2007)                                                      N/A               $1,800,000
D-2008-041 Management of the General Fund Enterprise Business
System (1/14/2008)                                                                 N/A             $532,500,000
D-2008-045 Controls Over the TRICARE Overseas Healthcare Program
(2/07/2008)                                                                        N/A             $125,700,000
D-2008-048 Procuring Noncompetitive Spare Parts Through an Exclusive
Distributor (2/06/2008)                                                            N/A              $17,800,000
D-2008-050 Report on FY 2006 DoD Purchases Made Through the
Department of Treasury (2/11/2008)                                                 N/A               $3,900,000
D-2008-061 Controls Over Funds Used by the Air Force and National
Guard Bureau for the National Drug Control Program (3/07/2008)                     N/A               $7,100,507
Totals                                                                             N/A            $696,800,507
1
 There were no DoD IG audit reports during the period involving disallowed costs.
*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
5(a)(6) (See Appendix A).




126
                                                                                         Semiannual Report to Congress
                                                 Appendix C

          DECISION STATUS OF DOD IG ISSUED AUDIT REPORTS AND DOLLAR VALUE OF
            RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ($ in thousands)

                                  Status                                      Number                 Funds Put
                                                                                                   To Better Use 1
A.      For which no management decision had been made by the
        beginning of the reporting period.                                      38                    $38,331
B.	     Which were issued during the reporting period.                          74                    $689,780
        Subtotals (A+B)                                                         112                   $728,111
C.	     For which a management decision was made during the                     68                    $68,031
        reporting period.

       (i) 	     dollar value of recommendations that were agreed to
                 by management.
                 - based on proposed management action
                 - based on proposed legislative action
       (ii)	     dollar value of recommendations that were not agreed
                 to by management.                                                                    $68,0312
D.	      For which no management decision has been made by the
         end of the reporting period.                                            44                   $660,080
         Reports for which no management decision was made within
         6 months of issue (as of March 31, 2008).                               113                     $0


1. There were no DoD IG audit reports issued during the period involving questioned costs.
2. On these audit reports management has agreed to take the recommended actions, but the amount of agreed
   monetary benefits cannot be determined until those actions are completed.
3. DoD OIG Report Nos. D-2005-099, “Status of Selected DoD Policies on Information Technology Gover-
   nance”; D-2006-072, “Internal Controls Related to Department of Defense Real Property”; D-2006-107, “De-
   fense Departmental Reporting System and Related Financial Statement Compilation Process Controls Placed
   in Operation and Tests of Operating Effectiveness for the Period October 1, 2004, through March 31, 2005”;
   D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation”; D-2007-003, “Internal
   Controls over the Army General Fund, Note 3, “Fund Balance With Treasury,” Disclosures”; D 2007-065,
   “Controls Over the Prevalidation of DoD Commercial Payments”; D-2007-099, “Privacy Program and Privacy
   Impact Assessment”; D-2007-124, “Purchases Made Using the U.S. Joint Forces Command Limited Acquisition
   Authority”; D-2007-128, “Hotline Allegations Concerning the Defense Threat Reduction Agency Advisory and
   Assistance Services Contract Report”; D-2007-6004, “Defense Contract Management Agency Virginia’s Action
   on Incurred Cost Audits”; and D-2007-6009, “Actions on Reportable Contract Audit Reports by the Defense
   Contract Management Agency Northrop El Segundo Office,” had no management decision as of March 31,
   2008, but action to achieve a decision is in process.
* Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(8)(9) & (10).

                                                                                                                             127
Department of Defense Inspector General
                   STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                               Period ending March 31, 2008
                                      ($ in thousands)
                                                                   Funds Put
                               Status                       Number to Better
                                                                     Use 1
      DoD IG
        Action in Progress - Beginning of Period                                       258           $2,100
        Action Initiated - During Period                                                68           68,031
        Action Completed - During Period                                                73          128,514
        Action in Progress - End of Period                                             243           2,1002
      Military Departments
        Action in Progress - Beginning of Period                                       593         2,135,253
        Action Initiated - During Period                                               137          531,526
        Action Completed - During Period                                               165          471,615
        Action in Progress - End of Period                                             565         2,215,082

      1
        DoD IG audit reports opened for followup during the period involved “questioned costs” of $1
      million.
      2
        On certain reports (primarily from prior periods) with audit estimated monetary benefits of
      $1,398 million, we agreed that the resulting monetary benefits can only be estimated after comple-
      tion of management action, which is ongoing.


      * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
       Section 5(b)(2) & (3).




128
                                                                                             Semiannual Report to Congress
                                                    Appendix D

                                CONTRACT AUDIT REPORTS ISSUED1
                                           ($ in millions)
                              October 1, 2007 through March 31, 2008


                                              REPORTS          QUESTIONED FUNDS PUT TO
TYPE OF AUDIT             2
                                               ISSUED EXAMINED   COSTS3    BETTER USE
Incurred Costs, Ops Audits,
Special Audits                                    8,689            $73,161.5              $556.5                   $40.44
Forward Pricing Proposals                         4,049           $189,125.7                 ---                 $ 7,887.65
Cost Accounting Standards                          928                $53.9                 $1.8                      ---
Defective Pricing                                  141              (Note 6)               $11.7                      ---
Totals                                           13,807          $262,341.1               $570.0                 $7,928.0

                                                             Notes
1.    This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6 months
     ended March 31, 2008. This includes any audits that DCAA performed on a reimbursable basis for other govern-
     ment agencies and the associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both
     “Questioned Costs” and “Funds Put to Better Use” represent potential cost savings. Because of limited time between
     availability of management information system data and legislative reporting requirements, there is minimal opportunity
     for DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to change based on subsequent
     DCAA authentication.
2.   This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
     Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are
     reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition
     Regulation Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits,
     which evaluate a contractor’s operations and management practices to identify opportunities for increased efficiency and
     economy; and Special Audits, which include audits of terminations and claims. Forward Pricing Proposals – Audits of
     estimated future costs of proposed contract prices, proposed contract change orders, costs for redeterminable fixed-price
     contracts, and costs incurred but not yet covered by definitized contracts. Cost Accounting Standards – A review of a
     contractor’s cost impact statement required due to changes to disclosed practices, failure to consistently follow a disclosed
     or established cost accounting practice, or noncompliance with a CAS regulation. Defective Pricing – A review to deter-
     mine whether contracts are based on current, complete and accurate cost or pricing data (the Truth in Negotiations Act).
3.   Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws,
     and/or contractual terms.
4.   Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds
     could be used more effectively if management took action to implement cost reduction recommendations.
5.   Represents potential cost reductions that may be realized during contract negotiations.
6.   Defective pricing dollars examined are not reported because the original value was included in the audits associated with
     the original forward pricing proposals.



                                                                                                                                129
Department of Defense Inspector General
                                                                      Appendix E

                                           STATUS OF action on
                                significant post‑award contract audits1
                                 Period Ending March 31, 2008 ($ in millions)
                                                                  Number of
                                                                   Reports              Costs Questioned                  Disallowed Costs6

                  Open Reports:

                      Within Guidelines2                                   388                $     531.0                           N/A7

                     Overage, greater than 6
                     months3
                                                                           745                $ 1,673.9                              N/A

                     Overage, greater than 12
                     months4                                               438                $ 1,109.3                              N/A

                       In Litigation5                                      114                $ 1,566.6                              N/A

                  Total Open Reports                                   1,685                  $ 4,870.8                              N/A

                  Closed Reports                                           362                $     406.6                   $227.8 (56.0%)

                  All Reports                                          2,047                  $ 5,277.4                              N/A

1 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjustments, accounting and related internal

control systems, and noncompliances with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense Contract Management Agency, Defense

Intelligence Agency, Defense Logistics Agency, National Geospatial-Intelligence Agency, National Security Agency and TRICARE Management Activity. Contract audit

follow-up is reported in accordance with DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports.” Because of limited time between availability of the

data and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.

2 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Directive 7640.2 as described in footnotes 3 and 4 below.

3 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is resolved when the contracting officer determines

a course of action which is documented and approved in accordance with agency policy.

4 DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally, disposition is achieved when the

contractor implements audit recommendations, the contracting officer negotiates a settlement with the contractor, or the contracting officer issues a final decision pursuant

to the Disputes Clause.

5 Of the 114 reports in litigation, 18 are under criminal investigation.




130
                                                                                                                                     Semiannual Report to Congress
                                              Appendix F

             STATUS OF DOD IG REPORTS MORE THAN 12 MONTHS OLD
                         WITH FINAL ACTION PENDING
                             (As of March 31, 2008)

       Report Number            Description of Action           Reason Action Not       Principle Action Office
          Title/Date                                                 Completed
 94-062, Financial Status of Changes to policy guid-        Coordination issues within USD(C)
 Air Force Expired Year Ap- ance to include refunds         DoD continue to be ad-
 propriations, 3/18/1994     receivable arising from        dressed.
                             matters in litigation.
 96-156, Implementation      Implement system changes       Correction of this material DFAS
 of the DoD Plan to Match to correct weaknesses in          weakness involves a long-
 Disbursement to Obliga-     the automated prevalida-       term effort.
 tions Prior to Payment,     tion process.
 6/11/1996
 97-134, Disposal of         Change regulations to ad-      Action had to be turned        USD(AT&L), DLA
 Munitions List Items in     vance the identification of    over to a support contrac-
 the Possession of Defense munitions list items to the      tor for implementation.
 Contractors, 4/22/1997      early stages of the acquisi-
                             tion process.
 98-049, DoD Sensitive       Report is classified.          Extensive time required to     USD(I)
 Support Focal Point Sys-                                   revise guidance.
 tem (U), 1/20/1998
 98-052, Defense Logistics Issue accounting and bill-       Publication of the DoD         USD(C)
 Agency Past Due Fed-        ing policy for requisitions    FMR revision has been
 eral Accounts Receivable, under the Shelter for the        delayed pending the reso-
 1/22/1998                   Homeless Program. Chap-        lution of significant policy
                             ter 5 of DoD FMR Vol-          issues.
                             ume 11B is being revised
                             to implement the guid-
                             ance.
 98-063, Defense Logistics Revisions to DLA Instruc-        A decision was made to      DLA
 Agency Product Qual-        tion 4155.24, “Quality As-     combine the draft directive
 ity Deficiency Program,     surance Program for DLA        and instruction back into a
 2/5/1998                    Inventory Control Points.”     single regulation format.
 98-067, Access Reciprocity Standardize Special Access      Competing management        USD(I), Army, Navy, AF
 Between DoD Special Ac- Program (SAP) eligibility          priorities and extensive
 cess Programs, 2/10/1998 implementing criteria and         time to revise DoD publi-
                             develop a centralized SAP      cations. Lack of manage-
                             database.                      ment responsiveness.


                                                                                                              131
Department of Defense Inspector General
      Report Number           Description of Action         Reason Action Not        Principle Action Office
         Title/Date                                              Completed
98-116, Accounting for    Revise procedures for         Competing management       DFAS
Defense Logistics Agency  handling accounts receiv-     priorities.
Supply Management Re-     able. Implement standard
ceivables, 4/20/1998      general ledger in account-
                          ing systems.
98-124, Department of     Implement peer review            Competing manage-            USD(I)
Defense Adjudication Pro- program and establish            ment priorities, funding
gram, 4/27/1998           continuing education stan-       restraints and extended
                          dards and a program for          time needed to coordinate
                          the professional certifica-      and issue DoD policy.
                          tion for adjudicators.           Developing new testing
                                                           procedures for certification
                                                           program. Lack of manage-
                                                           ment responsiveness.
99-159, Interservice Avail- Revise Joint Service Regu- Delays have been experi-         Army
ability of Multiservice     lation to require consistent enced in coordinating and
Used Items, 5/14/1999       item management wher-          issuing policy.
                            ever economical and safe.
                            Services provide training
                            on disposal authority for
                            multi-service used items
                            and requirements related
                            to excess assets quantities.
D-2000-111, Security        Establish timeframes to        Corrective action delayed USD(I), DSS
Clearance Investigative     expedite investigative         by the transfer of the per-
Priorities, 4/5/2000        priorities.                    sonnel security investiga-
                                                           tive function from DSS to
                                                           OPM. Awaiting funding
                                                           for new electronic capabil-
                                                           ity and issuance of policy
                                                           guidance. Lack of man-
                                                           agement responsiveness.
D-2000-134, Tracking Se- The current database will         Extensive time/resources     DSS
curity Clearance Requests, be modified to retain all       needed to modify an
5/30/2000                   pertinent historical infor- automated system. Im-
                            mation (including dates/       pacted by transformation
                            times for every occurrence of the personnel security
                            -- e.g., deletions, case type, program. Lack of manage-
                            changes, cancellations,        ment responsiveness.
                            duplicates, conversions,
                            reinstatements, etc.)



132
                                                                                    Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not      Principle Action Office
          Title/Date                                               Completed
 D-2000-177, Revalua-      USD(C) evaluating policy        Delays in coordinating and USD(C)
 tion of Inventory for the and systems changes to          issuing policy.
 FY 1999 Department of     implement and support a
 the Navy Working Capital  latest acquisition cost valu-
 Fund Financial Statements,ation method and a direct
 8/18/2000                 cost historical valuation
                           method. These would be
                           long-term solutions for
                           improving the financial
                           presentation of net inven-
                           tory.
 D-2001-018, Manage-       Army assumed respon-            Coordination and staffing   Army
 ment and Oversight of the sibility to update Joint        issues continue.
 DoD Weather Program,      Instruction AR 115-10/
 12/14/2000                AFI 15-157, to require
                           coordination of meteo-
                           rological, oceanographic,
                           and space weather require-
                           ments across all Military
                           Departments to promote
                           interoperability and avoid
                           duplication.
 D-2001-037, Collection    Develop, test and deploy      Testing demonstrated          ASD(HA)
 and Reporting of Patient  Patient Safety Reporting      selected system was not
 Safety Data Within the    Program.                      ready for initial deploy-
 Military Health System,                                 ment. Additional time
 1/29/2001                                               required to obtain opera-
                                                         tional capabilities.
 D-2001-065, DoD Ad-        Identify and process addi- Extensive time required         DSS, USD(I)
 judication of Contractor   tional adjudicative resourc- to update DoD guidance.
 Security Clearances Grant- es for Defense Industrial    Lack of management re-
 ed by the Defense Security Security Clearance Office sponsiveness.
 Service, 2/28/2001         (DISCO). Establishment
                            of continuing education
                            standards to facilitate the
                            certification of profes-
                            sional adjudicators. Issue
                            guidance on professional
                            certification and continu-
                            ous training program for
                            all adjudicators.



                                                                                                             133
Department of Defense Inspector General
     Report Number             Description of Action           Reason Action Not        Principle Action Office
        Title/Date                                                 Completed
D-2001-081, Financial      Modify the Washington           Extensive time required for WHS
Reporting at the Washing-  Headquarters Services           system changes.
ton Headquarters Services, Allotment Accounting Sys-
3/15/2001                  tem to correctly post prior
                           period adjustments. Also,
                           develop query interfaces
                           for each general ledger ac-
                           count that can be used to
                           research detailed transac-
                           tions supporting account
                           balances.
D-2001-099, Use of         Modify the Financial            Extensive time required     USD(C)
Contract Authority for     Management Regulation,          for changes to financial
Distribution Depots by the Volume 11B, to include          policies.
Defense Logistics Agency, procedures that require
4/16/2001                  that all use of contract
                           authority is adequately
                           posted and liquidated in
                           the DoD working capital
                           fund accounting records at
                           the activity group level.
D-2001-124, U.S. Special Report is classified.             Extensive time required for JS
Operations Command Use                                     coordination and publica-
of Alternative or Compen-                                  tion of DoD document.
satory Control Measures                                    Awaiting copy of finalized
(U), 5/18/2001                                             documents. Lack of man-
                                                           agement responsiveness.
D-2001-135, Prevalida-       Develop cost-effective        Correction of this material USD(AT&L)
tion of Intergovernmental    automated methods to          weakness involves a long-
Transactions, 6/6/2001       expand prevalidation.         term effort.
D-2001-141, Allegations      Amend DoD 5200.2-R            Delays continue in prepa- USD(I)
to the Defense Hotline       to address security inves-    ration and coordination of
on the Defense Security      tigation requirements for     DoD guidance.
Assistance Management        foreign national contractor
System, 6/19/2001            employees.
D-2001-148, Automated        Issue policy to address       Rewriting of the chapters   ASD(NII), USD(C)
Transportation Payments,     information assurance re-     for formal coordination
6/22/2001                    quirements for commercial     and approval has delayed
                             automated processes.          issuing and implementing
                                                           policy.




134
                                                                                        Semiannual Report to Congress
       Report Number            Description of Action          Reason Action Not     Principle Action Office
          Title/Date                                               Completed
 D-2001-153, Pentagon        Develop processes to iden-    Implementation has been WHS
 Reservation Maintenance tify the appropriate con-         delayed by higher manage-
 Revolving Fund, 7/2/2001 struction costs to be used       ment priorities.
                             in transferring completed
                             projects from the construc-
                             tion in progress account to
                             the real property accounts.
 D-2001-158, Compila-        Management will establish     Implementation has been DFAS
 tion of the FY 2000 Army an action plan to meet           delayed by higher manage-
 General Fund Financial      revised requirements for      ment priorities.
 Statements at the Defense reconciling suspense ac-
 Finance and Accounting      counts.
 Service Indianapolis (Sus-
 taining Forces), 7/13/2001
 D-2001-163, Accounting Revise FMR, Volume                 Publication of the DoD       USD(C)
 Entries Made in Compil- 11B, Chapter 5 to reflect         FMR revisions has been
 ing the FY 2000 Financial changes to inventory valu-      delayed due to significant
 Statements of the Working ation and reporting; and        policy issues.
 Capital Funds of the Air    revise DoD FMR, Volume
 Force and Other Defense 4, Chapter 3 to require
 Organizations, 7/26/2001 the recoding of accounts
                             receivable for credits
                             due when DoD working
                             capital fund supply activi-
                             ties return inventory items
                             that do not conform to
                             the purchase agreement or
                             contract.
 D-2001-170, U.S. Trans- Develop system changes to         Implementation has been TRANSCOM
 portation Command’s Re- differentiate among US-           delayed by higher manage-
 porting of Property, Plant, TRANSCOM, Air Mobil-          ment priorities.
 and Equipment Assets on ity Command (AMC),
 the FY 2000 DoD Agency- and Defense Courier
 wide Financial Statements, Service (DCS) assets. Cre-
 8/3/2001                    ate electronic interfaces
                             between the logistics and
                             the accounting systems for
                             transferring data.




                                                                                                           135
Department of Defense Inspector General
      Report Number           Description of Action          Reason Action Not     Principle Action Office
        Title/Date                                               Completed
D-2002-004, Import        Revise USFK Regulation        USTRANCOM awarded a USFK
Processing of DoD Cargo   55-72 to update require-      single world-wide contract
Arriving in the Republic of
                          ments and implement a         for a single customs pro-
Korea, 10/4/2001          cost-efficient system for     cess automation system.
                          the automated processing      Awaiting system imple-
                          of customs forms using        mentation.
                          an electronic data inter-
                          change.
D-2002-008, Controls      Improve guidance on           Delays in coordinating and USD(C)
Over the Computerized     criteria for proper and ac-   issuing policy.
Accounts Payable System   curate receipt and invoice
(CAPS) at Defense Finance documentation; improve
and Accounting Service    organizational structures
Kansas City (DFAS-KC), to provide better internal
10/19/2002                controls.
D-2002-010, Armed         Establish a plan, controls,   Long-term corrective ac-   Army, AF, ASD(HA)
Services Blood Program    assessment requirements       tion on schedule.
Defense Blood Standard    and training related to the
System, 10/22/2001        Defense Blood Standard
                          System (DBSS) upgrade.
                          Also, establish procedures
                          to ensure effective de-
                          ployment of those DBSS
                          upgrades.
D-2002-024, Navy Fleet    Report is classified.         Corrective actions are de- Navy, PACOM
Hospital Requirements                                   layed by changing require-
(U), 12/12/2001                                         ments.
D-2002-056, Controls      Revise the Financial          Delays in coordinating and USD(C)
Over Vendor Payments      Management Regulation         issuing policy.
Made for the Army and     to incorporate the require-
Defense Agencies Using    ments of 5 CFR 1315.
the Computerized Ac-
counting Payable System
(CAPS), 3/6/2002




136
                                                                                    Semiannual Report to Congress
      Report Number                Description of Action     Reason Action Not         Principle Action Office
         Title/Date                                               Completed
 D-2002-073, Financial       Use transactional data      Slow system development      DFAS
 Management Ending           from a centralized database process.
 Balance Adjustments to      to populate general ledger
 General Ledger Data for     accounts in the Defense
 the Army General Fund,      Departmental Reporting
 3/27/2002                   System (DDRS) Budget-
                             ary and continue efforts to
                             analyze and correct causes
                             for current adjustments;
                             Use transactional data to
                             generate a general ledger
                             data file for DDRS Bud-
                             getary.
 D-2002-075, Controls        Strengthen controls to      Corrective action requires   USD(AT&L)
 Over the DoD Purchase       modify contract with        long-term development of
 Card Program, 3/29/2002 banks to prevent accounts risk-assessment tools.
                             from being reopened after
                             notification to close, and
                             provide reports on over-
                             sight reviews.
 D-2002-076, Funding In- Revise Financial Manage- Delays in coordinating and          USD(C)
 voices to Expedite the Clo- ment Regulation, Chapter issuing policy.
 sure of Contracts Before    10, Appendix B, number
 Transitioning to A New      7, “Accounting Require-
 DoD Payment System,         ments for Expired and
 3/29/2002                   Closed Accounts, “ to re-
                             quire that the DoD activ-
                             ity to which a program has
                             transferred be responsible
                             for providing current-year
                             funding.
 D-2002-091, Accountabil- Comply with guidance for Lack of management re-             Army
 ity and Control of Mate-    storage of maintenance      sponsiveness.
 riel at the Corpus Christi  materiel and the prepara-
 Army Depot, 5/21/2002       tion and submission of
                             management reports for
                             review; perform annual
                             physical inventory and
                             quarterly reviews of mate-
                             riel.




                                                                                                             137
Department of Defense Inspector General
       Report Number           Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                 Completed
D-2002-117, Review of       Report is classified.          Competing management          DIA
FY 2001 Financial State-                                   priorities.
ment for the Defense
Intelligence Agency (U),
6/25/2002
D-2002-122, Environ-        Develop a more detailed        Extensive time required to USD(P&R)
mental Community            DoD instruction on             develop and coordinate the
Involvement Program at      Sustainable Ranges Out-        new DoD Instruction.
Test and Training Ranges,   reach. Continue work on
6/28/2002                   implementation of the new
                            Directive and development
                            of the new instruction.
D-2002-140, Measure-        Establish and implement        Delays were caused by         Army, Navy, AF, WHS
ment of Water Usage         procedures to verify that      installation and program
by DoD Components           the DCWASA routinely           compatibility issues, other
Serviced by the DC          inspects and reports results   technical difficulties, and
Water and Sewer Service,    of inspections for DoD-        contract terminations.
8/20/2002                   owned water meters;
                            develop and implement
                            effective controls and pro-
                            cedures to verify that the
                            DCWASA accurately reads
                            water meters; establish and
                            implement a maintenance
                            program.
D-2002-153, Reprocessed     Services issue SUD guid-       Significant time required     Army
Medical Single-Use De-      ance (based on recently        to develop Service-level
vices in DoD, 9/30/2002     reissued ASD (HA) guid-        guidance.
                            ance) on the reuse of
                            single-use devices (SUD).
D-2003-001, DoD Inte-       Develop integrated natu-       The remaining Army plan       Army
grated Natural Resource     ral resource management        is on hold pending the
Management Plans,           plans for military instal-     resolution of an internal
10/1/2002                   lations and coordinate         disagreement within the
                            the plans with the other       U.S. Fish and Wildlife
                            Federal and State agencies     Service.
                            involved in the process.




138
                                                                                          Semiannual Report to Congress
       Report Number               Description of Action      Reason Action Not       Principle Action Office
          Title/Date                                             Completed
 D-2003-018, Validity of   Establish procedures to       Action is being taken by    DFAS
 Registration in the Cen-  withhold payments to con- management to implement
 tral Contractor Registra- tractors and vendors until a manual, rather than an
 tion (CCR) Database,      they are properly registered automated, solution.
 10/30/2002                with a valid Tax Identifica-
                           tion Number in the CCR
                           database.
 D-2003-021, Export        Report is confidential.       Extensive time required to USD(P)
 Controls Over Biological                                coordinate and issue policy
 Agents (U), 11/12/2002                                  guidance.
 D-2003-030, Financial     Revise DoD FMR to allow Publication of the DoD            USD(C)
 Reporting of Deferred     the Air Force to present      FMR revisions has been
 Maintenance Information all material categories of      delayed due to significant
 on Air Force Weapons      deferred maintenance          policy changes resulting
 Systems for FY 2002,      as major asset classes in     from OMB A-136 revi-
 11/27/2002                accordance with Federal       sions.
                           accounting requirements.
 D-2003-034, Adjustments Revise the Financial            Delays in coordinating and USD(C)
 to the Intergovernmen-    Management Regulation         issuing policy.
 tal Payments Account,     to specify the documenta-
 12/10/2002                tion required to support
                           adjustments from account
                           F3885, ‘Undistributed
                           Intergovernmental Pay-
                           ments,’ to closed appro-
                           priations.
 D-2003-056, Public/Pri-   AT&L is working with          Corrective actions are on   USD(AT&L)
 vate Competition for the  OMB to address any over- schedule.
 Defense Finance and Ac-   head ambiguities in OMB
 counting Service Military Circular A-76, proposing
 Retired and Annuitant Pay additional guidance to
 Functions, 3/21/2003      clarify costing policies, and
                           providing definitions for
                           direct and indirect costs as
                           well as a revised definition
                           for overhead.




                                                                                                            139
Department of Defense Inspector General
      Report Number            Description of Action        Reason Action Not       Principle Action Office
         Title/Date                                             Completed
D-2003-067, Recoveries       Revise the Financial Man- Extensive time required      USD(C), DFAS
of Prior Year Obligations,   agement Regulation to be  for changes to financial
3/21/2003                    consistent with recovery  policies.
                             reporting guidance issued
                             by the OMB and the De-
                             partment of the Treasury.
                             Program DFAS account-
                             ing systems to properly
                             capture, record, and report
                             recoveries of prior year
                             obligations.
D-2003-071, Acquisition      Report is classified.       Guidance is in second      MC
of Marine Corps Aircraft                                 staffing. ECD is Dec 31,
Simulators (U), 4/2/2003                                 2007.
D-2003-072, DoD              AF is updating guidance     Publication of AF Instruc- AF
Compliance with the          to be consistent with DoD tion was delayed to include
Uniformed and Overseas       level guidance.             pending revision of DoD
Citizens Absentee Voting                                 guidance.
Act, 3/31/2003
D-2003-073, Reliability    Report is classified.       Corrective actions are on   NGA
of the FY 2002 National                                schedule.
Imagery and Mapping
Agency Financial State-
ments and Adequacy of
Related Procedures and
Controls (U), 4/2/2003
D-2003-074, Reliability of Report is classified.       Competing management        DIA
the FY 2002 Defense Intel-                             priorities.
ligence Agency Financial
Statements and Adequacy
of Related Procedures and
Controls (U), 4/7/2003




140
                                                                                   Semiannual Report to Congress
      Report Number                Description of Action      Reason Action Not       Principle Action Office
         Title/Date                                              Completed
 D-2003-095, Accounting     Develop business practices Long-term process to          DFAS, Navy
 for Reimbursable Work      for Navy fund administra- develop and implement
 Orders at Defense Finance  tors to properly account     improved business prac-
 and Accounting Service     for reimbursable work        tices, methodologies, and
 Charleston, 6/4/2003       orders. Develop a method- guidance.
                            ology and provide guid-
                            ance to prevent Navy fund
                            administrators from over
                            obligating at the segment
                            level. Establish edit checks
                            that align with the business
                            practices of the Navy.
 D-2003-105, Management Report is FOUO.                  Lack of management re-      USD(AT&L)
 of Developmental and                                    sponsiveness.
 Operational Test Waiv-
 ers for Defense System,
 6/20/2003
 D-2003-106, Administra- The Director, Defense           Corrective actions are on   USD(AT&L)
 tion of Performance-Based Procurement and Acquisi- schedule. Normal time re-
 Payments Made to Defense tion Policy, will conduct an quired to update the FAR
 Contractors, 6/25/2003     assessment of the benefits and DFARS.
                            of expanded performance-
                            based payments implemen-
                            tation. It will address con-
                            tracting officer compliance
                            with FAR Part 32.10, and
                            whether any changes are
                            needed to those policies,
                            the Performance-Based
                            Payments User’s Guide, or
                            training resources.
 D-2003-110, Information System enhancements to          Extended time needed to     USD(P&R)
 Technology Management: correct deficiencies are in      develop system enhance-
 Defense Civilian Personnel process.                     ments.
 Data System Functional-
 ity and User Satisfaction,
 7/27/2003




                                                                                                            141
Department of Defense Inspector General
       Report Number           Description of Action           Reason Action Not       Principle Action Office
         Title/Date                                                 Completed
D-2003-115, Allegations      Air Force will prepare an      Lack of management re-   AF, DCMA
Concerning the Admin-        acquisition strategy ad-       sponsiveness.
istration of Contracts for   dressing logistics support
Electronic Flight Instru-    for the 550-series Electron-
ments, 6/30/2003             ic Flight Instruments (EFI)
                             that address sustainment
                             and spare parts. DCMA
                             (at Lockheed Martin, Fort
                             Worth, TX) will perform
                             a Contractor Purchasing
                             System Review (CPSR).
D-2003-122, Financial        Issue guidance for un-         Guidance delayed due to    USD(C)
Management: Closing          reconcilable contracts;        re-writing and coordina-
the Army’s 1985 M1a1         update the DoD FMR             tion issues, and competing
Tank Contract (Contract      to specifically address the    priorities.
DAAE07-85-C-A043),           requirement to maintain
8/13/2003                    vouchers and supporting
                             documentation to facilitate
                             complete contract recon-
                             ciliations.
D-2003-128, The Chemi-       As directed by                 Lack of management re-   USD(AT&L), Army
cal Demilitarization Pro-    USD(AT&L), Army de-            sponsiveness.
gram: Increased Costs for    velop and prioritize a plan
Stockpile and Non-Stock-     for the disposal of buried
pile Chemical Disposal       chemical warfare materiel.
Programs, 9/4/2003           Upon receipt of the Army
                             plan, USD(AT&L) deter-
                             mine which DoD compo-
                             nent should be assigned to
                             implement the plan.




142
                                                                                      Semiannual Report to Congress
      Report Number                Description of Action         Reason Action Not        Principle Action Office
         Title/Date                                                  Completed
 D-2003-133, Report             Emphasize the importance Extensive time required         USD(C), DFAS
 on Controls Over DoD           of controls over the use of for changes to financial
 Closed Appropriations,         closed appropriations and policies.
 9/15/2003                      monitor compliance with
                                applicable laws and regula-
                                tions. DFAS establish spe-
                                cific standard procedures
                                to ensure that accounting
                                personnel approve only
                                legal and proper adjust-
                                ments to closed appropria-
                                tions, validate the canceled
                                balances and report any
                                potential Antideficiency
                                Act violations.
 D-2003-134, System             Report is FOUO.              Lack of management re-      Army
 Security of the Army                                        sponsiveness.
 Corps of Engineers Finan-
 cial Management System,
 9/15/2003
 D-2004-002, Acquisition:       Review conducted and        Normal time to write,        WHS
 Selected Purchase Card         new standard operating      coordinate, approve, and
 Transactions at Washing-       procedures developed and implement guidance.
 ton Headquarters Services      implemented. Administra-
 and Civilian Personnel         tive instructions are being
 Management Service,            rewritten.
 10/16/2003
 04-INTEL-02, DoD            Disparities between the        Extensive time required to   USD(I)
 Security Clearance Adjudi-  contractor and military/       update DoD Regulations.
 cation and Appeals Process  civilian personnel adju-       Lack of management re-
 (U), 12/12/2003             dicative process will be       sponsiveness.
                             eliminated with the pend-
                             ing revision to the DoD
                             Regulation 5200.2-R.
 D-2004-007, Force Protec- Report is classified.            JS, AF, Navy, USMC,          Army, AF, PACOM, MC
 tion in the Pacific Theater                                PACOM are in process of
 (U), 10/14/2003                                            updating their guidance
                                                            based on DoD guidance
                                                            published on 10/30/06.
                                                            Army delay attributed
                                                            to lack of management
                                                            responsiveness.


                                                                                                                143
Department of Defense Inspector General
      Report Number             Description of Action       Reason Action Not        Principle Action Office
         Title/Date                                             Completed
04-INTEL-07, Audit of        Report is classified.      Long term corrective ac-    ATSD(NCB)
the Physical Security of                                tions on schedule. Esti-
Nuclear Weapons (U),                                    mated completion date of
5/3/2004                                                January 2008.
D-2004-008, Implemen-     Update Army Regulations       Coordination on issuance    Army
tation of Interoperability70-1and 71-9 to require       of numerous related guid-
and Information Assur-    combat developers to          ance.
ance Policies for Acquisi-identify interoperability
tion of Army Systems,     and supportability require-
10/15/2003                ments in requirements
                          documents and update the
                          requirements throughout
                          the life of the systems, as
                          necessary, in accordance
                          with DoD Directive
                          4630.5 and to require pro-
                          gram managers to obtain
                          the Joint Staff J6 certifica-
                          tions for interoperability in
                          accordance with Chairman
                          of the Joint Chiefs of Staff
                          Instruction 6212.01B.
D-2004-012, Sole-Source Report is FOUO.                 Corrective actions are      Army
Spare Parts Procured From                               on schedule; actions are
an Exclusive Distributor,                               complete on all but 1 of
10/16/2003                                              the report’s 8 recommen-
                                                        dations.
D-2004-020, Allegations   Implement a formal acqui- Delay in obtaining legal        NGB
Concerning Impropri-      sition policy that integrates approval.
eties in Awarding Na-     the existing roles of various
tional Guard Contracts,   Army National Guard and
11/18/2003                Federal communication
                          and IT groups. Develop a
                          process with measurable IT
                          standards and defined busi-
                          ness processes. Coordinate
                          the requirements for help
                          desk support to eliminate
                          duplicate contract costs.




144
                                                                                    Semiannual Report to Congress
       Report Number               Description of Action         Reason Action Not        Principle Action Office
          Title/Date                                                 Completed
 D-2004-034, Environ-           Clarify requirements for    The Corps of Engineers       Army
 ment: Defense Hotline          internal assessments.       guidance update was on
 Allegations Regarding the                                  hold pending the revision
 Environmental Compli-                                      of a higher level Army
 ance Assessment Process at                                 regulation that went into
 U.S. Army Corps of En-                                     effect on 9/28/07.
 gineers, Portland District,
 12/4/2003
 D-2004-039, Coop-         Negotiate a transparency         Significant time is required USD(P)
 erative Threat Reduction  agreement that will al-          for negotiations with sov-
 Construction Projects,    low US verification of the       ereign nations.
 12/18/2003                quantity and quality of the
                           material stored in the fissile
                           material storage facility.
 D-2004-041, The Security Report is FOUO.                   Lack of management re-       Army
 of the Army Corps of En-                                   sponsiveness.
 gineers Enterprise Infra-
 structure Services Wide-
 Area Network, 12/26/2003
 D-2004-047, Implementa- Program Managers will              Extensive time required to   Army
 tion of the DoD Manage- be able to store acquisi-          update DoD Instruction
 ment Control Program for tion documents in Virtual         5000.2.
 Army Category II and III Insight (VIS) so the Mile-
 Programs, 1/23/2004       stone Decision Authority
                           can review document sta-
                           tus from development to
                           document approval. Army
                           Regulations will be updat-
                           ed to reflect new reporting
                           procedures.
 D-2004-050, Management Revise DoD guidance to              Extensive time required to DAM
 Structure of the Coop-    clarify the roles of respon-     coordinate and issue guid-
 erative Threat Reduction  sible offices for the Coop-      ance.
 Program, 2/5/2004         erative Threat Reduction
                           Program.




                                                                                                                145
Department of Defense Inspector General
     Report Number             Description of Action         Reason Action Not       Principle Action Office
        Title/Date                                               Completed
D-2004-053, Defense         Develop detailed guidance    Extensive time required to WHS
Threat Reduction Agen-      on what should be con-       coordinate and issue guid-
cy Relocation Costs,        sidered when determining     ance.
2/19/2004                   whether the relocation cost
                            cap in section 8020 of the
                            FY 2004 Appropriation
                            Act has been, or will be,
                            exceeded.
D-2004-055, DoD Source Develop guidance for the Lack of management re-                 DLA
Approval Process for Ser-   reevaluation of critical ap- sponsiveness.
vice & Sales, Inc., a Small plication item sources.
Business Manufacturer,
2/25/2004
D-2004-059, Financial       Determine the appropriate Long-term corrective ac-         Army
Management: Assets          useful life for all USACE- tion on schedule.
Depreciation Reported on owned assets. Request
the U.S. Army Corps of      a waiver from the DoD
Engineers FY 2002 Finan- FMR based on USACE-
cial Statements, 3/16/2004 unique mission require-
                            ments.
D-2004-061, Export Con- Expand DoD guidance              Extensive time required to    USD(P), USD(AT&L)
trols: Export Controlled    to encompass all export-     coordinate and issue policy
Technology at Contractor, controlled technology and guidance.
University and Federally    enumerate the roles and
Funded Research and De- duties of responsible per-
velopment Center Facili-    sonnel. Ensure incorpora-
ties, 3/25/2004             tion of appropriate export
                            compliance clauses into
                            solicitations and contracts.
D-2004-063, Financial       Improve the financial ac-    Implementation has been       Army
Management: Controls        countability  for  buildings delayed by higher manage-
Over U.S. Army Corps of and other structures owned ment priorities.
Engineers (USACE) Build- by USACE.
ings and Other Structures,
3/26/2004




146
                                                                                       Semiannual Report to Congress
     Report Number                 Description of Action            Reason Action Not       Principle Action Office
         Title/Date                                                     Completed
D-2004-065, DoD Imple-          Revise Voting Assistance        Publication of AF Instruc- AF
mentation of the Vot-           Program guidance to             tion was delayed to include
ing Assistance Program,         reflect recent changes to       pending revision of DoD
3/31/2004                       DoD guidance. Improve           guidance.
                                monitoring of voting assis-
                                tance program and training
                                of service members and
                                spouses.
D-2004-074, Reliability         The Army and the Air            Long-term corrective          Army, AF
of the Automated Cost           Force agreed to jointly         action on schedule. The
Estimating Integrated           verify, validate, and accred-   Test Plan continues to be
Tools Software Model,           it the next major release of    refined as new features are
4/23/2004                       software.                       introduced and existing
                                                                features are improved.
D-2004-079, Reliability         Report is classified.           Competing management          DIA
of the Defense Intelligence                                     priorities.
Agency FY 2003 Financial
Statements (U), 4/29/2004
D-2004-080, Environ-            Implement guidance to           The update to DoD guid-       USD(AT&L)
mental Liabilities Required     improve the development,        ance has been delayed due
to be Reported on An-           recording, and reporting of     to several issues unrelated
nual Financial Statements,      environmental liabilities.      to Environmental Liabili-
5/5/2004                        Establish a quality control     ties.
                                program to assess environ-
                                mental liability processes
                                and controls. Issue guid-
                                ance requiring that future
                                environmental liability
                                electronic cost estimating
                                system efforts comply with
                                Defense Environmental
                                Restoration Program Man-
                                agement Guidance.




                                                                                                                      147
Department of Defense Inspector General
      Report Number            Description of Action       Reason Action Not       Principle Action Office
        Title/Date                                              Completed
D-2004-087, Health          ASD (HA), in coordina-     Extended time needed for Army, AF
Care: DoD Management        tion with the Military     update of publications and
of Pharmaceutical Inven-    Surgeons General, develop contract award.
tory and Processing of      standard policies and pro-
Returned Pharmaceuticals,   cedures for pharmaceutical
6/17/2004                   inventory management
                            at the Military Treatment
                            Facilities (MTFs) and
                            also require MTFs to use
                            a pharmaceutical returns
                            company.
D-2004-091, Manage-         Report is FOUO.            Policy revisions to begin  ASD(NII)
ment of Network Cen-                                   next fiscal year.
tric Warfare Within the
Department of Defense,
6/22/2004
D-2004-094, Acquisition: Develop a process for            Normal time needed for      USD(C), ASD(HA)
Direct Care Medical Ser-   future payments of FICA        implementation.
vices Contracts, 6/24/2004 tax for individual set-aside
                           contracts. Establish a pilot
                           program for the acquisi-
                           tion of direct care medical
                           services.
D-2004-099, Reliability of Report is classified.          Corrective actions are on   NSA
National Security Agency                                  schedule.
FY 2003 Financial State-
ments (U), 7/15/2004
D-2004-104, Purchase       Recommended actions are        Extensive time needed to    Army
Card Use and Contracting designed to provide guid-        revise guidance.
Actions at the U.S. Army ance and strengthen con-
Corps of Engineers, Louis- trols over use of the Gov-
ville District, 7/27/2004  ernment Purchase Card at
                           the Louisville District and
                           at USACE Headquarters
                           levels.




148
                                                                                      Semiannual Report to Congress
        Report Number              Description of Action           Reason Action Not       Principle Action Office
          Title/Date                                                   Completed
 D-2004-118, Army Gen-          Update the DoD FMR             Long-term corrective ac-   USD(C), DFAS
 eral Fund Controls Over        to require the disclosure      tion on schedule.
 Abnormal Balances for          of unresolved abnormal
 Field Accounting Activi-       balances for all proprietary
 ties, 9/28/2004                and budgetary general
                                ledger accounts in the foot-
                                notes to the financial state-
                                ments. Identify abnormal
                                conditions impacting both
                                budgetary and proprietary
                                account balances; notify
                                accounting activities of ab-
                                normal proprietary balanc-
                                es and require explanations
                                of corrective actions; and
                                resolve abnormal balances
                                in the budgetary accounts.
 05-INTEL-13, Incident          Report is classified.         Normal time needed for      ASD(NII)
 Reporting and Foren-                                         implementation.
 sic Capabilities (U),
 5/27/2005
 05-INTEL-19, Nuclear           Report is Classified           Long-term corrective ac-   ATSD(NCB)
 Command and Control                                           tions on schedule.
 (U), 6/30/2005
 D-2005-020, Defense            DLA is identifying cost        Normal time needed to       DLA
 Logistics Agency Process-      savings realized for the       determine the full scope of
 ing of Special Program         Special Program Require-       realized monetary benefits.
 Requirements, 11/17/2004       ments (SPR) Support
                                Program.
 D-2005-022, Financial          The contract has been          Closeout work continues.   DFAS
 Management: Contract           logged and assigned to a
 Classified as Unrecon-         contractor supporting the
 cilable by the Defense         Commercial Pay Services
 Finance and Accounting         Contract Reconciliation
 Service, 12/2/2005             office for reconciliation.
                                Based on the reconcilia-
                                tion, recovery actions will
                                be initiated for any identi-
                                fied overpayments made to
                                the contractor.




                                                                                                                 149
Department of Defense Inspector General
     Report Number           Description of Action         Reason Action Not      Principle Action Office
        Title/Date                                              Completed
D-2005-024, Management     Update Navy manpower        Deployment of Total       Navy
of Navy Senior Enlisted    and personnel guidance to Force Authorization and
Personnel Assignments in   clearly define acceptable   Requirements System
Support of Operation Iraqi senior enlisted manning     (TFARS) delayed while
Freedom, 12/15/2004        levels by establishing a    awaiting acceptance from
                           minimum senior enlisted     15 of 52 receiving com-
                           manning level as the base- mands and implementa-
                           line for identifying senior tion of revised and addi-
                           enlisted manning deficien- tional requirements.
                           cies that would require
                           immediate action.
D-2005-026, Financial      USACE is implementing       Implementation has been Army
Management: Reliability system changes to improve delayed by higher manage-
of U.S. Army Corps of En- the reliability or record-   ment priorities.
gineers, Civil Works, Fund ing and reporting Fund
Balance With Treasury and Balance With Treasury and
Unexpended Appropria-      Unexpended Appropria-
tions, 12/28/2004          tions accounts.
D-2005-028, DoD Work- Establish minimum train- Corrective actions are on         USD(AT&L)
force Employed to Con-     ing standards for compe-    schedule.
duct Public Private Com- tition officials and DoD
petitions Under the DoD functional and technical
Competitive Sourcing       experts assigned to work
Program, 2/1/2005          on public-private competi-
                           tions, and advise the DoD
                           component competitive
                           sourcing officials concern-
                           ing defining and docu-
                           menting minimum edu-
                           cation and/or experience
                           requirements.




150
                                                                                  Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not      Principle Action Office
         Title/Date                                                  Completed
 D-2005-033, Acquisition:   Prepare and staff a DoD         Held in abeyance, pending ASD(NII)
 Implementation of In-      Directive that specifies the    resolution of mediation on
 teroperability and Infor-  types of systems and sys-       a subsequent report.
 mation Assurance Policies  tem information capability
 for Acquisition of Navy    requirements to be in-
 Systems, 2/2/2005          cluded in the inventory for
                            Global Information Grid
                            assets; and the responsibili-
                            ties of DoD Components
                            in populating and main-
                            taining the inventory for
                            Global Information Grid
                            assets.
 D-2005-035, Existence of USACE-wide implementa-            Implementation has been Army
 U.S. Army Corps of Engi- tion of corrective actions        delayed by higher manage-
 neers Buildings and Other regarding Buildings and          ment priorities.
 Structures, 2/15/2005      Other Structures is being
                            performed.
 D-2005-045, FY 2004        DLA establish and distrib-      Normal time needed for      DLA
 Emergency Supplemental ute standard operating pro-         implementation.
 Funding for the Defense    cedures for calculating and
 Logistics Agency, 5/9/2005 reporting incremental cost
                            information.
 D-2005-046, Financial      Correct the identified er-      Long-term corrective ac-    Army
 Management: Indepen-       rors and perform a review       tion on schedule.
 dent Examination of the    of other leased and trans-
 Rights to U.S. Army Corps ferred structures for similar
 of Engineers Buildings     types of rights errors;
 and Other Structures,      review and update policies
 3/25/2005                  and procedures to prevent
                            future errors; and provide
                            and document training to
                            consistently implement the
                            new policies and proce-
                            dures.
 D-2005-051, Independent USACE will establish an            Corrective actions are on   Army
 Examination of the Land    oversight process that pro-     schedule.
 Assets at the U.S. Army    vides periodic reviews by
 Corps of Engineers, Civil Civil Works headquarters
 Works, 4/6/2005            of land asset transactions at
                            the activity level.



                                                                                                             151
Department of Defense Inspector General
      Report Number             Description of Action          Reason Action Not      Principle Action Office
         Title/Date                                                Completed
D-2005-054, Audit of the     Report is FOUO.               Report had been in media- ASD(NII)
DoD Information Tech-                                      tion and has been recently
nology Security Certifica-                                 resolved.
tion and Accreditation
Process, 4/28/2005
D-2005-056, Reliability      Report is classified.         Corrective actions are on   NGA
of the FY 2004 Financial                                   schedule.
Statements for the Nation-
al Geospatial-Intelligence
Agency (U), 4/29/2005
D-2005-069, Audit of the     Report is FOUO.               Corrective actions are on   DFAS
General and Application                                    schedule.
Controls of the Defense
Civilian Pay System,
5/13/2005
D-2005-074, Support          Report is classified.         Corrective actions are on   NSA
for Reported Obligations                                   schedule.
for the National Security
Agency (U), 6/28/2005
D-2005-078, Audit of the     Ensure that ERGM pro-         Extended time needed        Navy
Extended Range Guided        gram provides for appro-      to revise and coordinate
Munitions Program,           priate validation, testing,   major system acquisition
6/15/2005                    and funding of require-       documentation.
                             ments.
D-2005-093, Information      Report is FOUO.               Corrective actions are on   DFAS, DISA, Army
Technology Management:                                     schedule.
Technical Report on the
Standard Finance System,
8/17/2005
D-2005-094, Proposed         Report is FOUO.               Report had been in media- ASD(NII)
DoD Information Assur-                                     tion and has been recently
ance Certification and                                     resolved.
Accreditation Process,
7/21/2005




152
                                                                                        Semiannual Report to Congress
       Report Number               Description of Action           Reason Action Not         Principle Action Office
          Title/Date                                                   Completed
 D-2005-096, DoD Pur-           DoD is establishing new        Corrective actions are be-   USD(AT&L), USD(C)
 chases Made Through the        policies and revising the      ing implemented.
 General Services Adminis-      DoD FMR to improve
 tration, 7/29/2005             intergovernmental transac-
                                tions, the use of Military
                                Departmental Purchase
                                Requests (MIPR), and as-
                                sisted acquisitions.
 D-2005-097, Audit-             Report is classified.      Competing management             DIA
 ability Assessment of the                                 priorities.
 Financial Statements for
 the Defense Intelligence
 Agency (U), 8/18/2005
 D-2005-103, Develop-           Develop new controls and       Corrective actions are on    Navy
 ment and Management of         fully implement existing       schedule.
 the Army Game Project,         controls to ensure that all
 8/24/2005                      resources are safeguarded;
                                and revise Navy guidance
                                on accountability over
                                pilferable property to be
                                consistent with the DoD
                                guidance.
 D-2005-108, Review of          The USACE is establishing      Lack of management           Army
 the U.S. Army Corps of         a comprehensive correc-        attention in fully imple-
 Engineers, Civil Works         tion action program to         menting corrective action.
 Balance Sheet Reporting        ensure that the instructions
 and Financial Statement        provided in the informa-
 Compilation, 9/16/2005         tion papers are fully and
                                consistently executed at all
                                USACE activities.
 D-2006-003, Security           Action is being taken by       Normal time needed for       Army, Navy, AF, USD(I),
 Controls Over Selected         the ASD (HA), USD (I),         implementation.              ASD(HA)
 Military Health System         and the Military Depart-
 Corporate Database,            ments to improve protec-
 10/7/2005                      tion of sensitive informa-
                                tion.
 D-2006-004, Acquisition        Report is FOUO.                Extensive time needed        USD(AT&L)
 of the Objective Indi-                                        to coordinate and issue
 vidual Combat Weapon,                                         policy.
 10/7/2005




                                                                                                                   153
Department of Defense Inspector General
     Report Number             Description of Action          Reason Action Not        Principle Action Office
        Title/Date                                                Completed
D-2006-007, Contracts      The DCAA will conduct          Normal time for DCAA        Army
Awarded to Assist the      an audit of costs of task      to plan and conduct an
Global War on Terrorism    orders awarded under           review.
by the U.S. Army Corps of  Contract No. DACA78
Engineers, 10/14/2005      03 D0002. Three of four
                           recommendations in the
                           report are complete.
D-2006-009, Independent The U.S. Army Corps               Corrective actions are on   Army
Examination of Valuation of Engineers is updating         schedule.
and Completeness of U.S. policy and procedures,
Army Corps of Engineers, assessing system changes
Buildings and Other Struc- to the Corps of Engineers
tures, 9/28/2005           Financial Management
                           System, and working
                           to correct data accuracy
                           deficiencies through new
                           regional assessment teams.
D-2006-010, Contract       The AT&L will issue guid-      Normal time to develop      USD(AT&L), Army
Surveillance for Service   ance defining roles and        and implement new guid-
Contracts, 10/28/2005      responsibilities of contract   ance and procedures.
                           administration personnel
                           regarding the monitoring
                           of contractor performance.
                           The Army will develop
                           management controls to
                           ensure contract surveil-
                           lance is adequately per-
                           formed and documented.
                           Eleven of fifteen recom-
                           mendations in the report
                           are complete.
D-2006-011, Report on      Improve internal controls      Corrective actions are on   DFAS
the Foreign Military Sales of the FMS cash manage-        schedule.
Trust Fund Cash Manage- ment program. Establish
ment, 11/7/2005            adequate audit trails to en-
                           able managers or auditors
                           to verify disbursements.
D-2006-026, Air Force      Report is classified.          Corrective actions are on   AF
Operational Mobility                                      schedule.
Resources in the Pacific
Theater (U), 11/17/2005



154
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action           Reason Action Not      Principle Action Office
          Title/Date                                                   Completed
 D-2006-039, Internal           The USD(C) will update         Report had been in media- USD(C), DFAS
 Controls Over the Com-         the FMR and DFAS will          tion and has been recently
 pilation of the Air Force,     rescind an old instruction     resolved.
 General Fund, Fund Bal-        and update and formalize
 ance With Treasury for FY      other SOPs to improve
 2004, 12/22/2005               internal controls over the
                                compilation of the Air
                                Force, General Fund, Fund
                                Balance with Treasury.
 D-2006-041, Operational        Report is Classified.      Report has been recently        Army, USFK, MC
 Mobility: Gap-Crossing                                    resolved.
 Resources for the Korean
 Theater, 12/26/2005
 D-2006-027, Contract           Increase production rates      Corrective actions are on   USD(AT&L)
 Award and Administration       to expedite the replace-       schedule.
 of Coupling Half Quick         ment of older protec-
 Disconnect, 11/23/2005         tive masks and identify a
                                nontoxic sealant alternative
                                to replace the hexavalent
                                chromium sealant on the
                                coupling half quick dis-
                                connect in future procure-
                                ments.
 D-2006-028, DoD Re-            Revise DoD guidance to         Normal time to review,      USD(AT&L)
 porting System for the         improve accounting of          revise and implement new
 Competitive Sourcing           transition costs, tracking     guidance.
 Program, 11/22/2005            and reporting competition
                                costs, validating and re-
                                viewing records, capturing
                                contractors’ past perfor-
                                mance information, and
                                tracking and monitoring
                                the performance of MEOs.
 D-2006-030, Report on          Report is FOUO.                Corrective actions are on   DISA
 Diagnostic Testing at                                         schedule.
 the Defense Information
 Systems Agency, Center
 for Computing Services,
 11/30/2005




                                                                                                                155
Department of Defense Inspector General
      Report Number            Description of Action           Reason Action Not        Principle Action Office
         Title/Date                                                Completed
D-2006-031, Report on        Report is FOUO.               Corrective actions are on   DISA
Penetration Testing at                                     schedule.
the Defense Information
Systems Agency, Center
for Computing Services,
11/30/2005
D-2006-042, Security         Ensure information in    Report had been in media- ASD(NII)
Status for Systems Report-   DoD information technol- tion and has been recently
ed in DoD Information        ogy database is accurate resolved.
Technology Databases,        and complete.
12/30/2005
D-2006-043, Financial        Establish procedures to     Management corrective      Army
Management: Report on        ensure the appropriate      actions on schedule.
Army Management of the       funding of the Army Game
Army Game Project Fund-      Project, determine if there
ing, 1/6/2006                have been any Antidefi-
                             ciency Act violations and
                             report any such violations,
                             as required.
D-2006-044, Controls         Report is FOUO.             Report had been in media- Army
Over the Export of Joint                                 tion and has been recently
Strike Fighter Technology,                               resolved.
1/11/2006
D-2006-046, Technical        Report is FOUO.               Corrective actions are on   USD(AT&L)
Report on the Defense                                      schedule.
Property Accountability
System, 1/27/2006
D-2006-048, Report on        Report is FOUO.               Corrective actions are on   Navy
Reliability of Financial                                   schedule.
Data Accumulated and
Reported by the Space
and Naval Warfare System
Centers, 1/31/2006
D-2006-050, Report on        Cross SYSCOM Lean Six         Corrective actions are on   Navy
Accuracy of Navy Con-        Sigma black belt project is   schedule.
tract Financing Amounts,     being completed that will
2/7/2006                     include an end-to-end re-
                             view of the disbursements
                             process.




156
                                                                                        Semiannual Report to Congress
        Report Number              Description of Action            Reason Action Not         Principle Action Office
           Title/Date                                                   Completed
 D-2006-052, DoD Or-            Establish clear procedures      Policy update is under revi- Navy
 ganization Information         that designate organiza-        sion.
 Assurance Management of        tion-specific roles &
 Information Technology         responsibilities for tracking
 Goods and Services Ac-         training.
 quired Through Interagen-
 cy Agreements, 2/23/2006
 D-2006-053, Select Con-  Prepare a contingency plan            Corrective actions are on   MDA
 trols for the Informationfor GCN and an Incidence              schedule.
 Security of the Ground-  Response Plan for GCN
 Based Midcourse Defense  to meet requirements of
 Communications Net-      DoDI 8500.2 and NISTS
 work, 2/24/2006          Pub 800-34.
 D-2006-054, DoD Pro-     The USD(C) is develop-                Corrective actions are gen- USD(C), Army, Navy, AF
 cess for Reporting Con-  ing a forum to address                erally on schedule.
 tingent Legal Liabilities,
                          development of solutions
 2/24/2006                for providing meaningful
                          assessments of contingent
                          legal liabilities, and de-
                          velop and implement a
                          uniform methodology for
                          estimating, aggregating,
                          and reporting them. The
                          Services are working to
                          ensure that “Other Liabili-
                          ties” and contingent liabili-
                          ties are fully supported and
                          appropriately disclosed.
 D-2006-055, Spare Parts  The DLA will revise guid-             Report had been in media- DLA
 Procurements From Trans- ance and conduct training             tion and has been recently
 Digm, Inc., 2/23/2006    to strengthen contracting             resolved.
                          policies and procedures.
                          Additionally, the DLA
                          will meet with TransDigm
                          management to achieve
                          improvements and DLA
                          will also evaluate the suit-
                          ability of reverse engineer-
                          ing TransDigm items.




                                                                                                                    157
Department of Defense Inspector General
     Report Number              Description of Action          Reason Action Not        Principle Action Office
        Title/Date                                                 Completed
D-2006-056, Financial         The Air Force will con-      Normal time to revise and   AF
Management: Report on         duct reviews of potential    implement new guidance
Vendor Pay Disbursement       ADA violations, review       and training.
Cycle, Air Force General      and revise existing policy
Fund: Contract Formation      guidance and training
and Funding, 3/6/2006         and emphasize the need
                              for additional training in
                              appropriations law and
                              inherently governmental
                              activities.
D-2006-057, Corrective        Report is classified.        Corrective actions are on   NGA
Actions for Previously                                     schedule.
Identified Deficiencies Re-
lated to the National Geo-
spatial-Intelligence Agency
Financial Statements (U),
2/28/2006
D-2006-059, Air Force         The Air Force will perform Corrective actions are on     AF
Procurement of 60K Tun-       analyses to determine the  schedule.
ner Cargo Loader Con-         best value approach and
tractor Logistics Support,    the feasibility of teaming
3/3/2006                      with the Marine Corps.
D-2006-060, Systems En-       Report is FOUO.            Extended time needed to       MDA
gineering Planning for the                               complete and coordinate
Ballistic Missile Defense                                systems engineering plan-
System, 3/2/2006                                         ning documents.
D-2006-061, Source Selec-     Report is FOUO.            Corrective actions are on     USD(AT&L)
tion Procedures for the                                  schedule.
Navy Construction Capa-
bilities, 3/3/2006
D-2006-062, Internal          Improve internal controls Corrective actions are on      AF
Controls Over Compiling       over the compilation and     schedule.
and Reporting Environ-        reporting of cost-to-com-
mental Liabilities Data,      plete estimates for environ-
3/15/2006                     mental liabilities.




158
                                                                                       Semiannual Report to Congress
       Report Number               Description of Action            Reason Action Not         Principle Action Office
          Title/Date                                                     Completed
 D-2006-063, Financial          Perform reviews and rec-        Required coordination        DFAS
 Management: Report on          onciliations of uncleared       efforts for discontinued
 Internal Controls Over         transactions, ensure ap-        research are taking longer
 Department Expenditure         propriate resolution, and       than expected.
 Operations at Defense          enforce applicable DoD
 Finance and Account-           FMR policy.
 ing Service Indianapolis,
 3/10/2006
 D-2006-067, Controls           Improve the guidance            Management corrective        USD(P)
 Over Exports to China,         and documentation for           actions on schedule.
 3/30/2006                      the export review process.
                                Expand access to USX-
                                PORTS within DoD.
 D-2006-069, Technical          Report is FOUO.                 Corrective actions are on    DFAS
 Report on the Defense                                          schedule.
 Business Management
 System, 4/3/2006
 D-2006-071, Acquisition:       Finalize and approve mu-        Finalizing focus group’s     STRATCOM, MDA
 Capabilities Definition        tually supportive directives    input to the directive.
 Process at the Missile De-     outlining each organiza-
 fense Agency, 4/5/2006         tions roles and responsibili-
                                ties with respect to capabil-
                                ity-based requirements.
 D-2006-073, Human              Develop and implement           Corrective actions are on    USD(AT&L)
 Capital: Report on the         written standard operating      schedule.
 DoD Acquisition Work-          procedures and guidance
 force Count, 4/17/2006         for counting the acquisi-
                                tion workforce to include
                                definitions of workforce
                                count and methodologies
                                and procedures used to
                                perform periodic counts,
                                and requirements to main-
                                tain and support related
                                documentation. Revise
                                DoD guidance to update
                                information requirements
                                for automated data files.
 D-2006-075, Acquisi-           Report is FOUO.                 Corrective actions are on    AF
 tion of the Joint Primary                                      schedule.
 Aircraft Training System,
 4/12/2006


                                                                                                                    159
Department of Defense Inspector General
       Report Number          Description of Action          Reason Action Not         Principle Action Office
         Title/Date                                               Completed
D-2006-076, Financial       DFAS will process a          Personnel turnover and      Army
Management: Report on       System Change Request        competing management
DoD Compliance With         to have the Prompt Pay ap- priorities.
the Prompt Payment Act      plication (system) changed
on Payments to Contrac-     to ensure that invoices are
tors., 4/19/2006            paid in accordance with
                            the Prompt Payment Act.
D-2006-077, DoD Se-         Updating policies for the    Extensive time required to USD(I), DISA, AF
curity Clearance Process    DoD Personnel Secu-          update DoD Regulation.
at Requesting Activities,   rity Clearance Program to Other issuances are depen-
4/19/2006                   include various informa-     dent upon that updated
                            tion including program       version of that Regulation.
                            management and inves-        Lack of management re-
                            tigative responsibilities,   sponsiveness from USD(I).
                            security clearance systems,
                            submission processes,
                            types and levels of security
                            clearances, and training
                            requirements for security
                            personnel.
D-2006-078, Information     Report is FOUO.              Corrective actions ongo-    ASD(NII)
Systems Security: Defense                                ing. Estimated completion
Information Systems                                      date is December 2007.
Agency Encore II Informa-
tion Technology Solutions
Contract, 4/21/2006
D-2006-079, Review of       Update Business Systems    Actions delayed pending       DLA
the Information Security    Modernization Energy       Service/Agency internal
Operational Controls of     (Fuels Automated Sys-      accreditations.
the Defense Logistics       tem) plan of action and
Agency’s Business Systems   milestones to include all
Modernization-Energy,       security weaknesses based
4/24/2006                   on the current system con-
                            figuration.




160
                                                                                      Semiannual Report to Congress
      Report Number                Description of Action          Reason Action Not          Principle Action Office
         Title/Date                                                   Completed
 D-2006-080, Use of En-         Identify practices, pro-      Long-term corrective ac-      USD(AT&L)
 vironmental Insurance by       cesses, and strategies for    tion on schedule.
 the Military Departments,      effectively using environ-
 4/27/2006                      mental insurance; establish
                                milestones for issuing
                                overarching guidance on
                                the Department’s position
                                on the use of environ-
                                mental insurance; estab-
                                lish a process to evaluate
                                whether DoD is achieving
                                the anticipated benefits of
                                risk reduction, cost sav-
                                ings, timely completion
                                of cleanup projects, and
                                increased used of perfor-
                                mance-based contracting
                                for environmental cleanup
                                services, as it relates to
                                environmental insurance.
 D-2006-081, Financial          Report is FOUO.             Corrective actions are on       NSA
 Management: Recording                                      schedule.
 and Reporting of Transac-
 tions by Others for the
 National Security Agency,
 4/26/2006
 D-2006-083, Report on          Report is Classified.         Corrective actions are on     JS, STRATCOM, USD (I)
 Information Operations in                                    schedule.
 U.S. European Command
 (U), 5/12/2006
 D-2006-085, Vendor             The Air Force will              Corrective actions are on   AF
 Pay Disbursement Cycle,        strengthen internal con-        schedule
 Air Force General Fund:        trols on the coordinated
 Funds Control, 5/15/2006       efforts of receiving officials,
                                resource managers, and
                                funds holders who oversee
                                the status of funds.




                                                                                                                   161
Department of Defense Inspector General
       Report Number            Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                 Completed
D-2006-086, Information       Report is FOUO.               Corrective actions are on     DISA
Technology Management:                                      schedule.
Report on General and
Applications Controls at
the Defense Information
Systems Agency, Center
for Computing Services,
5/18/2006
D-2006-087, Acquisition:      Report is FOUO.               Lack of management re-        Army
Acquisition of the Objec-                                   sponsiveness.
tive Individual Combat
Weapon Increments II and
III, 5/15/2006
D-2006-089, Acquisi-          Develop additional or         Normal time needed for        ASD(HA)
tion of the Armed Forces      more robust mitigation        implementation.
Health Longitudinal           strategies that address the
Technology Application,       risks related to Commer-
5/18/2006                     cial Off the Shelf (COTS)
                              product integration.
D-2006-096, Information       Report is FOUO.               Site Assisted Visits (SAVs)   MDA
Technology Management:                                      are in progress.
Select Controls for the In-
formation Security of the
Command and the Con-
trol Battle Management
Communications System,
7/14/2006
D-2006-099, Purchase          Require contracting          Management corrective          Army
Card Program Controls at      activities establish written actions on schedule.
Selected Army Locations,      policies and procedures
7/21/2006                     for retaining purchase card
                              transaction documents
                              and establish controls to
                              ensure all cardholders and
                              approving officials receive
                              required purchase card
                              training.




162
                                                                                          Semiannual Report to Congress
      Report Number                Description of Action           Reason Action Not         Principle Action Office
         Title/Date                                                    Completed
 D-2006-100, Procurement        The Air Force will develop     Corrective actions are be-   AF
 Procedures Used for Next       a plan to improve the          ing implemented.
 Generation Small Loader        collection, analysis, and
 Contracts, 8/1/2006            reporting of maintenance
                                data for the Halvorsen
                                fleet; and transition from a
                                base level funded sustain-
                                ment construct to ICS,
                                and then to a CLS contract
                                to improve readiness. Also,
                                the Air Force agreed to re-
                                view the basing plan for all
                                loaders to ensure optimum
                                usage, and ensure that fu-
                                ture FAR Part 12 and Part
                                15 acquisitions adequately
                                meet operational require-
                                ments.
 D-2006-101, Acquisition:       Complete a thorough BCA        Normal time needed for       AF
 Procurement Procedures         that evaluates multiple sus-   implementation.
 Used for C-17 Globe-           tainment options for the
 master III Sustainment         C-17 Globemaster III air-
 Partnership Total System       craft. Also, develop policy
 Support, 7/21/2006             that will require future
                                Air Force public-private
                                partnership contracts to
                                identify the resources be-
                                ing procured with private
                                investment.
 D-2006-102, Marine             The USDC will revise           Corrective actions are be-   USD(C), MC
 Corps Governmental Pur-        the DoD FMR to clarify         ing implemented.
 chases, 7/31/2006              requirements concern-
                                ing D&Fs for interagency
                                support. The Marine
                                Corps will update MCO
                                P7300.21 to strengthen
                                policies and procedures for
                                the use of Military Inter-
                                departmental Purchase
                                Requests (MIPR) and will
                                also update training in the
                                use of MIPRs.


                                                                                                                   163
Department of Defense Inspector General
     Report Number             Description of Action            Reason Action Not        Principle Action Office
        Title/Date                                                  Completed
D-2006-106, Allegations      Issue revised guidance         Extensive time needed to    AF
Concerning Mismanage-        to mitigate frequency          coordinate and issue policy
ment of the Aerial Targets   interference risks and to      guidance.
Program, 8/4/2006            emphasize Joint Tactical
                             Radio System notification
                             requirements.
D-2006-108, Provid-          AT&L will establish a De-      Corrective actions are on   USD(AT&L), USD(C),
ing Interim Payments to      fense Federal Acquisition      schedule. Normal time       DFAS
Contractors in Accordance    Regulation Supplement          required to update the
With the Prompt Payment      case to evaluate the costs     DFARS.
Act, 9/1/2006                and benefits of revising
                             the DoD policy of paying
                             cost reimbursable service
                             contracts on an accelerated
                             basis(14 days). Also, the
                             USD (C) will revise the
                             DoD Financial Manage-
                             ment Regulation, Volume
                             10, Chapter 7, entitled
                             “Prompt Payment Act”, to
                             reflect the list of contract
                             financing payments identi-
                             fied in the Federal Acqui-
                             sition Regulations, Part
                             32.001.
D-2006-111, Expanded         Revise contingency-related     Delays in coordinating and USD(AT&L), AF, DISA
Micro-Purchase Authority     purchase card guidance         issuing policy.
for Purchase Card Transac-   and improve efforts to dis-
tions Related to Hurricane   seminate and implement
Katrina, 9/27/2006           guidance. Also, establish a
                             robust oversight presence
                             and significantly strength-
                             en internal controls to
                             mitigate the risk of fraud,
                             waste, and abuse.




164
                                                                                         Semiannual Report to Congress
      Report Number                Description of Action          Reason Action Not      Principle Action Office
          Title/Date                                                  Completed
 D-2006-114, Budget             Develop and execute SOPs Long-term corrective ac-       DFAS
 Execution Reporting at         to: record and report ob-    tion on schedule.
 Defense Finance and            ligations incurred against
 Accounting Service India-      category codes that are
 napolis, 9/25/2006             consistent with the ap-
                                portionment category
                                codes; adjust the amounts
                                submitted to the Trea-
                                sury and reported on the
                                Army Report on Budget
                                Execution and Budget-
                                ary Resources; perform a
                                quarterly reconciliation on
                                those amounts; notify the
                                Treasury when amounts
                                on the OMB Report on
                                Budget Execution and
                                Budgetary Resources are
                                not accurate; and disclose
                                the existence of material
                                unreconciled differences in
                                budget execution data as
                                part of the footnote disclo-
                                sures to the Army financial
                                statements.
 D-2006-115, Acquisition:       Propose a legislative        Legislative proposal in-   USD(AT&L)
 Commercial Contracting         change to amend Section      cluded in NDAA FY 2008
 for the Acquisition of De-     2306a (b), Title 10, U.S.C. currently under U.S. Sen-
 fense Systems, 9/29/2006       to clarify the term Com-     ate review.
                                mercial Item in the Federal
                                Acquisition Regulation.
 D-2006-117, American           Update DoD Regulation        Impacted by BRAC con-      ASD(PA)
 Forces Network Radio           5120.20-R to provide writ- solidation of AFIS and
 Programming Decisions,         ten policies, controls, and internal communications
 9/27/2006                      procedures for the radio     functions of the services.
                                programming decision-
                                making process.




                                                                                                               165
Department of Defense Inspector General
      Report Number           Description of Action        Reason Action Not        Principle Action Office
         Title/Date                                            Completed
D-2006-118, Financial      Issue policy guidance       USD (C) actions contin-     USD(C), NORTHCOM
Management: Financial      directing the closeout of   gent on revision of ASD
Management of Hurricane    Hurricane Katrina mission (HD) guidance; corrective
Katrina Relief Efforts at  assignments and return      actions predicated upon
Selected DoD Compo-        of reimbursable funding     actions by outside agen-
nents, 9/27/2006           authority to FEMA. Revise cies.
                           DoD FMR to reflect
                           changes in financial man-
                           agement responsibilities.
D-2006-123, Program        Report is FOUO.             Lack of management re-      Army
Management of the Objec-                               sponsiveness.
tive Individual Combat
Weapon Increment I,
9/29/2006
D-2007-002, Logistics:     Revise DoDD 3025.1,         Normal time needed for      ASD(HD)
Use of DoD Resources       Military Support to Civil   implementation.
Supporting Hurricane Ka- Authorities, to identify
trina Disaster, 10/16/2006 ASD (HD) as executive
                           agent for defense support
                           of civil authorities and
                           the USNORTHCOM as
                           the supporting combatant
                           command for defense sup-
                           port of civil authorities.
D-2007-005, Army Acqui- Accelerate the development Lack of management re-          Army
sition Executive’s Man-    of the Future Business      sponsiveness
agement Oversight and      System and ensure that it
Procurement Authority for contains the documenta-
Acquisition Category I and tion needed for milestone
II Programs, 10/12/2006    decision authorities to
                           exercise their management
                           oversight responsibilities.
D-2007-007, FY 2005        The USD (Comptroller)       Corrective actions are on   USD(C)
DoD Purchases Made         will update policy guidance schedule
Through the General        on the use and difference
Services Administration,   between Economy Act
10/30/2006                 orders and Non-Economy
                           Act orders.




166
                                                                                   Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not       Principle Action Office
         Title/Date                                                 Completed
 D-2007-008, Acceptance      The Air Force and the         Extensive time required     AF
 and Surveillance of F-16    DCMA will develop qual-       to coordinate and issue
 Mission Training Cen-       ity assurance surveillance    policy, and to update qual-
 ter Simulation Services,    plans for the follow on       ity assurance plans.
 11/1/2006                   F-16 Mission Training
                             Center simulation service
                             contract. The Air Force
                             will revise AFI 36-2251
                             to more clearly define the
                             roles and responsibilities of
                             personnel who manage and
                             administer simulation ser-
                             vice contracts throughout
                             all major commands.
 D-2007-010, Army Small Army is following up on            Normal time needed for      Army
 Arms Program that Relates the findings and recom-         implementation.
 to Availability, Maintain-  mendations of the Soldier
 ability, and Reliability of Weapons Assessment Team
 Small Arms Support for      Report Number 6-03.
 the Warfighter, 11/2/2006
 07-INTEL-10, Report on Report is classified.              Report is classified.       AF, DAM
 Defense Hotline Com-
 plaint on Pentagon Force
 Protection Agency Acquisi-
 tion of Technical Surveil-
 lance Countermeasures
 and Security Support (U),
 7/11/2007
 D-2007-023, DoD Pur-        The USD(AT&L) will            Corrective actions are on   USD(AT&L), Navy, DISA
 chases Made Through the develop and imple-                schedule.
 National Aeronautics and ment policy guidance to
 Space Administration,       strengthen DoD contract-
 11/13/2006                  ing procedures and train-
                             ing requirements. The
                             Navy will develop training
                             for contracting personnel
                             on proper acquisition plan-
                             ning and administration of
                             interagency acquisitions.
                             The DISA will strengthen
                             contracting procedures
                             in the proper use of non-
                             DoD contracts.

                                                                                                              167
Department of Defense Inspector General
      Report Number           Description of Action           Reason Action Not        Principle Action Office
         Title/Date                                               Completed
D-2007-024, Management USD(P&R) will establish a          Long-term corrective ac-    USD(P&R), DFAS
and Use of the Defense     process to collect complete,   tions on schedule.
Travel System, 11/13/2006 reliable, and timely DoD
                           travel information and es-
                           tablish necessary improve-
                           ments to maximize benefits
                           of Defense Travel System.
                           DFAS will develop, docu-
                           ment, and implement a
                           reconciliatory process from
                           disbursing systems to work
                           counts in e-Biz.
D-2007-025, Acquisi-       Report is FOUO.                Extended time needed to    PACOM
tion of the Pacific Mobile                                analyze costs and complete
Emergency Radio System,                                   required program docu-
11/22/2006                                                ments.

D-2007-028, Controls        DFAS has developed the        Corrective actions are on   DFAS
Over Army Cash and          agent officer roster but it   schedule.
Other Monetary Assets,      needs to be verified.
11/24/2006

D-2007-029, Auditability Report is classified.            Corrective actions are on   DIA
Assessment of the Defense                                 schedule.
Intelligence Agency Busi-
ness Processes for the Iden-
tification, Documentation,
and Reporting of Property,
Plant, and Equipment (U),
11/30/2006
D-2007-039, Informa-         Report is FOUO.              Report is FOUO.             MDA
tion Assurance of Missile
Defense Agency Informa-
tion Systems (FOUO),
12/21/2006




168
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not       Principle Action Office
         Title/Date                                                Completed
 D-2007-040, General and Improve the reliability of        Long-term corrective ac-   Navy
 Application Controls Over
                         financial information by          tion on schedule.
 the Financial Managementstrengthening the general
 System at the Military Sea-
                         and application controls
 lift Command, 1/2/2007  over the Military Sealift
                         Command’s Financial
                         Management System. Spe-
                         cifically, improve internal
                         controls over entity-wide
                         security program planning
                         and management, access
                         controls, software develop-
                         ment and change controls,
                         system software, segrega-
                         tions of duties, service
                         continuity, authorization,
                         and accuracy.
 D-2007-041, Navy Gener- Update the DoD FMR          Corrective actions are on        USD(C), DFAS, Navy
 al Fund Vendor Payments to be in full compliance    schedule.
 Processed By Defense    with Statement of Federal
 Finance and Accounting  Financial Accounting Stan-
 Service, 1/2/2007       dards Number 1; improve
                         the recording of DoN
                         accounts payable (A/P)
                         transactions; identify the
                         accounts payable record-
                         ing as an assessable unit
                         and develop procedures to
                         test compliance with Navy
                         General Fund; strengthen
                         procedures to ensure that
                         supporting documentation
                         for all non-Electronic Data
                         Interchange vendor pay-
                         ment transactions is main-
                         tained and supports proper
                         disbursements; improve
                         payment and operating
                         procedures used to make
                         vendor payments; require
                         all certifying officials to
                         provide supporting docu-
                         ments.

                                                                                                             169
Department of Defense Inspector General
      Report Number            Description of Action          Reason Action Not          Principle Action Office
        Title/Date                                                Completed
D-2007-042, Potential        Consult with the Office      Extensive time needed to      USD(C), DFAS
Antideficiency Act Viola-    of General Counsel to        investigate potential ADA
tions on DoD Purchases       independently assess and     violations and coordinate
Made Through Non-DoD         determine whether formal manual reconciliation ef-
Agencies, 1/2/2007           investigations should occur forts.
                             for the potential Antidefi-
                             ciency Act violations. Also,
                             work with DFAS in iden-
                             tifying reimbursements for
                             purchases to Non-DoD
                             agencies citing funds that
                             are either expired or closed
                             and no longer available for
                             use.
D-2007-043, Controls         The Army and Air Force       Extensive time required to    Army, AF
Over the Army, Navy, and     will issue purchase card     coordinate and issue policy
Air Force Purchase Card      guidance and improve         guidance.
Programs, 1/10/2007          efforts to disseminate and
                             implement guidance.
D-2007-044, FY 2005          The U.S. Army will revise Corrective actions are on        Army
DoD Purchases Made           its internal policy guid-    schedule.
Through the Department       ance on the proper use of
of the Interior, 1/16/2007   non-DoD contract instru-
                             ments. Additionally, the
                             ASA(FM&C) is devel-
                             oping an informational
                             pamphlet on interagency
                             agreements.
D-2007-045, Acquisition      Report is FOUO.              Lack of management re-        Army
of the Precision Guided                                   sponsiveness.
Mortar Munition Program,
1/10/2007




170
                                                                                         Semiannual Report to Congress
       Report Number               Description of Action       Reason Action Not       Principle Action Office
          Title/Date                                               Completed
 D-2007-048, Navy Spon-         The Space and Naval        Corrective actions are on     Navy
 sor Owned Material Stored      Warfare Systems Centers    schedule.
 at the Space and Naval         (SSC) San Diego and
 Warfare Systems Centers,       Charleston (the Centers)
 1/26/2007                      will perform a wall-to-wall
                                inventory of material and
                                other assets stored at all of
                                the Centers storage loca-
                                tions. The inventory will
                                include properly classifying
                                material and other assets;
                                validation of material and
                                other asset ownership; and
                                updating the dollar value
                                (unit price) of the mate-
                                rial and other assets, as
                                needed. The Centers will
                                also support the Space and
                                Naval Warfare Systems
                                Command (SPAWAR) in
                                its planned effort to update
                                internal policies and proce-
                                dures and then their own
                                policies and procedures.
                                ASN (Financial Manage-
                                ment Operations) will
                                also publish updated Data
                                Collection Instrument
                                instructions that properly
                                define Operating Materials
                                and Supplies; and General
                                Property, Plant and Equip-
                                ment for financial report-
                                ing purposes; and provide
                                guidance and properly
                                identifying the respective
                                assets for correct categori-
                                zation.
 D-2007-049, Equipment          Report is Classified.         Report had been in media- USD(P&R)
 Status of Deployed Forces                                    tion and has been recently
 Within the U.S. Central                                      resolved.
 Command, 1/25/2007


                                                                                                             171
Department of Defense Inspector General
     Report Number             Description of Action        Reason Action Not         Principle Action Office
        Title/Date                                              Completed
D-2007-054, Quality        ASD (HA) will re-             Normal time required for    ASD(HA), Army, Navy,
Assurance in the DoD       vise DoD 6025-13-R,           implementation of recom-    AF
Healthcare System,         “Military Health System       mendations.
2/20/2007                  (MHS) Clinical Quality
                           Assurance (CQA) Pro-
                           gram Regulation,” dated
                           6/11/04 to help Military
                           Health System managers
                           monitor and improve the
                           quality of medical care in
                           the MHS and mitigate
                           the risk of financial loss.
                           Upon revision of the DoD
                           regulation, the Services will
                           revise Service-level guid-
                           ance as necessary.
D-2007-055, Contract       The USACE Ordering            Corrective actions are on   Army
Administration of the      Districts will maintain re- schedule.
Water Delivery Contract    sponsibility for monitoring
Between the Lipsey Moun- timeliness of bottled water
tain Spring Water Com-     deliveries. Each contract-
pany and the United States ing office and their internal
Army Corps of Engineers, review offices will review
2/5/2007                   processes to ensure en-
                           forcement of contract time
                           delivery parameters. The
                           USACE will issue guidance
                           reminding Field Operat-
                           ing Agencies of contract
                           requirements for properly
                           supported invoices and
                           proper recordkeeping.
D-2007-057, Use and        Report is FOUO.               Corrective actions are on   NGA
Controls Over Military In-                               schedule.
terdepartmental Purchase
Requests at the National
Geospatial-Intelligence
Agency, 2/13/2007




172
                                                                                      Semiannual Report to Congress
       Report Number               Description of Action        Reason Action Not        Principle Action Office
         Title/Date                                                 Completed
 D-2007-061, Defense            Improve processes and       Corrective actions are on   DFAS
 Finance and Accounting         procedures to ensure com-   schedule.
 Service Dayton Network         pliance with the Prompt
 Compliance With the            Payment Act.
 Prompt Payment Act,
 3/1/2007
 D-2007-062, Department     The USD(AT&L) has               Extensive time required     USD(AT&L), Navy
 of the Navy Purchases for  tasked the DUSD(I&E)            to revise policy guidance
 and From Governmental      to update DoDI 4000.19.         and develop new training
 Sources, 2/28/2007         The update will consider        course.
                            the requirements of the
                            DoD Financial Manage-
                            ment Regulation, Volume
                            11A, Chapter 3. Also,
                            the DON will update the
                            Funds Usage Documents
                            Course and the Financial
                            Management Policy Manu-
                            al, which will include
                            more detailed procedures
                            associated with MIPRs to
                            both DoD and Non-DoD
                            providers.
 D-2007-066, Navy Acqui- Improve the Dashboard              Competing priorities.     Navy
 sition Executive’s Man-    reporting system. Imple-        Extended time needed to
 agement Oversight and      ment documentation and          meet program documenta-
 Procurement Authority for testing requirements in          tion and testing require-
 Acquisition Category I and support of program mile-        ments
 II Programs, 3/9/2007      stone decision reviews.
 D-2007-067, DoD Initia- Report is FOUO.                    Report has been recently    USD(AT&L), JS, STRAT-
 tives for Combating Weap-                                  resolved.                   COM
 ons of Mass Destruction,
 3/30/2007

 D-2007-073, Financial          Develop appropriate ac-     Corrective actions are on   USD(C), ASD(HA),
 Data Processed By the          counting, measurement,      schedule.                   Army, Navy, AF
 Medical Expense and Per-       and recognition methods
 formance Reporting Sys-        for the data used in the
 tem (MEPRS), 3/21/2007         MEPRS allocation process
                                at the military treatment
                                facilities.



                                                                                                               173
Department of Defense Inspector General
                                           Appendix G

         Defense Criminal Investigative Organization Statistics

The Defense Criminal Investigative Organizations,
comprised of DCIS, the U.S. Army Criminal
Investigation Command, the Naval Criminal
Investigative Service, the Air Force Office of Special
Investigations, and the Marine Corps Criminal
Investigative Division. Monetary recoveries of
approximately $62.6 million resulted from the
investigations by the DCIOs, and are displayed by
major categories in Figure 1 (right). Figure 2 (below)
displays the total companies and individuals indicted
and convicted is 458 and 439 respectively. Figure 3
(bottom right) displays the number of companies
and individuals suspended or debarred for this period
were 24 and 80, respectively. 	



                      458            439                                        Figure 1
                                                         Total Suspension: 24
                                                         Total Debarments: 80




                  Figure 2
                                                                                           Figure 3


174
                                                                                    Semiannual Report to Congress
                                           Appendix H

                                              Acronyms

(AAA) Army Audit Agency                                (ESOH) Environment, Safety, and Occupational Health
(AFAA) Air Force Audit Agency                          (FAR) Federal Acquisition Regulation
(AFCENT) Allied Forces Central Europe                  (FBI) Federal Bureau of Investigation
(AFOSI) Air Force Office of Special Investigations     (FMS) Foreign Military Sales
(AOR) Area of Responsibility                           (FMTV) Family of Medium Tactical Vehicles
(APO) Audit Policy and Oversight                       (FY) Fiscal Year
(ATF) Alcohol, Tobacco and Firearms                    (GAO) Government Accountability Office
(CbT) Combating Terrorism                              (GSA) General Services Administration
(CCIU) Computer Crimes Investigative Unit              (GWOT) Global War on Terror
(CENTCOM) Central Command                              (HHS) United States Department of Health and Hu-
(CID) Criminal Investigative Division                  man Services
(CIFA) Counterintelligence Field Activity              (HKFTF) Hurricane Katrina Fraud Task Force
(CITF) Criminal Investigation Task Force               (HMMWV) High Mobility Multipurpose Wheeled
(COCOM) Combatant Command                              Vehicle
(COMSEC)Communications Security                        (HUD) United States Department of Housing and Ur-
(CONUS) Continental United States                      ban Development
(COR) Contracting Officer’s Representative             (ICCTF) International Contract Corruption Task Force
(CPI) Critical Program Information                     (ICE) Immigration and Customs Enforcement
(CRI) Civilian Reprisal Investigations Directorate     (IED) Improvised Explosive Device
(DCAA) Defense Contract Audit Agency                   (IG) Inspector General
(DCIE) Defense Council on Integrity and Efficiency     (IPO) Investigative Policy and Oversight
(DCIOs) Defense Criminal Investigative Organizations   (IRS) Internal Revenue Service
(DCIS) Defense Criminal Investigative Service          (ISF) Iraqi Security Forces
(DCMA) Defense Contract Management Agency              (ISR) Intelligence, Surveillance, and Reconnaissance
(DFAS) Defense Finance and Accounting Service          (IT) Information Technology
(DFS) DoD FAR Supplement                               (JCC) Joint Contracting Command
(DIB) Defense Industrial Base                          (JOC) Joint Operations Center
(DoD) Department of Defense                            (JPG) Joint Planning Group
(DODD) DoD Directive                                   (JTTF) Joint Terrorism Task Force
(DoD IG) Department of Defense Inspector General       (KBR) Kellogg, Brown & Root
(DoJ) Department of Justice                            (KIA) Killed in Action
(DoN) Department of the Navy                           (LInX) Law Enforcement Information Exchange
(DoS) Department of State                              (LOGCAP) Logistics Civil Augmentation Program
(DoT) Department of Transportation                     (LSA) Logistics Support Area
(DRMS) Defense Reutilization and Marketing Service     (MDA) Maritime Domain Awareness
(DSCC) Defense Supply Center Colombus                  (MHS) Military Health System
(DSS) Defense Security Service                         (MNF-I) Multi-National Force Iraq
(DTRA) Defense Threat Reduction Agency                 (MPFU) Major Procurement Fraud Unit
(ECIE) Executive Council on Integrity and Efficiency   (MRI) Military Reprisal Investigations


                                                                                                        175
Department of Defense Inspector General
(NASA) National Aeronautics and Space Administration    (OIF) Operation Iraqi Freedom
(NATO) North Atlantic Treaty Organization               (OMB) Office of Management and Budget
(NAVAUDSVC) Naval Audit Service                         (ONS) Operational Needs Statement
(NCIS) Naval Criminal Investigative Service             (PACOM) U.S. Pacific Command
(NCTC) National Counterterrorism Center                 (PCIE) President’s Council on Integrity and Efficiency
(NIST) National Institute of Standards and Technology   (PMI) Patient Movement Items
(NPFTF) National Procurement Fraud Task Force           (PMI) Project Management Institute
(OCCL) Office of Communications and Congressional       (PPA) Prompt Payment Act
Liaison                                                 (ROWPU) Reverse Osmosis Water Purification Units
(OCONUS) Outside Continental United States              (TPEG) Technology Protection Enforcement Working
(ODIG-AUD) Office of the Deputy Inspector General       Group
for Auditing                                            (USACIDC) U.S. Army Criminal Investigation Com-
(ODIG-INTEL) Office of the Deputy Inspector General     mand
for Intelligence                                        (USACIL) U.S. Army Criminal Investigation Laboratory
(OEE) Office of Export Enforcement                      (USAF) U.S. Air Force
(OEF) Operation Enduring Freedom                        (USMC) U.S. Marine Corps




176
                                                                                    Semiannual Report to Congress
                                                                                       Protect the Total Force
Office of the Inspector General
    Department of Defense


             VISION STATEMENT
One professional team strengthening the integrity, efficiency,
       and effectiveness of the Department of Defense.



           MISSION STATEMENT
Promote integrity, accountability, and improvement of Department
of Defense personnel, programs and operations to support the
       Department’s mission and serve the public interest                    Military	 	 	 	 Contractors	 	 	 	 Civilians
                     CORE VALUES
                                                                             Report: Fraud, Waste, and Abuse
       Accountability • Integrity • Efficiency
                                                                                         Department of Defense
                               Goal 1   Improve the economy, efficiency,
                                                                                        Inspector General Hotline
                                        and effectiveness of Department of
                                        Defense personnel, programs, and
                                        operations.
                                                                                                   1-877-363-3348
                              Goal 2    Eliminate fraud, waste, and abuse
                                        in the programs and operations of    DSN: 312-664-1151 	    Email: hotline@dodig.mil 	    www.dodig.mil/hotline
                                        the Department.
                                                                                                    Send written complaints to:
                                        Ensure the efficiency and
                                                                                                         Defense Hotline
                               Goal 3                                                                     The Pentagon
                                        effectiveness of DoD IG products,
                                        processes, and operations.                                  Washington, DC 20301-1900
